No. 19IN THE

Supreme Court of the United States
LIVING ESSENTIALS, LLC; INNOVATION VENTURES,
LLC,
Petitioners,
v.
STATE OF WASHINGTON,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE WASHINGTON COURT OF APPEALS,
DIVISION ONE
PETITION FOR A WRIT OF CERTIORARI
William S. Consovoy
Counsel of Record
J. Michael Connolly
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel for Petitioners

i
QUESTION PRESENTED
The State of Washington brought a civil action
against Petitioners under its consumer protection
law, alleging that their advertisements for 5-hour
ENERGY® were deceptive because they were “false”
and “unsubstantiated.” At trial, however, the State
abandoned its claim that the speech was false and
instead argued it was deceptive under the Federal
Trade Commission’s “prior substantiation” doctrine.
That doctrine makes a commercial speaker liable if it
lacks adequate “substantiation” for its factual claims
before making them in an advertisement—even if the
speech is never proven to be false. The trial court held
that Petitioners had not adequately substantiated
certain promotional claims about its product and the
Washington Court of Appeals affirmed.
Petitioners argued that the First Amendment
does not permit speakers to be punished for failing to
adequately “substantiate” their factual claims before
exercising their right to free speech. The court of
appeals disagreed, concluding that unsubstantiated
speech is entitled to no First Amendment protection
under this Court’s commercial speech cases, including
Central Hudson Gas & Electric Corp. v. Public Service
Commission of New York, 447 U.S. 557, 563 (1980),
because unsubstantiated speech is “misleading” as a
matter of law.
The question presented is:
Whether the prior substantiation doctrine
violates the First Amendment.

ii
PARTIES TO THE PROCEEDING AND
RELATED PROCEEDINGS
The parties to the proceeding below are as
follows:
Petitioners are Living Essentials, LLC and
Innovation Ventures, LLC. They were the defendants
in the district court and the appellants in the court of
appeals.
Respondent is the State of Washington.
Respondent was the plaintiff in the district court and
the appellee in the court of appeals.
The related proceedings below are:
1) State of Washington v. Living Essentials,
No. 14-2-19684-9 (Wash. Super. Ct.) –
Opinion dated October 7, 2016.
2) State of Washington v. Living Essentials,
LLC, 436 P.3d 857 (Wash. Ct. App.) –
Judgment entered March 18, 2019; review
denied, 449 P.3d 638 (Oct. 3, 2019).

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDING AND
RELATED PROCEEDINGS ................................. ii
TABLE OF CONTENTS ........................................... iii
TABLE OF APPENDICES .........................................v
TABLE OF AUTHORITIES..................................... vii
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED ....................................1
INTRODUCTION ........................................................2
STATEMENT OF THE CASE ....................................5
A. The treatment of commercial speech under
the First Amendment .......................................5
B. The “prior substantiation” doctrine of the
Federal Trade Commission ..............................7
C. Proceedings below.............................................8
REASONS FOR GRANTING THE PETITION .......13
I. Review is required because the decision
below contravenes the First Amendment ......14

iv
A. Controlling precedent requires the
government to shoulder the burden of
proving that the speech it seeks to
prohibit is unprotected ..............................14
B. The Court should grant the petition to
overrule Central Hudson if necessary
to protect Petitioners’ freedom of
speech ........................................................21
II. This is an appropriate case in which to
resolve these important First Amendment
issues ...............................................................25
CONCLUSION ..........................................................30

v
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE COURT OF
APPEALS OF THE STATE OF WASHINGTON,
FILED MARCH 18, 2019 .............................................1a
APPENDIX B — ORDER OF THE SUPREME
COURT OF WASHINGTON, FILED
OCTOBER 3, 2019 .......................................................39a
APPENDIX C — ORDER ON MOTION FOR
CIVIL PENALTIES, RESTITUTION,
INJUNCTIVE RELIEF, AND ATTORNEY
FEES AND COSTS IN THE STATE OF
WASHINGTON, KINGS COUNTY
SUPERIOR COURT, FILED FEBRUARY 7,
2017 ................................................................................41a
APPENDIX D — MEMORANDUM DECISION
OF THE STATE OF WASHINGTON, KING
COU NT Y SU P E RI OR COU RT , DAT E D
OCTOBER 7, 2016 .......................................................51a
APPENDIX E — ORDER OF THE SUPERIOR
COURT OF THE STATE OF WASHINGTON,
COUNTY OF KING, FILED AUGUST 1, 2016 ...133a
APPENDIX F — EXCERPT OF TRANSCRIPT
OF PROCEEDINGS OF THE SUPERIOR
COURT OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING,
DATED SEPTEMBER 8, 2016 ...............................135a

vi
APPENDIX G — EXCERPT OF TRANSCRIPT
OF PROCEEDINGS OF THE SUPERIOR
COURT OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING,
DATED SEPTEMBER 7, 2016 ...............................138a
APPENDIX H — EXCERPT OF TRANSCRIPT
OF PROCEEDINGS OF THE SUPERIOR
COURT OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING,
DATED SEPTEMBER 6, 2016 ...............................143a
APPENDIX I — EXCERPT OF TRANSCRIPT
OF PROCEEDINGS OF THE SUPERIOR
COURT OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING,
DATED SEPTEMBER 1, 2016 ...............................151a
APPENDIX J — EXCERPT OF TRANSCRIPT
OF PROCEEDINGS OF THE SUPERIOR
COURT OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING,
D A T E D A U G U S T 3 1 , 2 0 1 6 , MORNING
SESSION, 9:00 A.M. .................................................164a
APPENDIX K — EXCERPT OF TRANSCRIPT
OF PROCEEDINGS OF THE SUPERIOR
COURT OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING,
DATED AUGUST 30, 2016 ......................................170a
APPENDIX L — EXCERPT OF COMPLAINT
FOR INJUNCTIVE AND OTHER RELIEF
OF THE KING COUNTY SUPERIOR COURT
OF THE STATE OF WASHINGTON, FILED
JULY 14, 2017 ............................................................175a

vii
TABLE OF AUTHORITIES
Page(s)
Cases:
44 Liquormart, Inc. v. Rhode Island,
517 U.S. 484 (1996) .............................. 7, 21, 22, 23
Ashcroft v. Am. Civil Liberties Union,
535 U.S. 564 (2002) ..........................................5, 14
Bates v. State Bar of Arizona,
433 U.S. 350 (1977) ........................................25, 26
Bolger v. Youngs Drug Prod. Corp.,
463 U.S. 60 (1983) ..........................................14, 15
Brown v. Hartlage,
456 U.S. 45 (1982) ..........................................16, 19
Central Hudson Gas & Electric Corp. v.
Pub. Serv. Comm’n of N.Y.,
447 U.S. 557 (1980) .................................. 24, 25, 28
Chaplinsky v. New Hampshire,
315 U.S. 568 (1942) ..............................................14
City of Cincinnati v. Discovery Network, Inc.,
507 U.S. 410 (1993) .................................. 22, 23, 29
Edenfield v. Fane,
507 U.S. 761 (1993) .............................. 6, 18, 24, 29
Fed. Trade Comm’n v. Winsted Hosiery Co.,
258 U.S. 483 (1922) ................................................7
Florida Bar v. Went For It, Inc.,
515 U.S. 618 (1995) ..............................................29

viii
FTC v. Colgate-Palmolive Co.,
380 U.S. 374 (1965) ..............................................18
Garrison v. State of La.,
379 U.S. 64 (1964) ................................................18
Gertz v. Robert Welch, Inc.,
418 U.S. 323 (1974) ..............................................19
Greater New Orleans Broad. Ass’n, Inc. v.
United States,
527 U.S. 173 (1999) .................................... 6, 21, 24
Harte-Hanks Commc’ns, Inc. v. Connaughton,
491 U.S. 657 (1989) ................................................5
Hustler Magazine, Inc. v. Falwell,
485 U.S. 46 (1988) ..........................................16, 18
Ibanez v. Fla. Dep’t of Bus. & Prof’l Regulation,
Bd. of Accountancy,
512 U.S. 136 (1994) ............................ 16, 17, 18, 29
Illinois ex rel. Madigan v.
Telemarketing Assocs., Inc.,
538 U.S. 600 (2003) ...................................... passim
In re R.M.J.,
455 U.S. 191 (1982) ..............................................17
Janus v. Am. Fed’n of State, Cty.,
& Mun. Employees, Council 31,
138 S. Ct. 2448 (2018) ..........................................29
Jay Norris, Inc. v. FTC,
598 F.2d 1244 (2d Cir. 1979) ...............................18
Lorillard Tobacco Co. v. Reilly,
533 U.S. 525 (2001) ..............................................21

ix
Matal v. Tam,
137 S. Ct. 1744 (2017) ..........................................26
McCullen v. Coakley,
573 U.S. 464 (2014) ................................................5
Near v. Minnesota ex rel. Olson,
283 U.S. 697 (1931) ........................................27, 28
New York Times Co. v. Sullivan,
376 U.S. 254 (1964) ...................................... passim
NIFLA v. Becerra,
138 S. Ct. 2361 (2018) ..........................................20
Nike, Inc. v. Kasky,
539 U.S. 654 (2003) ..............................................23
Peel v. Attorney Registration
& Disciplinary Comm’n of Illinois,
496 U.S. 91 (1990) .................................... 17, 18, 29
Philadelphia Newspapers, Inc. v. Hepps,
475 U.S. 767 (1986) ........................................16, 28
Rubin v. Coors Brewing Co.,
514 U.S. 476 (1995) ..........................................7, 21
Sears, Roebuck & Co. v. FTC,
676 F.2d 385 (9th Cir. 1982) ................................18
Smith v. California,
361 U.S. 147 (1959) ..............................................15
Snyder v. Phelps,
562 U.S. 443 (2011) ..............................................29
Sorrell v. IMS Health Inc.,
564 U.S. 552 (2011) ........................................25, 26

x
Speiser v. Randall,
357 U.S. 513 (1958) ........................................14, 15
Thompson v. W. States Med. Ctr.,
535 U.S. 357 (2002) ..........................................6, 24
Time, Inc. v. Hill,
385 U.S. 374 (1967) ........................................16, 18
United States v. Alvarez,
567 U.S. 709 (2012) ........................................19, 23
United States v. Playboy Entm’t Grp., Inc.,
529 U.S. 803 (2000) ..............................................14
United States v. Reader’s Digest Ass’n, Inc.,
662 F.2d 955 (3d Cir. 1981) .................................18
United States v. Stevens,
559 U.S. 460 (2010) ..............................................17
United States v. United Foods, Inc.,
533 U.S. 405 (2001) ...................................... 5-6, 21
Virginia State Bd. of Pharmacy v.
Virginia Citizens Consumer Council, Inc.,
425 U.S. 748 (1976) ........................................22, 26
Zauderer v. Office of Disciplinary Counsel of
Supreme Court of Ohio,
471 U.S. 626 (1985) ..............................................20

Statutes and Other Authorities:
15 U.S.C. §45(a) ...........................................................7
28 U.S.C. §1257 ...........................................................1

xi
Alex Kozinski & Stuart Banner, Who’s Afraid of
Commercial Speech?, 76 Va. L. Rev. 627
(1990) .................................................. 21, 22, 23, 24
Ben Popken, Nike Takes Heat for New
Kaepernick Ad—But Is Social Activism Just
the New Ad Hook?, NBCNews (Sept. 4, 2018) ....26
I. Thomas, History of Printing in America with a
Biography of Printers, and an Account of
Newspapers (2d ed. 1810) ....................................22
Jane R. Bambauer, Snake Oil Speech,
93 Wash. L. Rev. 73 (2018) ............................24, 27
Martin H. Redish, False Commercial Speech
and the First Amendment: Understanding
the Implications of the Equivalency Principle,
25 Wm. & Mary Bill Rts. J. 765 (2017) ...............22
Policy Statement Regarding Advertising
Substantiation Program, 49 Fed. Reg.
30999-03 (Aug. 2, 1984) ...............................7, 8, 18
Restatement (Third) of Unfair Competition § 1
(1995) ....................................................................28
Restatement (Third) of Unfair Competition § 2
(1995) ....................................................................28
Stephanie W. Kanwit, 2 Fed. Trade Comm’n
§22:7 (2018) ............................................................8
Stephen M. Shapiro et al., Supreme Court
Practice, §4.14 (11th ed. 2019).............................29
Sup. Ct. R. 10(c) .........................................................13
Wash. Rev. Code §19.86.020 ........................... 2, 10, 28
Wash. Rev. Code §19.86.090 .....................................28

1
Living Essentials, LLC and Innovation
Ventures, LLC (“Petitioners”) respectfully petition for
a writ of certiorari to review the judgment of the
Washington Court of Appeals.
OPINIONS BELOW
The opinion of the Washington Court of
Appeals is reported at 436 P.3d 857 and is reproduced
in the Appendix (“Pet. App.”) at 1a-38a. The
Washington Supreme Court’s order denying
Petitioners’ petition for review is reported at 449 P.3d
658 and is available at Pet. App. 39a-40a. The opinion
of the King County Superior Court is not reported but
is reproduced at Pet. App. 51a-132a.
JURISDICTION
The Washington Supreme Court denied
discretionary review on October 3, 2019. Pet. App.
40a. This Court granted an extension to file a petition
for certiorari to and including February 3, 2020. This
Court has jurisdiction pursuant to 28 U.S.C. §1257.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The First Amendment to the United States
Constitution provides: “Congress shall make no law ...
abridging the freedom of speech ....”
The Washington Consumer Protection Act
provides: “Unfair methods of competition and unfair
or deceptive acts or practices in the conduct of any

2
trade or commerce are hereby declared unlawful.”
Wash. Rev. Code §19.86.020.
INTRODUCTION
The Washington Court of Appeals held that the
State of Washington can ban and punish commercial
speech that is “unsubstantiated”—even if the State
cannot prove that the speech in question is false. The
State instead need only prove that the speaker lacked
adequate “substantiation” for his claim. That means
the State never needs to prove that the speech is false.
Indeed, the speaker could be punished even if he is
ultimately able to prove that the speech was true. This
“prior substantiation” doctrine contradicts controlling
precedent, plainly violates the First Amendment, and
underscores the deep confusion that has been sown by
the Court’s misguided commercial speech line of cases.
Petitioners produce and sell the popular energy
shot 5-hour ENERGY®. In both print and television
advertisements, they claimed that 5-hour ENERGY®
contained “B-vitamins …, amino acids and caffeine
comparable to a cup of the leading premium coffee”
and that these ingredients “work in concert” to
provide a “feeling of alertness and energy that lasts
for hours.” These advertisements also asserted that
5-hour ENERGY® Decaf provides “hours of energy”
for people sensitive to caffeine.
The Washington Court of Appeals held that
Petitioners violated the state’s consumer protection
statute because these advertisements were deceptive.
The court of appeals, however, did not conclude that

3
the speech was false. Nor could it have. At trial, the
State expressly abandoned any such claim. Instead,
Petitioners were liable because they lacked adequate
“substantiation” for the promotional claims.
This is a clear First Amendment violation. All
speech is presumptively valid and is punishable only
in rare instances. The Court has held that commercial
speech may be banned or punished if the government
proves it is false or misleading. But “unsubstantiated”
speech falls into neither of these categories. It is bad
enough that the doctrine does not require any showing
that the speech is untruthful. But forcing the speaker
to shoulder the burden of proving it had adequately
substantiated the claim before speaking—as opposed
to requiring the government to prove that the speech
is false—compounds this serious First Amendment
problem.
Furthermore, banning unsubstantiated speech
will have a distorting effect that the Constitution does
not tolerate. Commercial speakers are likely to alter
the content of their speech—or, worse, avoid speaking
entirely—in order to avoid risk of punishment. And
who could blame them under a regime where even
proving that speech is true does not guarantee the
speaker can avoid liability. This chilling effect stifles
an “uninhibited marketplace of ideas” in which truth
will ultimately prevail—one of the First Amendment’s
essential purposes. The prior substantiation doctrine
simply does not provide the “breathing space” that is
needed for speech to flourish.

4
Here, the court of appeals got all of this wrong.
It never required the State to prove the speech was
false. And, according to the court, the “prior
substantiation” doctrine forces the commercial
speaker to bring forth scientific evidence to prove that
it had substantiation for its claims before speaking.
The idea that any of this complies with the First
Amendment is untenable.
None of this would even be debatable but for the
Court’s misguided commercial speech doctrine, which
treats commercial speech as having diminished value.
This doctrine has been roundly criticized as lacking
historical foundation, producing unpredictable results
based on inherently subjective policy judgments, and
failing to protect valuable speech. The ruling below is
plainly erroneous under existing precedent. But the
Court should abandon its commercial speech doctrine
if necessary to protect Petitioners’ First Amendment
rights.
This case exemplifies the incoherence of the
commercial speech doctrine. In the non-commercial
context, the First Amendment protects speakers who
lie about winning the Congressional Medal of Honor,
who defame a public figure with unknowingly false
speech, and who unintentionally lie when soliciting a
donation. Yet Petitioners’ advertisements—speech
they believe to be true and that the State could not
prove was false—somehow received no First
Amendment protection. The court of appeals would
not have reached this result but for the Court’s deeply
flawed commercial speech line of cases. They warrant
reconsideration.

5
Commercial speech deserves better. It provides
the consuming public with critical information about
the availability, nature, and prices of products and
services. And it often spurs discussion of important
public policy issues. The prior substantiation doctrine,
as adopted and applied by the State of Washington in
this case, punishes and chills that protected speech.
The Court should grant review.
STATEMENT OF THE CASE
A.

The treatment of commercial speech
under the First Amendment.

The First Amendment, made applicable to the
states through the Fourteenth Amendment, keeps the
government from “abridging the freedom of speech.”
The First Amendment embodies “[o]ur profound
national commitment to the free exchange of ideas.”
Harte-Hanks Commc’ns, Inc. v. Connaughton, 491
U.S. 657, 686 (1989). “As a general matter, the First
Amendment means that government has no power to
restrict expression because of its messages, its ideas,
its subject matter or its content.” Ashcroft v. Am. Civil
Liberties Union, 535 U.S. 564, 573 (2002) (cleaned up).
These principles are vital to ensuring “an uninhibited
marketplace of ideas in which truth will ultimately
prevail.” McCullen v. Coakley, 573 U.S. 464, 476
(2014) (citation omitted).
Commercial speech is—or at least should be—
no exception. “The commercial marketplace, like other
spheres of our social and cultural life, provides a
forum where ideas and information flourish.” United

6
States v. United Foods, Inc., 533 U.S. 405, 409 (2001)
(citation omitted). Thus, “even a communication that
does no more than propose a commercial transaction
is entitled to the coverage of the First Amendment.”
Edenfield v. Fane, 507 U.S. 761, 767 (1993). “Some of
the ideas and information are vital, some of slight
worth. But the general rule is that the speaker and
the audience, not the government, assess the value of
the information presented.” Id.
Yet this Court “accords lesser protection to
commercial speech than to other constitutionally
guaranteed expression.” Central Hudson Gas &
Electric Corp. v. Pub. Serv. Comm’n of N.Y., 447 U.S.
557, 563 (1980). Under Central Hudson, the Court
asks, “as a threshold matter,” whether the commercial
speech concerns “unlawful activity” or is false or
misleading. Thompson v. W. States Med. Ctr., 535 U.S.
357, 367 (2002). If it does, then “the speech is not
protected by the First Amendment.” Id. As to all other
commercial speech, the government may regulate it if
the government’s “interest is substantial,” and the
regulation “directly advances the governmental
interest asserted” and “is not more extensive than is
necessary to serve that interest.” Central Hudson, 447
U.S. at 566.
Since its inception, “judges, scholars, and amici
curiae have advocated repudiation of the Central
Hudson standard and implementation of a more
straightforward and stringent test for assessing the
validity of governmental restrictions on commercial
speech.” Greater New Orleans Broad. Ass’n, Inc. v.
United States, 527 U.S. 173, 184 & n.3 (1999). The

7
commercial speech doctrine has been consistently
criticized as lacking historical foundation, causing
unpredictable results because it requires case-by-case
policy judgments, and failing to protect important
speech. See, e.g., 44 Liquormart, Inc. v. Rhode Island,
517 U.S. 484, 522-27 (1996) (Thomas, J., concurring in
part and concurring in the judgment); Rubin v. Coors
Brewing Co., 514 U.S. 476, 493-97 (1995) (Stevens, J.,
concurring in the judgment).
B.

The “prior substantiation” doctrine
of the Federal Trade Commission.

Section 5 of the Federal Trade Commission Act
of 1914 declares unlawful “unfair or deceptive acts or
practices in or affecting commerce,” and the statute
empowers the FTC to prevent such acts or practices.
15 U.S.C. §45(a). The FTC has long used Section 5 to
prosecute those who disseminate false commercial
speech. See, e.g., Fed. Trade Comm’n v. Winsted
Hosiery Co., 258 U.S. 483, 490-93 (1922) (advertising
was “literally false”).
In 1984, the FTC issued a “policy statement”
expanding its authority under Section 5 to punish the
dissemination of advertisements. See generally Policy
Statement Regarding Advertising Substantiation
Program, 49 Fed. Reg. 30999-03 (Aug. 2, 1984). The
FTC declared that companies would violate Section 5
if they “lack[ed] a reasonable basis” for their claims
“prior to disseminating an advertisement.” Id. at
31001. The FTC described this prior substantiation
regime as a “law enforcement tool” and gave notice
that it would direct “requests for substantiation” to

8
“individual companies via an informal access letter or,
if necessary, a formal civil investigative demand.” Id.
at 31000. If a company lacks adequate substantiation,
it may be “subject to prosecution.” Id. at 31001.
Importantly, a speaker could not avoid liability
by proving that an advertisement was actually true.
Id. at 31000-01. All that matters to the FTC is
whether the speaker has “a reasonable basis before an
ad is disseminated.” Id. at 31001 (emphasis added).
“Subsequent evidence of truthfulness,” that is, does
not “absolve[] a firm of liability for failing to possess
prior substantiation for a claim”; such evidence could
only “shed[] light” on the adequacy of “pre-existing
substantiation.” Id. The FTC continues to enforce this
“prior substantiation” program. Stephanie W. Kanwit,
2 Fed. Trade Comm’n §22:7 (2018).
C.

Proceedings below

Petitioners produce and sell the well-known
energy shot 5-hour ENERGY®. At approximately $3 a
bottle, 5-hour ENERGY® is popular among truck
drivers, college students, police officers, and others
who seek a healthy, low-cost boost of energy. Unlike
many energy drinks, 5-hour ENERGY® has no sugar
and contains a variety of important vitamins and
nutrients. Pet. App. 56a-63a. As of 2016, consumers
were purchasing more than nine million bottles of
5-hour ENERGY® every week in the United States.
Petitioners regularly promote their products
through print, radio, and television advertisements.
In the mid-2000s, Petitioners began running a variety

9
of television and print advertisements to promote the
conclusions they had reached about the benefits of
5-hour ENERGY®. Pet. App. 63a. For example, one
print advertisement stated that 5-hour ENERGY®
contained “B-vitamins …, amino acids and caffeine
comparable to a cup of the leading premium coffee”
and that these ingredients “work in concert” to
provide a “feeling of alertness and energy that lasts
for hours.” Pet. App. 68a (emphasis omitted). These
advertisements ran throughout the continental
United States, including Washington. Pet. App. 63a.
Petitioners similarly used their website, press
releases, and bottle packaging to promote the
conclusions they had reached about the benefits of
5-hour ENERGY® Decaf. Pet. App. 70a-71a. For
example, 5-hour ENERGY® Decaf’s bottle packaging
stated that the product would provide “hours of
energy” for people sensitive to caffeine. Pet. App. 44a.
The State of Washington never received any
consumer complaints that Petitioners’ advertisements
were deceptive or that their products did not work as
advertised. Pet. App. 136a-37a. In 2012, the State
nonetheless opened an investigation into Petitioners’
advertisements, issued a civil investigative demand,
and ordered them to submit “prior substantiation” for
the claims made in their advertisements. In response,
Petitioners provided the State with scientific studies,
reports, and analyses that supported those assertions.
Despite Petitioners’ substantiation and the lack
of evidence of consumer harm, the State brought a
civil action against Petitioners under the Washington

10
Consumer Protection Act (“CPA”) on the ground that
their advertisements were “unfair or deceptive acts or
practices in the conduct of any trade or commerce.”
Wash. Rev. Code §19.86.020. The State, in particular,
alleged that Petitioners’ advertisements were “false
and/or misleading” because 5-hour ENERGY® “in fact
[is] not superior to consuming an equivalent amount
of caffeine from coffee” and 5-hour ENERGY® Decaf
“does not in fact provide the claimed benefits.” Pet.
App. 181a (emphasis added).
The State further alleged that Petitioners were
liable under the CPA because they “lacked competent
and reliable scientific evidence to substantiate [their]
claims.” Id. The trial court agreed that the State could
rely on the prior substantiation doctrine to find
Petitioners liable under the CPA. In so holding, the
court rejected Petitioners’ argument that imposing
liability under the prior substantiation doctrine would
violate their First Amendment rights. Pet. App. 133a34a.1
At trial, the State abandoned its claims that
Petitioners’ advertisements were actually false, and
instead proceeded solely on its claims that Petitioners’
advertisements were unsubstantiated. See Pet. App.
166a-67a (“[T]he State’s claim is based on the Section
5, FTC standard, where we are proceeding on the
The State also brought claims alleging that Petitioners’
“Ask Your Doctor” advertisements violated the CPA because they
were misleading. Pet. App. 73a-77a. The trial court ruled for the
State on this claim, despite finding that “the statistics displayed
in the ads and the words used in the ad were literally true.” Pet.
App. 129a.
1

11
argument that the ads aren’t substantiated by
competent, reliable evidence at the time that they
were made.”). The State therefore did not seek to
establish that Petitioners’ advertisements were false.
Pet. App. 78a-99a.
Petitioners presented evidence and testimony
at trial that their claims about the effects of 5-hour
ENERGY® and 5-hour ENERGY® Decaf had been
“adequately substantiated.” Pet. App. 152a-53a,
155a-63a, 144a-45a, 139a-42a. Petitioners’ marketing
director also testified that he believed that the
advertisements were in fact true and had been
scientifically supported. Pet. App. 172a-74a, 167a69a.
Following a two-week bench trial, the court
ruled for the State. Pet. App. 120a-32a. The trial court
held that Petitioners were liable unless they had a
“reasonable basis” for their claims “prior to making
[them].” Pet. App. 115a-16a. The court considered
“post-claim scientific evidence” as well but found it
relevant only to the extent that it could “shed light on
pre-claim studies.” Pet. App. 86a & n.4.
Reviewing the record, the court agreed with
Petitioners that “nutritional science supports the
general proposition that the vitamins and nutrients in
5-Hour ENERGY®” are “physiologically beneficial,
even to healthy well-nourished adults.” Pet. App.
120a. These ingredients “support metabolism which
affects energy,” “can help reduce fatigue,” “can help
increase blood flow to the brain,” and “support the

12
generation of neurotransmitters, which can affect
alertness and focus.” Id.
Nevertheless, the court found that some of
Petitioners’ advertisements were “unsubstantiated”
because the evidence did not “clearly establish” that
5-hour ENERGY®’s “vitamins and nutrients work
synergistically with caffeine to make these benefits
last longer than they would last with caffeine alone.”
Pet. App. 122a. While Petitioners’ claims were
“certainly plausible, given the science presented to the
Court,” the claims “remained a hypothesis, not an
established scientific fact.” Pet. App. 125a. The court
also found that Petitioners “lack[ed] competent and
reliable scientific evidence” for the claim that “Decaf
5-Hour ENERGY® will generate energy and alertness
that ‘lasts for hours.’” Pet. App. 126a. While there was
“competent and reliable scientific evidence to support
a claim that the Decaf 5-Hour Energy® shot may
provide a short-term benefit in terms of energy,” the
court held that Petitioners’ evidence was nevertheless
insufficient in certain regards. Pet. App. 127a.
The court imposed monetary penalties of more
than $2,000,000. Pet. App. 47a. The penalties for
these advertisements were justified, according to the
trial court, because Petitioners “spent more time
trying to justify the science behind their ads after-thefact than they did before marketing the products in
Washington.” Pet. App. 46a. The court also enjoined
Petitioners from making similar claims in the future.
Pet. App. 48a.

13
The Washington Court of Appeals affirmed.
Relying on Central Hudson, it rejected Petitioners’
argument that imposing liability without making the
State prove falsity violated the First Amendment.
Because the advertisements were “unsubstantiated,”
the court of appeals held, Petitioners’ advertisements
were necessarily “misleading” and thus entitled to no
protection under the First Amendment. Pet. App. 11a,
19a-20a, 27a. Petitioners’ argument therefore “fail[ed]
at the first prong” of Central Hudson. Pet. App. 19a.
The court also rejected Petitioners’ argument that the
trial court had improperly shifted the burden of proof
to Petitioners. Pet. App. 10a-11a, 15a n.6, 25a-26a.
Reviewing the record, the court of appeals affirmed
the trial court’s determination that Petitioners had
lacked sufficient substantiation before running their
advertisements. Pet. App. 22a-31a.
The Washington Supreme Court denied
discretionary review on October 3, 2019. Pet. App.
39a-40a.
REASONS FOR GRANTING THE PETITION
The Washington Court of Appeals has “decided
an important federal question in a way that conflicts
with relevant decisions of this Court.” Sup. Ct. Rule
10(c). This case presents an important question under
the First Amendment about whether the government
can punish commercial speech if the speaker lacks
prior substantiation that its factual claims are true.
The Washington Court of Appeals erred in holding the
State may do so. The Court should grant review.

14
I.

Review is required because the decision
below contravenes the First Amendment.
A.

Controlling precedent requires the
government to shoulder the burden
of proving that the speech it seeks to
prohibit is unprotected.

As a general matter, “the First Amendment
means that government has no power to restrict
expression because of its message, its ideas, its subject
matter, or its content.” Bolger v. Youngs Drug Prod.
Corp., 463 U.S. 60, 65 (1983). Although this principle
is “not absolute,” Ashcroft, 535 U.S. at 573, such
restrictions are permissible only when the speech falls
within “narrowly limited classes of speech,”
Chaplinsky v. New Hampshire, 315 U.S. 568, 571
(1942).
Within these narrow categories, “[t]he line
between speech unconditionally guaranteed and
speech which may legitimately be regulated,
suppressed, or punished” is “finely drawn.” Speiser v.
Randall, 357 U.S. 513, 525 (1958). That is because
“error in marking that line exacts an extraordinary
cost” in the loss of First Amendment freedoms. United
States v. Playboy Entm’t Grp., Inc., 529 U.S. 803, 817
(2000). Governments thus must use “sensitive tools”
to separate “legitimate from illegitimate speech.”
Speiser, 357 U.S. at 525.
Such precision is critical when the right to
speak turns on a question of fact. “Where particular
speech falls close to the line separating the lawful and

15
the unlawful, the possibility of mistaken factfinding—
inherent in all litigation—will create the danger that
the legitimate utterance will be penalized.” Id. at 526.
To avoid chilling protected speech the Court has
insisted on “exacting proof requirements” to ensure
“sufficient breathing room for protected speech.”
Illinois ex rel. Madigan v. Telemarketing Assocs., Inc.,
538 U.S. 600, 620 (2003) (citing New York Times Co.
v. Sullivan, 376 U.S. 254, 279-80 (1964)).
The most fundamental of these “exacting proof
requirements” is the principle that the government—
not the speaker—must carry the burden of proof. The
Court has “long cautioned that, to avoid chilling
protected speech, the government must bear the
burden of proving that the speech it seeks to prohibit
is unprotected.” Madigan, 538 U.S. at 620 n.9. That is
because a person “who knows that he must bring forth
proof and persuade another of the lawfulness of his
conduct necessarily must steer far wider of the
unlawful zone than if the State must bear these
burdens.” Speiser, 357 U.S. at 526; see also Smith v.
California, 361 U.S. 147, 150-51 (1959) (prohibiting
placing “burden of proof” on the defendant if doing so
will “have the collateral effect of inhibiting the
freedom of expression”).
This burden is no different in the context of
restrictions on commercial speech. “The party seeking
to uphold a restriction on commercial speech carries
the burden of justifying it.” Bolger, 463 U.S. at 71
n.20. “The State’s burden is not slight; the free flow of
commercial information is valuable enough to justify
imposing on would-be regulators the costs of

16
distinguishing the truthful from the false, the helpful
from the misleading, and the harmless from the
harmful.” Ibanez v. Fla. Dep’t of Bus. & Prof’l
Regulation, Bd. of Accountancy, 512 U.S. 136, 143,
(1994) (citation omitted). “Mere speculation or
conjecture will not suffice.” Id. (cleaned up).
The court below violated this fundamental rule.
Under the Court’s precedents, the government can
ban or punish commercial speech if it proves that the
speech is false. Central Hudson, 447 U.S. at 563-64.
Time and again, the Court has held that a defendant
cannot be punished for his speech unless the plaintiff
(or the government) proves falsity. See, e.g., New York
Times, 376 U.S. at 279-80 (defamation of public
figure); Philadelphia Newspapers, Inc. v. Hepps, 475
U.S. 767, 777 (1986) (defamation of private
individual); Madigan, 538 U.S. at 620 (fraud when
soliciting a donation); Time, Inc. v. Hill, 385 U.S. 374,
390 (1967) (false-light tort actions); Hustler Magazine,
Inc. v. Falwell, 485 U.S. 46, 56 (1988) (intentional
infliction of emotional distress); Brown v. Hartlage,
456 U.S. 45, 61 (1982) (prohibition on factual
misstatements in the course of political debate). The
prior substantiation doctrine relieves the government
of this burden. The doctrine allows the government to
punish commercial speech it suspects is false without
proving it is actually false—only that it is
“unsubstantiated.” The decision below thus
contravenes longstanding precedent.
The Court also recognizes that the government
can ban or punish commercial speech that it proves is
“misleading.” Central Hudson, 447 U.S. at 564. But

17
“unsubstantiated” speech does not fit within this
category either. The Washington Court of Appeals
held that Petitioners’ advertisements could be
banned—without any First Amendment scrutiny—
because “unsubstantiated” speech is, as a matter of
law, “misleading,” and “misleading advertising may
be prohibited entirely.” Pet. App. 11a, 19a, 27a
(quoting In re R.M.J., 455 U.S. 191, 203 (1982)). But
so-called “unsubstantiated” speech—absent a finding
that the speech itself is factually false or misleading—
is not one of those few “historic and traditional
categories” of speech that can be banned without it
“rais[ing] any Constitutional problem.” United States
v. Stevens, 559 U.S. 460, 468-69 (2010).
Nor do this Court’s precedents require this
speech to be “added to the list.” Id. at 469. Petitioners’
speech was not “inherently” misleading, In re RMJ,
455 U.S. at 199, as the “particular method” by which
Petitioners delivered their information (e.g., television
and print advertisements) is not “inherently
conducive to deception and coercion,” Peel v. Attorney
Registration & Disciplinary Comm’n of Illinois, 496
U.S. 91, 112 (1990) (Marshall, J., concurring in the
judgment). Nor was Petitioners’ speech “actually”
misleading; indeed, no consumers ever complained.
Ibanez, 512 U.S. at 145. Because the State never
proved whether Petitioners’ claims were “in fact” false
or misleading, In re R.M.J., 455 U.S. at 202, 207, the
State could never show that “any … person was
actually misled or deceived” by them, Peel, 496 U.S. at

18
101 (plurality); id. at 112 (Marshall, J., concurring)
(same).2
What the State really seeks is an exception to
the normal rule that the government cannot prohibit
speech unless it carries the burden of proving it is
unprotected—i.e., false or misleading. The prior
substantiation doctrine requires the court to accept,
as a matter of law, that every consumer in every
circumstance expects a “reasonable basis” for product
claims and therefore a speaker who lacks sufficient
substantiation necessarily has misled the consumer.
Pet. App. 11a; see also Policy Statement Regarding
Advertising Substantiation Program, 49 Fed. Reg. at
31000. But this is just an end-run for the government
to avoid having to prove that the speech is false or
misleading. Supra 16. The Court rightly rejects such
maneuvers. See, e.g., Ibanez, 512 U.S. at 146 (refusing
to allow the “rote invocation of the words ‘potentially
misleading’ to supplant the [government’s] burden”);
see also Edenfield, 507 U.S. at 776 (similar).

The court of appeals cited three federal circuit court
opinions that it believed “upheld the prior substantiation
doctrine against similar constitutional challenges.” Pet. App.
20a. But those cases “impose[d] the requirement of prior
substantiation as a reasonable remedy for past violations of the
Act.” Jay Norris, Inc. v. FTC, 598 F.2d 1244, 1252 (2d Cir. 1979)
(emphasis added); Sears, Roebuck & Co. v. FTC, 676 F.2d 385,
399 (9th Cir. 1982) (same); United States v. Reader’s Digest Ass’n,
Inc., 662 F.2d 955, 965 (3d Cir. 1981) (same). The power of the
FTC to fashion remedial relief raises different concerns not
present here. See FTC v. Colgate-Palmolive Co., 380 U.S. 374,
395 (1965).
2

19
Even if the First Amendment permitted the
government to punish unsubstantiated speech—in
addition to false or misleading speech—the prior
substantiation doctrine lacks the safeguards needed
to ensure “breathing room” for protected speech.
Madigan, 538 U.S. at 620. The prior substantiation
doctrine does not require “clear and convincing”
evidence that the speakers lacked substantiation.
Gertz v. Robert Welch, Inc., 418 U.S. 323, 342 (1974);
Madigan, 538 U.S. at 620. It does not require the
speakers to have acted “with knowledge that [the
speech] was [unsubstantiated] or with reckless
disregard of whether it was [unsubstantiated].” New
York Times, 376 U.S. at 279-80; Hill, 385 U.S. at 390;
Hustler Magazine, 485 U.S. at 56; Garrison v. State of
La., 379 U.S. 64, 73-75 (1964); Hartlage, 456 U.S. at
61; Gertz, 418 U.S. at 349; Madigan, 538 U.S. at 602.
And it does not require the government to prove there
was “actual injury” to any consumer. Gertz, 418 U.S.
at 349-50; Madigan, 538 U.S. at 620; see also Alvarez,
567 U.S. at 734-46 (Breyer, J., concurring) (identifying
state laws that “limit the scope of their application …
by requiring proof of specific harm to identifiable
victims”). This lack of safeguards dooms any attempt
to uphold the prior substantiation doctrine.
Not surprisingly, the State satisfied none of
these exacting proof requirements. The trial court
recognized the narrow margin by which the State had
prevailed, as it found that Petitioners’ claims were
“certainly plausible, given the science presented to the
Court,” but they “remained a hypothesis, not an
established scientific fact.” Pet. App. 125a. Petitioners
believed that their advertisements were true and

20
adequately substantiated, and the State did not show
otherwise. Pet. App. 167a-69a, 172a-74a. And the
State never proved that a single person was harmed
or misled by Petitioners’ advertisements. Pet. App.
136a-37a. The First Amendment simply does not
countenance imposing liability based on such
insubstantial evidence. See, e.g., Madigan, 538 U.S. at
620 (finding it of “prime importance” that the State
had to show through “clear and convincing evidence”
that the defendant “made a false representation of a
material fact knowing that the representation was
false,” that the representation was made “with the
intent to mislead the listener,” and that “it succeeded
in doing so”).
The State no doubt finds it “more convenient”
to impose liability upon a mere showing that a speaker
lacks sufficient evidence to prove the truth of his
speech before speaking. Zauderer v. Office of
Disciplinary Counsel of Supreme Court of Ohio, 471
U.S. 626, 649 (1985). But “the First Amendment does
not permit the State to sacrifice speech for efficiency.”
NIFLA v. Becerra, 138 S. Ct. 2361, 2376 (2018)
(citation omitted). The Court’s precedents demand
that the government carry the weighty burden of
proving that Petitioners’ speech is not protected by the
First Amendment. The court of appeals erred in
relieving the State of its burden.

21
B.

The Court should grant the petition
to overrule Central Hudson if
necessary to protect Petitioners’
freedom of speech.

The unconstitutionality of the State’s actions
would not be debatable but for the Court’s “continued
reliance on the misguided approach adopted in
Central Hudson,” which “makes this case appear more
difficult than it is.” Rubin, 514 U.S. at 493-97 (1995)
(Stevens, J.). The Court should overrule Central
Hudson if that is necessary to protect Petitioners’
speech.
Central Hudson has long been “subject to …
criticism.” United Foods, Inc., 533 U.S. at 409-10.
“[S]everal Members of the Court have expressed
doubts about the Central Hudson analysis,”
Thompson, 535 U.S. at 367-68, and have “advocated
repudiation of the Central Hudson standard” in favor
of “a more straightforward and stringent test for
assessing the validity of governmental restrictions on
commercial speech,” Greater New Orleans Broad.
Ass’n, Inc, 527 U.S. at 184; see, e.g., 44 Liquormart,
517 U.S. at 522 (Thomas, J., concurring); id. at 517
(Scalia, J.); Rubin, 514 U.S. at 493-97 (Stevens, J.);
Lorillard Tobacco Co. v. Reilly, 533 U.S. 525, 571-72
(2001) (Kennedy, J., concurring). So too have “parties,
scholars, and amici curiae” supported revisiting the
doctrine. See Greater New Orleans Broad. Ass’n, Inc.,
527 U.S. at 184 & n.3 (citing Alex Kozinski & Stuart
Banner, Who’s Afraid of Commercial Speech?, 76 Va.
L. Rev. 627, 635-38 (1990) and other authorities).

22
The criticisms of Central Hudson are well
documented and well taken. Fundamentally, there is
no “philosophical or historical basis for asserting that
‘commercial’ speech is of ‘lower value’ than
‘noncommercial’ speech.” 44 Liquormart, 517 U.S. at
522 (Thomas, J., concurring). Indeed, “some historical
materials suggest to the contrary.” Id. (collecting
sources); see City of Cincinnati v. Discovery Network,
Inc., 507 U.S. 410, 421 n.17 (1993) (“[W]e are not the
first to recognize the value of commercial speech.”)
(citing I. Thomas, History of Printing in America with
a Biography of Printers, and an Account of
Newspapers (2d ed. 1810)).
Nor are the Court’s modern justifications
persuasive. The Court has claimed that commercial
speech needs less scrutiny because it is “more easily
verifiable” and “more durable” because of the
speaker’s profit motive. Virginia State Bd. of
Pharmacy v. Virginia Citizens Consumer Council,
Inc., 425 U.S. 748, 771 n.24 (1976). But that is not
always true. See 44 Liquormart, 517 U.S. at 523 n.4
(Thomas, J., concurring). As this case demonstrates,
“many claims about commercial products involve
scientific assertions that are often subject to complex
and controversial debate.” Martin H. Redish, False
Commercial Speech and the First Amendment:
Understanding the Implications of the Equivalency
Principle, 25 Wm. & Mary Bill Rts. J. 765, 791 (2017).
And commercial speakers “are often likely to be
among the most risk averse of speakers, always
concerned about the possibility of government
penalization for their actions.” Id.; see Kozinski &
Banner, supra, 635-38 (same).

23
As a practical matter, moreover, Central
Hudson is “very difficult to apply with any
uniformity,” 44 Liquormart, 517 U.S. at 526-27
(Thomas, J.), as there are no “bright lines that will
clearly cabin commercial speech in a distinct category”
from non-commercial speech, Discovery Network, 507
U.S. at 419. When this line is blurred, companies, “out
of reasonable caution or even an excess of caution,
may censor their own expression well beyond what the
law may constitutionally demand.” Nike, Inc. v.
Kasky, 539 U.S. 654, 683 (2003) (Breyer, J., dissenting
from the dismissal of writ of certiorari improvidently
granted).
Central Hudson also imposes an “inherently
nondeterminative … case-by-case balancing ‘test,’”
which makes it more likely that “individual judicial
preferences will govern application of the test.” 44
Liquormart, 517 U.S. at 527 (Thomas, J., concurring).
What is a “substantial” interest for one court, is an
“insubstantial” interest for another. Thus, “[u]nless a
case has facts very much like those of a prior case, it
is nearly impossible to predict the winner.” Kozinski
& Banner, supra, 631.
This case is a perfect example of Central
Hudson’s inherent incoherence. In the noncommercial context, the First Amendment often
protects verifiably false speech. The First Amendment
protects, for example, a blatant lie that a person won
the Congressional Medal of Honor, United States v.
Alvarez, 567 U.S. 709 (2012), unknowingly false
speech defaming a public figure, New York Times, 376
U.S. at 279, and unknowingly false speech made when

24
soliciting a donation, Madigan, 538 U.S. at 619-21.
Yet the court below found that Petitioners’
advertisements about a legal product—where
Petitioners believed their speech to be true and the
government could not prove it was false—somehow
deserved no First Amendment protection. Any
doctrine requiring such a result is broken beyond
repair.
As in other cases, “there is no need to break new
ground” because the prior substantiation doctrine is
unconstitutional even under Central Hudson. Greater
New Orleans Broad., 527 U.S. at 184. Most obvious,
the prior substantiation doctrine is “more extensive
than is necessary to serve” any government interest.
Central Hudson, 447 U.S. at 566. Indeed, the doctrine
is wildly overinclusive. It applies to every company
advertising in the marketplace, even if the company
has no history of false statements and is selling
products that do not endanger the health or safety of
any consumer. Pet. App. 25a; see also Jane R.
Bambauer, Snake Oil Speech, 93 Wash. L. Rev. 73,
117-24 (2018). The First Amendment does not permit
such “[b]road prophylactic rules in the area of free
expression.” Edenfield, 507 U.S. at 777 (citation
omitted). “[I]f the Government could achieve its
interests in a manner that does not restrict speech, or
that restricts less speech, the Government must do
so.” Thompson, 535 U.S. at 371.
The sounder approach, however, would be to
abandon the doctrine entirely, and “treat speech as
speech, commercial or not.” Kozinski & Banner,
supra, 651. The Court’s existing doctrines—

25
addressing
viewpoint
discrimination,
content
discrimination, prior restraints, and the like—can be
applied regardless whether the speech is commercial.
See Sorrell v. IMS Health Inc., 564 U.S. 552, 566
(2011) (“The First Amendment requires heightened
scrutiny whenever the government creates a
regulation of speech because of disagreement with the
message it conveys,” and “[c]ommercial speech is no
exception.”).
Absent Central Hudson, this is not a difficult
case. As explained, a longstanding principle of First
Amendment jurisprudence is that it is the
government’s burden—not the speaker’s—to prove
that speech is unprotected by the First Amendment.
In no other context but commercial speech would the
State’s prior substantiation regime even arguably
pass constitutional muster. Commercial speech
should be “no exception” to these First Amendment
principles. Sorrell, 564 U.S. at 566. The Court should
overrule Central Hudson if necessary to protect the
important speech at issue here.
II.

This is an appropriate case in which to
resolve these important First Amendment
issues.

Consumers have a “substantial” interest in the
free flow of commercial speech. Bates v. State Bar of
Arizona, 433 U.S. 350, 364 (1977). Commercial speech
ensures that consumers are aware of “the availability,
nature, and prices of products and services” Id.
Though perhaps mundane, this information is
important to individuals’ day-to-day lives. Indeed, a

26
“consumer’s concern for the free flow of commercial
speech often may be far keener than his concern for
urgent political dialogue.” Sorrell, 564 U.S. at 566
(citation omitted).
Commercial speech benefits more than
individual consumers; it promotes “societal interests”
too. Bates, 433 U.S. at 364. Because commercial
speech ensures that economic decisions “in the
aggregate [are] intelligent and well informed,” Va.
State Bd. of Pharmacy, 425 U.S. at 765, it “performs
an indispensable role in the allocation of resources in
a free enterprise system,” Bates, 433 U.S. at 364.
Commercial speech also often “carr[ies] information of
import to significant issues of the day,” id., which can
promote discussion of issues of public concern, such as
racism, economic inequality, and public corruption,
Matal v. Tam, 137 S. Ct. 1744, 1764-65 (2017); see,
e.g., Ben Popken, Nike Takes Heat for New Kaepernick
Ad—But Is Social Activism Just the New Ad Hook?,
NBCNews (Sept. 4, 2018), https://nbcnews.to/2vh3url
(“More companies have been wading into social issues
… and consumers have shown a willingness to express
their political views through their purchasing.”).
The prior substantiation doctrine restrains this
critical flow of information. By placing the burden of
truth on the speaker—instead of the government—
companies will refrain from speaking because of
“doubt whether [their speech] can be proved in court.”
New York Times, 376 U.S. at 279. This chilling effect
exists even if the speech is “believed to be true” and
even if it “is in fact true.” Id.

27
And, because the critical inquiry is whether the
company possessed sufficient evidence before it spoke,
a commercial speaker cannot avoid liability by
ultimately proving the truth of its claims. Pet. App.
25a, 86a n.4. The company thus must refrain from
speaking—even if confident in the truth of its
assertions—until it has sufficient documentation in
case the government comes calling; even then, it
might turn out that the State is still dissatisfied. The
Court has long recognized that these types of
procedural hurdles hinder, delay, and suppress
protected speech. Near v. Minnesota ex rel. Olson, 283
U.S. 697, 711-13 (1931) (imposing liability unless the
speaker is “prepared with legal evidence to prove the
truth of” his speech is the “essence of censorship”).
Trying to comply with the prior substantiation
doctrine is thus no easy task. The State requires
speakers to have “competent and reliable scientific
evidence” before publishing the advertisement. Pet.
App. 15a-17a. As this case shows, however, scientific
conclusions are notoriously debatable. Indeed, “most
of the scientific claims that are relevant to consumers
… are tentative and have an insufficient base of
evidence to deem them either true or false.”
Bambauer, supra, 76. When companies lack
confidence that their speech will pass the evidentiary
threshold, they are more likely to remain silent.
This is not to say that companies should be free
to assert baseless claims about their products without
consequence. The government need not “sit idly by
and allow their citizens to be defrauded.” Riley, 487
U.S. at 795. But the federal government and the states

28
have numerous enforcement tools to punish and
prevent such falsehoods. The FTC can (and does)
prosecute those who publish false advertisements.
Supra 7-8. The states, including Washington, do too.
See Restatement (Third) of Unfair Competition §2
(1995) (collecting state laws); Wash. Rev. Code
§19.86.020. And private citizens can seek liability for
harms they have suffered from false advertising. See
Restatement (Third) of Unfair Competition §1 (1995)
(collecting state laws); Wash. Rev. Code §19.86.090.
Given these existing laws that deter and punish false
speech, there is simply no justification for the prior
substantiation doctrine.
Moreover, reevaluating Central Hudson would
bring uniformity and predictability to the First
Amendment. For example, the constraints imposed by
the prior substantiation doctrine would never be
tolerated outside the context of commercial speech.
Consider a law requiring a publisher to have two
“competent and reliable” sources before it can publish
a story involving public corruption. Such a law would
surely decrease the number of false public-corruption
stories, but it would stop countless true stories from
being published too. See Philadelphia Newspapers,
Inc., 475 U.S. at 776-77. Such a law would be rightly
condemned as a “step to a complete system of
censorship.” Near, 283 U.S. at 721 (invalidating a
state law allowing censorship if the speaker could not
“produce proof of the truth … of what he intended to
publish”).
That the petition does not present a circuit split
should not deter this Court’s review. The Court does

29
not hesitate to “grant[] certiorari to consider [an]
important [First Amendment] question,” even if no
division of authority exists. Janus v. Am. Fed’n of
State, Cty., & Mun. Employees, Council 31, 138 S. Ct.
2448, 2462 (2018); e.g., Snyder v. Phelps, 562 U.S. 443,
451 (2011) (same). “First Amendment cases” also are
one of the few “prominent types of cases in which the
Court” has “granted certiorari predominantly to
correct an erroneous ruling on the particular facts.”
Stephen M. Shapiro et al., Supreme Court Practice,
§4.14 (11th ed. 2019).
This is especially true for commercial speech
cases. A substantial portion of the Court’s commercial
speech doctrine has arisen out of cases reviewing state
laws with no apparent circuit split. See, e.g.,
Liquormart, 517 U.S. at 495 (state statute prohibiting
advertisement of liquor prices); Florida Bar v. Went
For It, Inc., 515 U.S. 618, 621 (1995) (state bar rules
prohibiting lawyers from engaging in certain
solicitation); Ibanez, 512 U.S. at 142 (state bar rules
prohibiting certain advertising); Edenfield, 507 U.S.
at 763-65 (state ban on in-person solicitation by
certified public accountants); Discovery Network, 507
U.S. at 416 (city ordinance prohibiting news racks
containing “commercial handbills”); Peel, 496 U.S. at
94 (state rules prohibiting attorney from holding
himself out as a specialist). This petition falls squarely
within this line of cases. The First Amendment issues
presented in this case deserve the Court’s attention.

30
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
William S. Consovoy
Counsel of Record
J. Michael Connolly
Jordan M. Call
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel for Petitioners

APPENDIX

1a
AppendixOF
A THE COURT OF
APPENDIX A — OPINION
APPEALS OF THE STATE OF WASHINGTON,
FILED MARCH 18, 2019
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
No. 76463-2-I
DIVISION ONE
PUBLISHED OPINION
THE STATE OF WASHINGTON,
Respondent,
v.
LIVING ESSENTIALS, LLC a Michigan limited
liability company, and INNOVATION VENTURES,
LLC, a Michigan limited liability company,
Appellants.
March 18, 2019, Filed
Mann, A.C.J. — The State of Washington sued Living
Essentials LLP and Innovative Ventures LLP (collectively
Living Essentials) under the Washington Consumer
Protection Act (CPA), chapter 19.86 RCW, alleging that
Living Essentials violated the CPA by making deceptive
advertising claims about its product, 5-Hour ENERGY®.
After a bench trial, the trial court agreed that three of
Living Essentials’ advertising campaigns violated the

2a
Appendix A
CPA. The trial court assessed a civil penalty against
Living Essentials and awarded the State its attorney
fees and costs.
Living Essentials argues on appeal that (1) the trial
court erred by adopting the Federal Trade Commission’s
(FTC) “prior substantiation doctrine,” (2) the “prior
substantiation doctrine violates article I, section 5 of the
Washington State Constitution, (3) Living Essentials’
claims were mere puffery, which did not require
substantiation, (4) the trial court applied the wrong
standard for necessary substantiation, and (5) the trial
court erred in concluding that Living Essentials’ “Ask
Your Doctor” claim was deceptive. Living Essentials also
challenges the trial court’s penalty and award of attorney
fees. We affirm.1
I.
Living Essentials produces and markets the energy
drink 5 -Hour ENERGY®. During its advertising
campaign, Living Essentials made numerous claims about
the efficacy of 5-Hour ENERGY®. Three of those claims
are relevant to this appeal.
First, Living Essentials claimed that 5 -Hour
ENERGY® was “Superior to Coffee” (Superior to Coffee
claim). Specifically, Living Essentials claimed that “the
1. The State filed a motion to strike or disregard portions of
appellants’ opening and reply briefs. Because the State prevailed
in this appeal, it is unnecessary for us to consider the merits of this
motion. The State’s motion is denied.

3a
Appendix A
key vitamins and nutrients [in 5-Hour ENERGY®] work
synergistically with caffeine to make the biochemical
or physiological effects last longer than caffeine alone.”
Second, Living Essentials claimed that the decaffinated
(decaf) variety of 5-Hour ENERGY® provided energy,
alertness, and focus “for hours.” (Decaf claim). Living
Essentials provided the basic message, if you do not like
caffeine then “Decaf 5-Hour ENERGY® … can provide
the alertness you want without the ‘caffeine feeling’ you
don’t.” Third, Living Essentials implied that 73 percent of
doctors would recommend 5-Hour ENERGY® (Ask Your
Doctor claim). In an ad that ran on national television, a
spokesperson said
We asked over 3,000 doctors to review 5-hour
Energy®, and what they said is amazing.
Over 73% who reviewed 5-hour Energy® said
they would recommend a low calorie energy
supplement to their healthy patients who use
energy supplements. 73%. 5-hour Energy® has
4 calories and is used over nine million times
a week. Is 5-hour Energy® right for you? Ask
your doctor. We already asked 3,000.
After an 11-day bench trial involving testimony and
transcripts of testimony from 20 lay and expert witnesses
and the admission of approximately 500 exhibits, the trial
court issued a 57-page decision including detailed findings
of fact and conclusions of law. Following FTC guidance, the
trial court concluded that Living Essentials Superior to
Coffee, Decaf, and Ask Your Doctor claims were deceptive
and violated the CPA.

4a
Appendix A
With respect to the Superior to Coffee claim, the
trial court found that the real takeaway was “that the
combination of caffeine, B vitamins and amino acids would
provide energy that would last longer than consumers
would experience from a cup of premium coffee (and
in some of the ads, longer than 3 or 4 cups of coffee).”
The court further found that “[t]he studies [Living
Essentials presented] do not clearly establish that 5-Hour
ENERGY®’s vitamins and nutrients work synergistically
with caffeine to make these benefits last longer than
they would last with caffeine alone.” Living Essentials’
claim that “5-Hour ENERGY® works better than
caffeine alone … is certainly plausible, given the science
presented to the Court, but it remains a hypothesis, not
an established scientific fact.” The court concluded that
“Living Essentials violated the [CPA] when it aired or
published ads that represented that the energy, alertness
and focus from 5-hour ENERGY® lasts longer than a cup
of coffee because of the synergistic effects of caffeine, B
vitamins and nutrients in the product.”
The trial court also found that “Living Essentials
lacks competent and reliable scientific evidence to claim
that decaf 5-Hour ENERGY® will generate energy and
alertness that ‘lasts for hours.’” The trial court concluded
that “Living Essentials violated the [CPA] when it claimed
in a press release and on its web site that Decaf 5-hour
ENERGY® will provide energy, alertness and focus that
lasts for hours.”
Finally, the trial court determined that the Ask Your
Doctor claim was deceptive. The court found that the “net

5a
Appendix A
impression” from the ad was that “a substantial majority of
doctors believe 5-Hour ENERGY® is a safe and effective
nutritional supplement that doctors would recommend to
their patients.” The court noted that “while the statistics
displayed … were literally true, the impression left by
the ads was not.”
Based on the number of times the ads aired or the
number of bottles of product sold, the trial court imposed a
$2,183,747 civil penalty and awarded the State its attorney
fees and costs. Living Essentials appeals.
II.
Living Essentials first raises multiple challenges
to the trial court’s findings and conclusions that Living
Essentials’ Superior to Coffee, Decaf, and Ask Your
Doctor claims were deceptive and violated the CPA.
“[W]hether a particular action gives rise to a
Consumer Protection Act violation is reviewable as a
question of law.” Leingang v. Pierce County Med. Bureau,
131 Wn.2d 133, 150, 930 P.2d 288 (1997). Whether a party
committed the particular violation, however, is reviewed
under the substantial evidence test. Leingang, 131 Wn.2d
at 150. “Substantial evidence is evidence in sufficient
quantum to persuade a fair-minded person of the truth of
the declared premise.” Holland v. Boeing Co., 90 Wn.2d
384, 390-91, 583 P.2d 621 (1978). “The substantial evidence
standard is ‘deferential and requires the court to view
the evidence and reasonable inferences in the light most
favorable to the party who prevailed’” below. Mansour

6a
Appendix A
v. King County, 131 Wn. App. 255, 262-63, 128 P.3d 1241
(2006) (quoting Sunderland Family Treatment Servs. v.
City of Pasco, 127 Wn.2d 782, 788, 903 P.2d 986 (1995)).
Unchallenged findings of fact are verities on appeal.
State v. Reader’s Digest Ass’n, 81 Wn.2d 259, 263-64, 501
P.2d 290 (1972). 2 Further, mere assertions of error are
not enough. When a challenged finding is unsupported
by argument on appeal, this court need not consider the
assignment of error. Bryant v. Palmer Coking Coal Co., 86
Wn. App. 204, 216, 936 P.2d 1163 (1997). 3 Even where the
evidence conflicts, the appellate court need determine only
“whether the evidence most favorable to the prevailing
party supports the challenged findings.” Prostov v. Dep’t
of Licensing, 186 Wn. App. 795, 820, 349 P.3d 874 (2015).
Finally, the reviewing court “defer[s] to the trier of fact
regarding witness credibility or conflicting testimony.”
Weyerhaeuser v. Tacoma-Pierce County Health Dep’t, 123
Wn. App. 59, 65, 96 P.3d 460 (2004). Reviewing courts will
not reweigh the evidence or the credibility of witnesses on
appeal. Wash. Belt & Drive Sys., Inc. v. Active Erectors,
54 Wn. App. 612, 616, 774 P.2d 1250 (1989).4
2. Living Essentials does not assign error to numerous findings
of fact. See, for example, unchallenged findings 1-9, 1, 13-14(d)(6),
15-16(a)-(c)(1), and 16(d)(1)-(4), and portions of 10, 16(c)(2), 16(d)(5)(6), 17, 19, 20, and 22.
3. Living Essentials assigns error to several findings but fails
to provide argument in support of the assignment. See, e.g., Findings
14(d)(7), 16(c)(2), 19(i), 20(d), 22(a), 22(a)(2)-(3).
4. Living Essentials assigns error to several of the trial court’s
credibility determinations and weighing of evidence. See, e.g.,
Findings 16, 16(c)(2), 16(d)(5)-(6), 17(c), 19, 20, 22.

7a
Appendix A
A.
Living Essentials’ primary contention is that the trial
court erred by relying on the FTC’s prior substantiation
doctrine because it has not been adopted in Washington,
cannot be judicially adopted, and is inconsistent with
Washington CPA law. We disagree. A brief review of the
CPA and FTC’s prior substantiation doctrine is helpful.
1.
The CPA prohibits “unfair or deceptive acts or
practices in the conduct of any trade or commerce.” RCW
19.86.020. The purpose of the CPA is “to protect the public
and foster fair and honest competition.” RCW 19.86.920.
The CPA is meant to be liberally construed to serve this
purpose. Short v. Demopolis, 103 Wn.2d 52, 60-61, 691
P.2d 163 (1984).
The Washington attorney general may bring an
enforcement action under the CPA. The State must
prove three elements: “(1) an unfair or deceptive act or
practice (2) occurring in trade or commerce, and (3) public
interest impact.” State v. Kaiser, 161 Wn. App. 705, 719,
254 P.3d 850 (2011). The State is not required to prove
that the unfair or deceptive advertisements actually
injured consumers or that consumers relied on deceptive
ads when deciding whether to purchase or consume the
advertised products. Kaiser, 161 Wn. App. at 719. A CPA
claim “‘does not require a finding of an intent to deceive or
defraud and therefore good faith on the part of the seller is
immaterial.’” Wine v. Theodoratus, 19 Wn. App. 700, 706,

8a
Appendix A
577 P.2d 612 (1978) (quoting Fisher v. World-Wide Trophy
Outfitters, 15 Wn. App. 742, 748, 551 P.2d 1398 (1976)).
The CPA does not define “unfair or deceptive acts
or practice.” Instead, our Supreme Court has allowed
the definition to evolve through the “‘gradual process of
judicial inclusion and exclusion.’” Klem v. Wash. Mut.
Bank, 176 Wn.2d 771, 785, 295 P.3d 1179 (2013) (internal
quotation marks omitted) (quoting Saunders v. Lloyd’s of
London, 113 Wn.2d 330, 344, 779 P.2d 249 (1989)). “Given
that there is ‘no limit to human inventiveness,’ courts, as
well as legislatures, must be able to determine whether
an act or practice is unfair or deceptive to fulfill the
protective purpose of the CPA.” Klem, 176 Wn.2d at 786
(quoting Panag v. Farmers Ins. Co. of Wash., 166 Wn.2d
27, 48, 204 P.3d 885 (2009)).
A claim under the CPA may be predicated on (1) a
per se violation of statute, (2) an act or practice that has
the capacity to deceive substantial portions of the public,
or (3) an unfair or deceptive act or practice not regulated
by statute but in violation of public interest. Klem, 176
Wn.2d at 787. “An act is deceptive if it is likely to mislead
a reasonable consumer.” State v. Mandatory Poster
Agency, Inc., 199 Wn. App. 506, 512, 398 P.3d 1271, review
denied, 189 Wn.2d 1021 (2017). “A plaintiff need not show
that the act in question was intended to deceive, but that
the alleged act had the capacity to deceive a substantial
portion of the public.” Hangman Ridge Training Stables,
Inc. v. Safeco Title Ins. Co., 105 Wn.2d 778, 785, 719
P.2d 531 (1986). Further, a truthful statement “may be
deceptive by virtue of the ‘net impression’ it conveys.”
Panag, 166 Wn.2d at 50.

9a
Appendix A
Washington’s CPA was initially adopted in 1961 and
modeled generally after section 5 of the Federal Trade
Commission Act (FTCA), 15 U.S.C. § 45(a)(1). Hangman
Ridge, 105 Wn.2d at 783. As with the CPA, the FTCA
broadly prohibits “unfair or deceptive acts or practices.”
The CPA was intended to “complement the body of federal
law governing restraints of trade, unfair competition and
unfair, deceptive, and fraudulent acts or practices.” RCW
19.86.920. As such, “in construing this act, the courts
[should] be guided by final decisions of the federal courts
and final orders of the federal trade commission.” RCW
19.86.920; State v. Black, 100 Wn.2d 793, 799, 676 P.2d
963 (1984) (“When the Legislature enacted the Consumer
Protection Act, it anticipated that our courts would be
guided by the interpretation given by federal courts to
their corresponding federal statutes.”).
Washington courts have repeatedly adopted federal
court interpretations of section 5 of the FTCA when
reviewing CPA cases. See Boeing Co. v. Sierracin Corp.,
108 Wn.2d 38, 57, 738 P.2d 665 (1987) (“In the absence
of Washington cases discussing when assertion of trade
secrets constitutes a violation of antitrust laws, [courts]
are guided by interpretations of the federal courts.” (citing
RCW 19.86.920)); Fisher, 15 Wn. App. at 748 (using the
Second Circuit’s interpretation of an unfair or deceptive
act (citing Exposition Press, Inc. v. Fed. Trade Comm’n,
295 F.2d 869, 873 (2d Cir. 1961)); see also Panag, 166
Wn.2d at 50 (“Deception exists ‘if there is a representation,
omission or practice that is likely to mislead.’” (quoting
Sw. Sunsites, Inc. v. Fed. Trade Comm’n, 785 F.2d 1431,
1435 (9th Cir. 1986))); Blewett v. Abbott Labs., 86 Wn.

10a
Appendix A
App. 782, 787, 938 P.2d 842 (1997) (“The directive to be
‘guided by’ federal law does not mean we are bound to
follow it. But neither are we free to ignore it, and indeed
in practice Washington courts have uniformly followed
federal precedent in matters described under the [CPA].”).
Under section 5 of the FTCA, in order to prove that an
advertisement is deceptive, the FTC must establish (1) that
the advertisement conveys a representation through either
express or implied claims, (2) that the representation is
likely to mislead consumers, and (3) that the misleading
representation is material. Fed. Trade Comm’n v. Direct
Mktg. Concepts, Inc., 569 F. Supp. 2d 285, 297 (D. Mass.
2008), aff’d, 624 F.3d 1 (1st Cir. 2010). “Neither proof of
consumer reliance nor consumer injury is necessary to
establish a § 5 violation.” Fed. Trade Comm’n v. Freecom
Commc’ns, Inc., 401 F.3d 1192, 1203 (10th Cir. 2005). The
FTC can prove that a representation is likely to mislead
consumers by establishing either (1) actual falsity of
express or implied claims (“falsity” theory) or (2) that
the advertiser lacked a reasonable basis for asserting the
representation was true (“reasonable basis” theory). Fed.
Trade Comm’n v. Pantron I Corp., 33 F.3d 1088, 1096 (9th
Cir. 1994) (quoting Thompson Med. Co., 104 F.T.C. 648,
818-19 (1984)); Fed. Trade Comm’n v. John Beck Amazing
Profits, LLC, 865 F. Supp. 2d 1052, 1067 (C.D. Cal. 2012). 5
Under the reasonable basis theory, if an advertisement
states or impliedly suggests that a product successfully
5. Here, because the State was proceeding only under the
reasonable basis theory, the trial court did not analyze Living
Essentials’ claims under the falsity theory.

11a
Appendix A
performs an advertised function or yields an advertised
benefit, the advertiser must have a “reasonable basis” for
the claim. Fed. Trade Comm’n v. COORGA Nutraceuticals
Corp., 201 F. Supp. 3d 1300, 1308-09 (D. Wyo. 2016) (citing
Pfizer, Inc., 81 F.T.C. 23 (1972)). Further, the advertiser
must have some recognizable substantiation for the
representation prior to advertising it. John Beck Amazing
Profits, 865 F. Supp. 2d at 1067. Where an advertiser
lacks adequate substantiation, it necessarily lacks any
reasonable basis for its claims and the advertisement
is deceptive as a matter of law. Direct Mktg. Concepts,
Inc., 624 F.3d at 8. This is known as the FTC’s prior
substantiation doctrine.
2.
Living Essentials contends that the trial court erred
by adopting the prior substantiation doctrine—effectively
creating a new per se unfair trade practice. We agree
that our Supreme Court has determined that it is for the
legislature, not the courts, to declare whether a statutory
violation is a per se unfair trade practice. Hangman Ridge,
105 Wn.2d at 787. We disagree, however, that the trial
court adopted the prior substantiation doctrine as a new
per se unfair trade practice.
Living Essentials relies primarily on this court’s
decision in State v. Pacific Health Center, Inc., 135 Wn.
App. 149, 143 P.3d 618 (2006). In Pacific Health, the State
alleged that various alternative medicine practitioners
violated the CPA because they were practicing medicine,
naturopathy, and acupuncture without a license. Pac.

12a
Appendix A
Health, 135 Wn. App. at 153. The State had argued that
by engaging in health care practices, the defendants
represented that they possessed the expertise and
training that only licensed health care providers
possessed—a misrepresentation and violation of the CPA.
The defendants argued that the State was attempting
to create a new per se violation of the CPA: practicing
medicine without a license.
The Pacific Health court agreed with the defendants
because, despite being unlicensed, they were actually
skilled at performing the tests and diagnoses that they
performed. The court concluded that the advertisements
that claimed the defendants were skilled at performing
medical tests, but not asserting that they were licensed
doctors, were not deceptive. The court further concluded
that if it were to find the ads deceptive simply because the
defendants were unlicensed, it would amount to a new per
se unfair trade practice. Pac. Health, 135 Wn. App. at 149.
In reaching its conclusion, the Pacific Health court
analogized to Bowers v. Transamerica Title Ins. Co.,
100 Wn.2d 581, 675 P.2d 193 (1983) (plurality opinion).
In Bowers, a title insurance company prepared closing
documents in preparation for a sale despite not being
licensed to practice law. The Pacific Health court
explained that “[t]he crucial point for our CPA analysis is
not simply that [the appellants in Bowers] were unqualified
to practice law, but rather that the record demonstrated
they were, in fact, not skilled in preparing the very
closing documents they held themselves out as qualified
to prepare.” Pac. Health, 135 Wn. App. at 172.

13a
Appendix A
The Pacific Health court’s analysis of Bowers clarifies
that a decision does not risk creating a new per se unfair
trade practice when, on the facts of the case, the alleged
violators’ conduct actually constituted deception. In
Pacific Health, the unlicensed defendants were actually
skilled at performing the tests and diagnosis for which
they had advertised. Therefore, to hold that they violated
the CPA would have created a new per se unfair trade
practice because the doctors’ advertisements were not,
in fact, deceptive. Whereas in Bowers, because the
advertisements were actually deceptive the case did not
risk creating a new per se unfair trade practice.
Living Essentials’ argument might be persuasive if
the trial court had declared that simply because Living
Essentials lacked prior substantiation, its advertisements
were per se deceptive, without any analysis of whether the
claims were actually deceptive. But this is not what the
trial court did. While the trial court explained the FTC’s
prior substantiation doctrine as part of its conclusions of
law, the court specifically declined to rely only on prior
substantiation:
The State argues that any scientific evidence
developed or relied upon after Living Essentials
aired or published its ads is legally irrelevant
because the FTC guidelines required pre-claim
substantiation. While this Court acknowledges
that both the FTC guidelines and federal case
law indicate that pre-claim substantiation
is required, the Court also concludes that
subsequent scientific studies may shed light

14a
Appendix A
on pre-claim studies and are thus relevant and
material to the Court’s CPA analysis.
More importantly, a review of the trial court’s
extensive findings of fact demonstrates that the court
carefully considered Living Essentials’ preclaim
substantiation as well as an extensive list of postclaim
studies and expert trial testimony in making its findings.
The trial court found—with respect to Living Essentials’
Superior to Coffee claim—that there was insufficient
scientific evidence to support Living Essentials’ express
claims that people who drink 5-hour ENERGY® will
experience hours of energy, alertness, and focus because
the vitamins and nutrients extend the effects of caffeine.
As a result of the lack of scientific evidence, the trial court
found the ads materially misleading and in violation of
the CPA.
Similarly, after reviewing both pre- and postclaim
studies and expert trial testimony, the trial court found:
While there is competent and reliable scientific
evidence to support a claim that the Decaf
5-hour ENERGY® shot may provide a shortterm benefit in terms of energy, the science is
insufficient to substantiate the claim that this
benefit will endure over a five hour period. For
this reason, the Court finds the Decaf Claims
to be materially misleading and a violation of
the CPA.
Thus, while the trial court was appropriately guided
by the FTC’s prior substantiation doctrine, it did not adopt

15a
Appendix A
the doctrine as a per se violation of the CPA. Instead after
weighing all of the evidence before it, the court found that
Living Essentials’ Superior to Coffee and Decaf claims
were materially misleading.
B.
Living Essentials next contends that application of
the prior substantiation doctrine is contrary to article
I, section 5 of the Washington Constitution and the
First Amendment to the United States Constitution. We
disagree.
1.
Living Essentials first argues that the trial court’s
standard for adequate substantiation required “competent
and reliable scientific evidence”—an unconstitutionally
vague standard for penalizing and suppressing speech.6
Living Essentials argues that “competent and reliable”
is just as vague as requiring “credible and reliable”
identification of a criminal suspect, which the United
States Supreme Court has found unconstitutional. See
6. Living Essentials also argues that the trial court violated the
First Amendment by shifting the burden of proof and not requiring
the government to prove Living Essentials’ ads were misleading.
Living Essentials bases this claim on one isolated statement in the
trial court’s extensive findings and conclusions and then contends
that the court did not require the government to prove anything.
Living Essentials fails, however, to cite to anywhere in the trial
court’s findings or conclusions that actually shifted the government’s
burden of proof. Its claim is without merit.

16a
Appendix A
Kolender v. Lawson, 461 U.S. 352, 103 S. Ct. 1855, 75 L.
Ed. 2d 903 (1983).
The due process clause of the Fourteenth Amendment
requires that notice be given of what is prohibited.
Reader’s Digest, 81 Wn.2d at 273. Whether “‘notice is, or
is not “fair” depends upon the subject matter to which it
relates’” and “‘[c]ommon intelligence’ is the test of what is
fair warning.” Reader’s Digest, 81 Wn.2d at 273 (quoting
Winters v. New York, 333 U.S. 507, 524, 68 S. Ct. 665,
92 L. Ed. 840 (1948) (Frankfurter, J., dissenting) and
citing Connally v. Gen. Constr. Co., 269 U.S. 385, 391, 46
S. Ct. 126, 70 L. Ed. 322 (1926)). “In the field of regulatory
statutes governing business activities, greater leeway is
allowed in applying the test.” Reader’s Digest, 81 Wn.2d
at 273-74. Thus, statutes using words or phrases well
enough known to enable those expected to use them to
correctly apply them, or statutes that use words with a well
settled common law meaning, will be sustained against a
vagueness challenge. Reader’s Digest, 81 Wn.2d at 273-74.
[24, 25] ¶34 The phrase “competent and reliable
scientific evidence” has been a benchmark for determining
whether ad claims have a reasonable basis since at least
1984. See Sterling Drug, Inc. v. Fed. Trade Comm’n, 741
F.2d 1146, 1156-57 (9th Cir. 1984) (performance claims
must be supported by “competent and reliable scientific
evidence”). Our Supreme Court has held that where
federal courts have “amassed an abundance of law giving
shape and definition” to the law, there is sufficiently
well established meaning in federal trade law to meet a
constitutional challenge of vagueness. Reader’s Digest, 81

17a
Appendix A
Wn.2d at 274. Given the weight of federal court decisions,
FTC decisions, orders, and guidance surrounding both
the requirement of “competent and reliable scientific
evidence” and what advertisers may do to market dietary
supplements in a fair and nondeceptive manner, the trial
court did not err in following FTC guidance.
2.
Living Essentials arg ues next that article I,
section 5 of the Washington State Constitution affords
greater protection of commercial speech than the First
Amendment and requires application of strict scrutiny.
Living Essentials contends that it is an open question
whether article I, section 5 of the Washington Constitution
provides broader protection than the First Amendment to
the United States Constitution. Living Essentials argues
that the open nature of this question means that this court
must undergo a Gunwall analysis to determine whether
commercial speech is afforded greater protection under
article I, section 5 than the First Amendment. State v.
Gunwall, 106 Wn.2d 54, 58, 720 P.2d 808 (1986).
[26, 27] ¶37 While Living Essentials is correct that
we use the Gunwall factors to analyze whether the
Washington Constitution provides a broader right than the
federal constitution, contrary to Living Essentials’ claims,
our Supreme Court has already answered that question
regarding commercial speech. In National Federation of
Retired Persons v. Insurance Commissioner, the court
determined that because “Washington case law provides

18a
Appendix A
no clear rule for constitutional restrictions on commercial
speech … [w]e therefore follow the interpretative
guidelines under the federal constitution.” 120 Wn.2d 101,
119, 838 P.2d 680 (1992) (describing the test that the United
States Supreme Court established in Central Hudson
Gas & Electric Corp. v. Public Service Commission, 447
U.S. 557, 563, 100 S. Ct. 2343, 65 L. Ed. 2d 341 (1980));
see also Ino Ino, Inc. v. City of Bellevue, 132 Wn.2d 103,
116, 937 P.2d 154 (1997) (plurality opinion) (“The federal
analysis also applies when confronting [article I, section
5] challenges to regulations of commercial speech.”).
Living Essentials cites to other Washington cases as
support for its assertion that it is still an open question
whether commercial speech is afforded more protection
in Washington than federally. See Soundgarden v.
Eikenberry, 123 Wn.2d 750, 764, 871 P.2d 1050 (1994)
(declining to address the scope of protection under article
I, section 5, because the parties “have not addressed the
… [Gunwall] factors”); Kitsap County v. Mattress Outlet,
153 Wn.2d 506, 511 n.1, 104 P.3d 1280 (2005) (plurality
opinion) (“Although our state constitution may be more
protective of free speech than the federal constitution,
it is unnecessary to consider a state constitutional
analysis because [the ordinance] fails the minimum
protection provided under the federal constitution.”
(emphasis added)). None of the cases Living Essentials
cites overrules or meaningfully distinguishes National
Federation of Retired Persons or Ino Ino. If anything,
the cases that Living Essentials cites further supports
the Supreme Court’s statement in National Federation
of Retired Persons that “Washington case law provides

19a
Appendix A
no clear rule for constitutional restrictions on commercial
speech.” 120 Wn.2d at 119. Accordingly, the Supreme
Court’s decisive language that we are to apply the fourpart test from Central Hudson remains binding authority
on this court. See Nat’l Fed’n of Retired Persons, 120
Wn.2d at 118; Ino Ino, 132 Wn.2d at 116.
In Central Hudson, the United States Supreme Court
determined that commercial speech is entitled to First
Amendment protection. 447 U.S. at 566. However, because
commercial speech is not entitled to as much protection as
noncommercial speech, the Court established a four-part
test to determine if a regulatory burden on commercial
speech is constitutional. Cent. Hudson, 447 U.S. at 566. In
analyzing this question, a court must consider (1) whether
the speech concerns a lawful activity and is not misleading,
(2) whether the government’s interest is substantial, (3)
whether the restriction directly and materially serves
the asserted interest, and (4) whether the restriction is
no more extensive than necessary. Cent. Hudson, 447
U.S. at 566.
Applying Central Hudson to this case, Living
Essentials’ argument that the prior substantiation doctrine
is unconstitutional fails at the first prong. The United
States Supreme Court has continually emphasized that in
order to be constitutionally protected, commercial speech
must not be misleading or concern unlawful activity. See
In re R.M.J., 455 U.S. 191, 203, 102 S. Ct. 929, 71 L. Ed.
2d 64 (1982) (“Misleading advertising may be prohibited
entirely.”). The Supreme Court has also held that the
government may even regulate potentially deceptive

20a
Appendix A
speech without violating the First Amendment. See
Friedman v. Rogers, 440 U.S. 1, 15-16, 99 S. Ct. 887, 888,
59 L. Ed. 2d 100 (1979) (In upholding a Texas statute that
banned the use of trade names the court concluded that
“the use of a trade name … enhances the opportunity for
misleading practices. … Rather than stifling commercial
speech, [the challenged statute] ensures that information
… will be communicated more fully and accurately to
consumers than it had been in the past.”).
Living Essentials concedes that several federal circuit
courts of appeals have upheld the prior substantiation
doctrine against similar constitutional challenges. See Jay
Norris, Inc. v. Fed. Trade Comm’n, 598 F.2d 1244 (2d Cir.
1979); United States v. Readers’ Digest Ass’n, 662 F.2d
955 (3d Cir. 1981); Sears, Roebuck & Co. v. Fed. Trade
Comm’n, 676 F.2d 385 (9th Cir. 1982). Living Essentials
argues that these cases should be disregarded because
they were “issued at the dawn of First Amendment
protection of commercial speech,” but fails to explain why
this matters. Living Essentials has not pointed to any case
law purporting to overrule or meaningfully distinguish
these cases, and the Central Hudson analysis suggests
that the prior substantiation doctrine remains just as
constitutional today as it was when these cases were first
decided.
C.
Living Essentials next contends that no substantiation
was necessary because the Superior to Coffee and Decaf
claims are “mere puffery” and therefore not actionable
under the CPA.

21a
Appendix A
The FTC “generally will not bring advertising cases
based on subjective claims … [or] cases involving obviously
exaggerated or puffing representations, i.e., those that
the ordinary consumers do not take seriously.” 7 Puffery is
defined as “‘either vague or highly subjective [claims] and,
therefore, incapable of being substantiated.’” Fed. Trade
Comm’n v. Nat’l Uroloqical Grp., Inc., 645 F. Supp. 2d
1167, 1205 (N.D. Ga. 2008) (quoting Sterling Drug, Inc.,
102 F.T.C. 395, 749 (1983)), aff’d, 356 F. App’x 358 (11th
Cir. 2009).
Living Essentials’ attempt to characterize its claims
as subjective by highlighting the use of the word “feeling”
in its advertisements is unpersuasive. Living Essentials
claimed that the unique blend of vitamins and amino
acids in 5-Hour ENERGY® worked synergistically
with caffeine to enhance the duration of the energy,
alertness, and focus derived from caffeine alone. These are
factual representations that are capable of being tested.
“Living Essentials intentionally promoted the product’s
ingredients as changing the way the body functioned [and]
[i]t promoted the product as a healthy way to achieve these
physiological results.” We agree with the trial court that
Living Essentials’ claims were factual representations
and not mere puffery.
Living Essentials also contends that the FTC
does not require substantiation where the product
involved is “frequently purchased, easily evaluated by
7. FTC Policy S tatement on Deception 4 (Oct. 14, 1983),
https://www.ftc.gov/system/files/documents/public_statements/4
10531/831014deceptionstmt.pdf [https://perma.cc/XEU9-NY6R].

22a
Appendix A
consumers, and inexpensive.” But this point disregards
the underlying policy purposes of the FTC’s position:
“There is little incentive for sellers to misrepresent … in
these circumstances since they normally would seek to
encourage repeat purchases. Where … market incentives
place strong constraints on the likelihood of deception, the
[FTC] will examine a practice closely before proceeding.”
FTC Policy Statement on Deception at 5. 8
However, in this case the incentive to mislead
consumers is still present. There is no way for the
consumer to know which ingredients are acting to make
the consumer feel more energized. While the evidence
suggests that it is the caffeine that is providing the specific
effects that the consumer is feeling, Living Essentials
expressly advertised that it is 5-Hour ENERGY®’s
noncaffeine ingredients that are acting. Therefore, the
policy concerns underlying the FTC’s guidance do not
apply here.
D.
Under the FTC’s prior substantiation doctrine,
the court must determine the appropriate level of
substantiation required for a claim to have a reasonable
basis. Living Essentials contends the trial court erred
by applying the FTC substantiation standard for claims
that “relate to consumer health.” While we agree that the
trial court misstated the applicable standard, contrary to
Living Essentials’ argument, the error does not mandate
a reversal.
8. FTC Policy Statement on Deception (Oct. 14, 1983).

23a
Appendix A
The trial court found that “Living Essentials’ ads
relate to consumer health” and therefore “require a
relatively high level of substantiation.” 9 Under this
relatively high level of substantiation standard, the court
noted that Living Essentials’ “Superior to Coffee” claim
was “certainly plausible … [but was] not an established
scientific fact.” Further, the trial court concluded that “[w]
hile there is competent and reliable scientific evidence to
support a claim that the Decaf 5-Hour ENERGY® shot
may provide a short-term benefit in terms of energy,
the science is insufficient to substantiate the claim that
this benefit will endure over a five hour period.” These
statements misstated the applicable standard.
The FTC defines a “health claim” as a “representation[
] about the relationship between a nutrient and a disease
or health-related condition.” FTC, Dietary Supplements
at n.2.10 When an advertisement alleges that a product
has a relationship to a disease or health related condition,
the FTC requires a relatively high level of substantiation.
See POM Wonderful, LLC v. Fed. Trade Comm’n, 414
U.S. App. D.C. 111, 777 F.3d 478, 500 (2015) (the FTC
“bars representations about a product’s general health
9. (Citing B u r e au of C ons u m er P r o t ., FTC, D i eta ry
Supplements: A n A dvertising Guide for Industry (2001), https://
www.ftc.gov/system/files/documents/plain-language/bus09-dietarysupplernents-advertising-guide-industry.pdf [https://perma.
cc/4XDP-VL7J)].
10. Bureau of Consumer Prot., FTC Dietary Supplements:
A n A dvertising Guide for Industry (2001), https://www.ftc.gov/
system/files/documents/plain-language/bus09-dietary-supplementsadvertising-guide-industry.pdf [https://perma.cc/4XDP-VL7J].

24a
Appendix A
benefits ‘unless the representation is non-misleading’ and
backed by ‘competent and reliable scientific evidence that
is sufficient in quality and quantity’ to ‘substantiate that
the representation is true’”).
It is undisputed that Living Essentials markets and
advertises 5-Hour ENERGY® as a dietary supplement.
However, to conclude that 5-Hour ENERGY®’s claims
are also health claims was erroneous. Living Essentials
has not made any claims that 5-Hour ENERGY® has any
direct impact on a disease or health related condition. And
to require that Living Essentials establish scientific facts
substantiating its claims exceeds even the FTC’s standard.
As the amici correctly explained, “[T]he competent-andreliable standard does not envision scientific unanimity
and certainly does not require, as the trial court held,
that a claim be ‘established scientific fact.’”
Similarly, the trial court erred by stating that
Living Essentials had to substantiate that Decaf 5-hour
ENERGY® lasted for five hours. The FTC requires
that “the substantiation must be relevant to the claimed
benefits,” and Living Essentials never advertised that
Decaf 5-Hour ENERGY® lasted for five hours, but rather
that it lasted for hours.
However, because this court reviews CPA violations de
novo, the trial court’s reliance on an erroneous standard
does not mandate a reversal; substantial evidence exists to
support the trial court’s conclusion that Living Essentials’
ads violated the CPA. We “defer to the trier of fact
regarding witness credibility or conflicting testimony,”

25a
Appendix A
Weyerhaeuser, 123 Wn. App. at 65, will not reweigh the
evidence or the credibility of witnesses on appeal, Wash.
Belt & Drive Sys., Inc., 54 Wn. App. at 616, and need
only determine “whether the evidence most favorable to
the prevailing party supports the challenged findings.”
Prostov, 186 Wn. App. at 820. Therefore, based on our
independent review of the record and viewing the evidence
in the light most favorable to the State, we conclude that
reversal is not warranted. Mansour, 131 Wn. App. at 263.
In order to satisfy the CPA, an advertiser must have a
reasonable basis for its claim. “Under the reasonable basis
theory, the advertiser must have had some recognizable
substantiation for the representation prior to making
it an advertisement.” John Beck Amazing Profits, 865
F. Supp. 2d at 1067. As the trial court found, Living
Essentials failed to present any evidence that “anyone
with any science training ever assessed the ad claims
and the science backing up those claims against the FTC
substantiation guidelines.” And we agree with the trial
court that “asking an advertising director who lacks any
scientific or medical training to conduct internet research
is [not] adequate substantiation.”
As for Living Essentials’ Superior to Coffee claim,
first, its expert Dr. David Kennedy conceded that there
is no experimental evidence showing that the addition
of a multivitamin to a caffeinated energy drink will
cause greater improvement in physical and cognitive
performance than can be attributed to the effects of
caffeine alone. Further, Living Essentials points to no
evidence that directly supports its Superior to Coffee

26a
Appendix A
claim. “Dr. Kennedy’s summary of the scientific literature
does show some different physiological results from
caffeine plus vitamins or caffeine plus amino acids,
but the results are not the benefits touted by Living
Essentials.” Specifically, the Giles study shows that
taurine counteracts caffeine, rather than enhancing its
effects. Further, neither the Glade nor the NERAC study
examined whether combining the specific ingredients in
5-Hour ENERGY® with caffeine will cause the energy,
alertness, and focus effects of caffeine to last longer than
caffeine alone.
Living Essentials pointed to the 2013 Nagrecha
study, the 2015 Molnar study, and the 2015 Paulus study
as support for its Superior to Coffee claim. But, as the
trial court found, none of those studies are sufficiently
relevant to substantiate Living Essentials’ claim. “The
Nagrecha study has limited relevance because its test
subjects underwent only one round of testing 40 minutes
after ingesting” 5-Hour ENERGY®. The Paulus study
had “methodological problems … [that were] significant
enough to render [its] results unreliable.” The Molnar
study was insufficient to substantiate Living Essentials’
claims because there was significant disagreement
between the testifying experts as to the relevance of the
Molnar study and, as the trial court found, the Bloomer
study “undercut the reasonability of relying on Molnar as
substantiation for Living Essentials’ claims.”
Finally, the Medicus study does not support 5-Hour
ENERGY®’s Superior to Coffee claim. The trial court
found Dr. Tom McLellan’s testimony to be credible

27a
Appendix A
that there is no basis for concluding that the Medicus
study’s results “were attributable to any ingredient
other than caffeine.” As the testifying experts pointed
out, the Medicus study was designed in a f lawed
manner that overemphasized its results with respect
to 5-Hour ENERGY®. The study was not designed “to
determine whether the non-caffeine ingredients in 5-Hour
ENERGY® led to improved performance,” and the results
“do not show that consuming 5-Hour ENERGY® improved
any of the test subjects’ cognitive functioning … above
baseline.”
We conclude that there is sufficient evidence in
the record to support the trial court’s determination
that Living Essentials’ Superior to Coffee claim is
unsubstantiated.
There is also no substantiation in the record to show
that Decaf 5-Hour ENERGY® lasts “for hours.” In
support of the Decaf claim, Dr. Sanford Bigelow testified
that Living Essentials acted reasonably in relying on
the 2010 Glade report and the 2007 NERAC report as
substantiation. But the trial court found that Dr. Bigelow’s
testimony was not credible. The Glade report relied
on studies that tested doses of 3000mg (milligrams) or
more of taurine, but Decaf 5-Hour ENERGY® contains
only 483mg of taurine—a differentiation that fatally
undermines Dr. Michael Glade’s conclusions because the
FTC specifically cautions advertisers from relying on
studies where the conclusions are based on very different
dosages. FTC, Dietary Supplements at 14, 16.

28a
Appendix A
Dr. Kennedy also testified that the 2015 Shah study
supported Living Essentials’ Decaf claims. But “the
chart on which Dr. Kennedy relie[d] actually show[ed]
that the … test results at the 3 hour mark were not
statistically significant.” Further, the 2013 Kurtz study
also contradicts Living Essentials’ claim because it found
that “consumers drinking Decaf 5-Hour ENERGY®
experienced no energy benefits from the ingredients in
the drink.”
While the trial court may have been incorrect in
saying that Living Essentials had to show that Decaf
5-Hour ENERGY® lasted for five hours, there is sufficient
evidence in the record to support the trial court’s
determination that Living Essentials’ Decaf Claim was
deceptive.
E.
Living Essentials finally argues that the trial court
erred in determining that its Ask Your Doctor claim was
deceptive.
The trial court found that despite the words in the Ask
Your Doctor ad being literally true, the net impression—
that 73 percent of doctors had specifically recommended
5 -Hour ENERGY® as a healthy and safe dietary
supplement—was deceptive. The court first reasoned that
Living Essentials’ specific goal in creating this ad, as its
advertising manager admitted at trial, was to indicate that
doctors would recommend 5-Hour ENERGY®. Second,
the surveys that Living Essentials used were specifically

29a
Appendix A
designed to elicit a yes response because saying no
“suggested that the responding doctor would instead
recommend a high fat, high calorie, or high sodium energy
supplement.” And that “Living Essentials presented the
statistics in a way that would lead a reasonable viewer to
believe that 73 [percent] of 3,000 doctors surveyed would
recommend this product to their patients” when it was
actually 73 percent of 503 doctors.
Living Essentials contends that its expert testimony
alone is sufficient to establish what message the reasonable
consumer would take away from the ad and that there is
insufficient evidence in the record to support the trial
court’s determination. We disagree.
Because “[t]he meaning of an advertisement … is … a
question of fact,” Nat’l Urological Grp., Inc., 645 F. Supp.
2d at 1189, and a truthful statement “may be deceptive
by virtue of the ‘net impression’ it conveys,” Panag, 166
Wn.2d at 50, the trial court did not err by concluding
that the net impression from the Ask Your Doctor ad was
deceptive. “If an advertiser asserts that it has a certain
level of support for an advertised claim, it must be able
to demonstrate that the assertion is accurate.” FTC,
Dietary Supplements at 9. “Advertising should not …
suggest greater scientific certainty than actually exists.”
FTC, Dietary Supplements at 16. “In determining the
meaning of an advertisement … the important criterion is
the net impression that it is likely to make on the general
populace.” Grolier, Inc., 91 F.T.C. 315, 430 (1978), order
set aside and remanded on other grounds, 615 F.2d 1215
(9th Cir. 1980), modified, 98 F.T.C. 882 (1981), reissued,
99 F.T.C. 379 (1982).

30a
Appendix A
In reviewing ads, the court “will often be able to
determine meaning through an examination of the
representation itself, including an evaluation of such
factors as the entire document, the juxtaposition of various
phrases in the document, the nature of the claim, and the
nature of the transaction.” FTC Policy Statement on
Deception at 2. “When a seller’s representation conveys
more than one meaning to reasonable consumers, one
of which is false, the seller is liable for the misleading
interpretation.” Nat’l Comm’n on Egg Nutrition, 88 F.T.C.
89, 185 (1976), modified, 92 F.T.C. 848 (1978).
Here, the State’s witness, Dr. Anthony Pratkanis, an
expert in the science of consumer behavior and persuasion
tactics, testified “that the clear takeaway from these ads
was that doctors would recommend 5-Hour ENERGY®.”
Further, Dr. Pratkanis testified that Living Essentials’
“survey questions were biased, leading, and designed
to elicit a limited response.” The trial court did not err
by allowing Dr. Pratkanis’s expertise to help guide its
ultimate conclusions. The key question that the trial
court had to answer was what the reasonable consumer
would have taken away from Living Essentials’ ad. FTC
Policy Statement on Deception at 1-2 (“[W]e examine
[advertisements] from the perspective of a consumer
acting reasonably in the circumstances. … [T]o be
deceptive the representation, omission or practice must
be likely to mislead reasonable consumers under the
circumstances.”). Here, there is sufficient evidence in
the record—including Dr. Pratkanis’s testimony and the
text of the Ask Your Doctor ad itself—to support the trial
court’s conclusion that the reasonable consumer would
have been misled by Living Essentials’ claim.

31a
Appendix A
III.
Living Essentials next contends that the trial court
erred by imposing more than $2 million in penalties. We
disagree.
We review the trial court’s imposition of a civil penalty
for an abuse of discretion. State v. Ralph Williams’
N.W. Chrysler Plymouth, Inc., 87 Wn.2d 298, 553 P.2d
423 (1976) (Ralph Williams II). An abuse of discretion
exists when no reasonable person would take the position
adopted by the court. Griggs v. Averbeck Realty, 92 Wn.2d
576, 584, 599 P.2d 1289 (1979).
After finding that Living Essentials had violated the
CPA, the trial court assessed a $2,183,747 civil penalty
against Living Essentials. First, the court concluded that
“the most appropriate method of determining the total
number of violations for the deceptive advertisements
is to determine the number of times the deceptive
advertisements were aired in Washington” within the
statute of limitations period. The Superior to Coffee claim
was included in two different ads that ran in Washington
975 and 1,040 times, respectively. The Ask Your Doctor
ad ran 19,716 times in Washington.
As for the Decaf claim, the court concluded that Living
Essentials had made deceptive claims in its press release
and press kit, and on the bottle packaging, but had not
expressly advertised those claims in Washington. The
court determined that the press release, dated 2008, was
outside of the limitation period. Similarly, the court found

32a
Appendix A
there was no credible evidence introduced to show that the
press kit was ever distributed in Washington. However,
the court did conclude that deceptively packaged bottles
of Decaf 5-Hour ENERGY® were sold in Washington
2,482 times.11
Then, the court determined that a civil penalty of
$100 per violation for the deceptive advertisements and
$4.29 per decaf bottle sold was an appropriate penalty.
In determining the proper amount of penalty to assess
per violation, the trial court found the following factors
significant: (1) Living Essentials generated a substantial
amount of revenue in Washington, (2) 5-Hour ENERGY®
posed a high risk to the public because it is consumed, so
there is no way to reverse the impact such a product may
have on an individual, and (3) Living Essentials spent more
time trying to substantiate its claims after marketing
its products in Washington than before. Accordingly,
the court assessed a $1,971,600 penalty for the Ask Your
Doctor claim, a $201,500 penalty for the Superior to Coffee
claim, and a $10,647 penalty for the decaf packaging,
equating to a total civil penalty of $2,183,747.
RCW 19.86.140 provides that “[e]very person
[(including corporations)] who violated [the CPA] shall
forfeit and pay a civil penalty of not more than two
thousand dollars for each violation.” Washington courts
11. Living Essentials sold $10,648 worth of Decaf 5-Hour
ENERGY® in Washington. The court estimated that a reasonable
per bottle price was $4.29, and therefore concluded that Living
Essentials sold approximately 2,482 bottles of Decaf 5-Hour
ENERGY® in Washington (10,648 / 4.29 = 2,482).

33a
Appendix A
recognize two basic tenets of trade law in effectuating the
purpose of chapter 19.86 RCW. “First, no one should be
permitted to profit from unfair and deceptive conduct. …
Second, fair dealing must be encouraged at all stages of
commerce.” See State v. Ralph Williams’ N.W. Chrysler
Plymouth, Inc., 82 Wn.2d 265, 510 P.2d 233 (1973).
While RCW 19.86.140 provides that a statutory
penalty for violating the CPA is mandatory, it leaves the
amount of the penalty and the factors to consider within
the trial court’s discretion. Ralph Williams II, 87 Wn.2d
at 314. Here, the trial court reasoned that “penalties
should be large enough to deter future violations and to
ensure that defendants do not profit from the deceptive
advertising.”
Living Essentials asserts that the penalty violates the
excessive fines clause of the United States Constitution.
See Timbs v. Indiana, ___ U.S. ___, 139 S. Ct. 682, 687,
203 L. Ed. 2d 11 (2019) (holding that “[t]he Excessive Fines
Clause [of the Eight Amendment] is … incorporated by
the Due Process Clause of the Fourteenth Amendment”).
Under the excessive fines clause, civil penalties may not
be “grossly disproportional to the gravity of a defendant’s
offense.” United States v. Balakajian, 524 U.S. 321, 334,
118 S. Ct. 2028, 141 L. Ed. 2d 314 (1998). Living Essentials
fails to show how assessing a $100 per violation penalty,
despite being statutorily authorized to assess up to $2,000
per violation, is grossly disproportional. Courts have
“consistently found that civil penalty awards in which the
amount of the award is less than the statutory maximum
do not run afoul of the Excessive Fines Clause.” United

34a
Appendix A
States v. Mackby, 221 F. Supp. 2d 1106, 1110 (N.D. Cal.
2002).
Living Essentials also contends that, under the due
process clause, the trial court should have considered (1)
the degree of reprehensibility, (2) the award compared to
the harm, and (3) the amount of the award compared to
other cases. BMW of N. Am., Inc. v. Gore, 517 U.S. 559, 116
S. Ct. 1589, 134 L. Ed. 2d 809 (1996). Using this analysis,
Living Essentials argues that the fine here violated the
due process clause because it was grossly disproportionate
to other CPA violations. See State v. WWJ Corp., 138
Wn.2d 595, 980 P.2d 1257 (1999); Ralph Williams II, 87
Wn.2d at 306-09. Living Essentials’ argument fails for
two reasons.
First, this court has already expressly rejected
Living Essentials’ argument. See Mandatory Poster,
199 Wn. App. at 527 (rejecting the argument that BMW
compelled reversing the trial court’s assessment of a civil
penalty because “our Supreme Court expressly declined
to apply the [BMW] factors to cases involving statutory
damages” (citing Perez-Farias v. Global Horizons, Inc.,
175 Wn.2d 518, 533-34, 286 P.3d 46 (2012))). Second, the
cases that Living Essentials cites actually stand for the
opposite proposition. In Ralph Williams II, the court
awarded civil penalties between $250 and $2,000 per
violation. 87 Wn.2d at 316 n.11. In WWJ, the court awarded
a penalty of $2,000 per violation. 138 Wn.2d at 598. Here,
the court assessed a penalty, on average, of just $90 per
violation. The only reason that the total penalty here is
significantly higher than in the cited cases is because

35a
Appendix A
Living Essentials violated the CPA more than 24,000
times. In essence, Living Essentials is suggesting that
the penalty is unconstitutionally excessive because they
violated the statute too many times. We decline to adopt
this interpretation of the due process clause.
We conclude that the trial court’s assessment of
$2,183,747 in civil penalties for Living Essentials’ 24,213
individual violations of the CPA was not an abuse of
discretion.
IV.
Living Essentials finally argues that the trial court
abused its discretion in its award of attorney fees. We
disagree.
There are two relevant inquires in determining an
award of attorney fees: first, whether the prevailing party
is entitled to legal fees and, second, whether the award
of attorney fees is reasonable. Pub. Util. Dist. No. 1 v.
Int’l Ins. Co., 124 Wn.2d 789, 814, 881 P.2d 1020 (1994).
Whether a party is legally entitled to recover attorney fees
is a question of law that we review de novo. King County
v. Vinci Constr. Grands Projets/Parsons RCI/FrontierKemper, JV, 188 Wn.2d 618, 625, 398 P.3d 1093 (2017).
Whether the amount of fees awarded was reasonable is
reviewed for an abuse of discretion.
Living Essentials does not dispute that the prevailing
party in a CPA action is entitled to an award of attorney
fees. RCW 19.86.080(1) provides that “the prevailing party

36a
Appendix A
[in a CPA action] may, in the discretion of the court, recover
the costs of said action including a reasonable attorney’s
fee.” In interpreting the term “prevailing party,” the
Washington Supreme Court has taken guidance from
federal courts. “[A] plaintiff becomes ‘a prevailing party
… [i]f the plaintiff has succeeded on any significant issue
in litigation which achieve[d] some of the benefit the
parties sought in bringing suit.’” Parmelee v. O’Neel,
168 Wn.2d 515, 522, 229 P.3d 723 (2010) (most alterations
in original) (internal quotation marks omitted) (quoting
Tex. State Teachers Ass’n v. Garland Indep. Sch. Dist.,
489 U.S. 782, 109 S. Ct. 1486, 103 L. Ed. 2d 866 (1989)).
“‘[T]he touchstone of the prevailing party inquiry [is] the
material alteration of the legal relationship of the parties
in a manner which Congress sought to promote in the fee
statute.’” Parmelee, 168 Wn.2d at 522 (first alteration in
original) (quoting Tex. State Teachers Ass’n, 489 U.S. at
792-93).
“Central to the calculation of an attorney fees award
… is the underlying purpose of the statute authorizing
the attorney fees.” Brand v. Dep’t of Labor & Indus., 139
Wn.2d 659, 667, 989 P.2d 1111 (1999). Awarding the State
its fees and costs after a CPA action will “encourage an
active role in the enforcement of the [CPA,] … places the
substantial costs of these proceedings on the violators of
the act, and … [will] not drain [the State’s] public funds.”
Ralph Williams II, 87 Wn.2d at 314-15.
Below, the trial court determined that the State
of Washington was the prevailing party and therefore
entitled to recover its attorney fees and costs. The State

37a
Appendix A
brought suit because it believed that Living Essentials had
violated the CPA, which the trial court ultimately agreed
it had. That the State originally alleged more violations
of the CPA than were ultimately found at trial does not
change the fact that the State was successful in proving
that Living Essentials had violated the CPA. As such, the
State succeeded on a significant issue in this case: whether
Living Essentials had violated the CPA. Therefore, the
State was the prevailing party below.
Further, awarding the State its attorney fees and
costs is consistent with the underlying purpose of the CPA.
This award will help to encourage the attorney general’s
active role in CPA enforcement actions, which in turn
will help to protect the public from untrue and deceptive
advertisements.
Lastly, the trial court did not err in calculating the
amount of fees awardable in this case. The trial court
awarded the State $1,886,866.71 in attorney fees and
$209,125.92 in costs. The trial court found that the State
had reasonably incurred such a substantial amount of
attorney fees and costs based on the “lengthy and complex
nature of the litigation.” Further, the court reduced the
original amount of fees and costs that the State had
requested in order to “reflect time spent on unsuccessful
motions or other duplicative time.” Accordingly, the court
found that there was “no basis to reduce the request” any
further.
While Living Essentials argues that the court
should have further reduced the award because the

38a
Appendix A
State prevailed only on some of its claims, the trial
court expressly stated that it had already taken that
into account. In fact, the court reduced the fee award by
more than $40,000 “to reflect time spent on unsuccessful
motions or other duplicative time.” The trial court’s finding
that there is no basis to reduce the award any further was
not an abuse of its discretion.
Fees on Appeal
Both parties have requested their fees on appeal, and
RCW 19.86.080(1) allows this court to award fees to the
prevailing party. Because the State is the prevailing party
on appeal, it is entitled to its reasonable attorney fees and
costs on appeal subject to compliance with RAP 18.1.
We affirm.
WE CONCUR:			

/s/­

/s/­

/s/­

		

39a
AppendixOF
B THE SUPREME
Appendix B — ORDER
COURT OF WASHINGTON, FILED
OCTOBER 3, 2019
THE SUPREME COURT OF WASHINGTON
No. 97324-5
ORDER
Court of Appeals
No. 76463-2-I
STATE OF WASHINGTON,
Respondent,
v.
LIVING ESSENTIALS, LLC, et al.,
Petitioners.
Filed
October 3, 2019
Department II of the Court, composed of Chief Justice
Fairhurst and Justices Madsen, Stephens, González and Yu,
considered at its October 2, 2019, Motion Calendar whether
review should be granted pursuant to RAP 13.4(b) and
unanimously agreed that the following order be entered.

40a
Appendix B
IT IS ORDERED:
That the petition for review is denied and the
Respondent’s request for attorney fees for filing an answer
to the petition for review is granted. The Respondent is
awarded reasonable attorney fees and expenses pursuant to
RAP 18.1(j). The amount of the attorney fees and expenses
will be determined by the Supreme Court Clerk pursuant
to RAP 18.1. Pursuant to RAP 18.1(d), the Respondent
should file an affidavit with the Clerk of the Washington
State Supreme Court.
DATED at Olympia, Washington, this 3rd day of
October, 2019.
For the Court
/s/				
CHIEF JUSTICE

41a
Appendix
C
APPENDIX C — ORDER
ON MOTION
FOR CIVIL
PENALTIES, RESTITUTION, INJUNCTIVE
RELIEF, AND ATTORNEY FEES AND COSTS IN
THE STATE OF WASHINGTON, KINGS COUNTY
SUPERIOR COURT, FILED FEBRUARY 7, 2017
STATE OF WASHINGTON
KING COUNTY SUPERIOR COURT
NO. 14-2-19684-9 SEA
STATE OF WASHINGTON,
Plaintiff,
v.
LIVING ESSENTIALS, LLC, a Michigan limited
liability company, and INNOVATION VENTURES,
LLC, a Michigan limited liability company,
Defendants.
ORDER ON MOTION FOR CIVIL PENALTIES,
RESTITUTION, INJUNCTIVE RELIEF, AND
ATTORNEY FEES AND COSTS
This matter came before Judge Beth M. Andrus on
Plaintiff State of Washington’s motion for the imposition
of civil penalties, to award restitution, to impose an
injunction, and to award attorney fees and costs. The
Court has reviewed the materials submitted by the parties
and rules as follows:

42a
Appendix C
A. Civil Penalties
As reflected in the Court’s Findings of Fact and
Conclusions of Law dated December 2, 2016, Defendants
violated the Consumer Protection Act, Chapter 19.86
RCW. The CPA declares that “unfair or deceptive acts or
practices in the conduct of any trade or commerce are…
unlawful.” RCW 19.86.020. The statute mandates that the
Act be “liberally construed that its beneficial purposes
may be served.” RCW 19.86.920. Washington courts
recognize two basic tenets of trade law in affecting this
purpose. First, no one should be permitted to profit from
unfair and deceptive conduct. See State v. Ralph Williams
N.W. Chrysler Plymouth, Inc., 82 Wn. 2d 265, 510 P. 2d
233 (1973) (Ralph Williams I). Second, fair dealing must
be encouraged at all stages of commerce. An award of
civil penalties, injunctive relief, and attorneys’ fees and
costs is authorized by the Consumer Protection Act to
effectuate its purpose.
The CPA provides that “[e]very person who violates
RCW 19.86.020 shall forfeit and pay a civil penalty of not
more than two thousand dollars for each violation.” RCW
19.86.140. Under RCW 19.86.140, imposition of a statutory
penalty is mandatory, but the amount of the penalty is
within the Court’s discretion. See State v. Ralph Williams’
N.W. Chrysler Plymouth, Inc., 87 Wn.2d 298, 314, 553 P.2d
423 (1976) (Ralph Williams II). Consumer reliance on a
defendant’s deceptive representations is not necessary
for the imposition of civil penalties. Ralph Williams II,
87 Wn.2d at 317.

43a
Appendix C
The parties disagree as to how the Court should
count Defendants’ CPA violations and how the Court
should determine the appropriate amount of per-violation
penalty.
This Court concludes that the most appropriate
method of determining the total number of violations
for the deceptive advertisements is to determine the
number of times the deceptive advertisements were aired
in Washington. See Ralph Williams II, 87 Wn.2d at 317
(rejecting argument that penalties should be limited to
one violation per consumer, and instead multiplying causes
of action by the number of consumers affected by each);
U.S. v. J.B. Williams, 354 F. Supp. 521, 547-48 (S.D.N.Y.
1973) (holding that each airing of television advertisement
was held to be a separate violation), aff’d in part rev’d in
part on other grounds, U.S. v. J.B. Williams, 498 F.2d
414 (2d Cir. 1974).
This Court also concludes that the most appropriate
method of determining the total number of violations for
the sales of the Decaf 5-Hour ENERGY® is to determine
the number of times the product was sold using the
deceptive packaging.
The Court finds Defendants’ deceptive “Construction
Site Cowboy” advertisement (Ex. 383) aired in Washington
975 times after July 16, 2012. The Court finds Defendants’
deceptive “Choose Wisely” advertisement (Ex. 384) aired
in Washington 1,040 times after July 16, 2012. A perviolation penalty for these airings is appropriate.

44a
Appendix C
In 2012, Defendants aired the deceptive “Ask Your
Doctor” ad, which ran on national television for ten weeks.
Ex. 649, 650. Defendants aired these advertisements on
national television, including in Washington, 19,716 times
after July 16, 2012. A per-violation for each of these airings
is appropriate.
The Court did not find the Coffee & Vitamins ad to be
deceptive. No civil penalty is appropriate for the airing
of this ad.
This Court previously found that Defendants’ claim
that Decaf 5-Hour ENERGY® will generate energy and
alertness that “lasts for hours” was deceptive. The State’s
CPA claim was based on the following exhibits: a press
release at product launch (Ex. 722), a press kit developed
by an ad agency (Ex. 105), Defendants’ web site (Exs. 661,
1283, and 2118), and the packaging on the decaf product
bottle (Ex. 101). The press release, dated 2008, falls
outside the limitations period and the Court finds that
no civil penalty is appropriate for any dissemination of
the press release that may have occurred in Washington.
Ex. 105, the press kit, does contain a statement that
Decaf 5-Hour ENERGY® “provides a sustained energy
boost” that falls within the Court’s finding of deceptive
statements but the Court finds no evidence that this
material was ever distributed in Washington. It thus
declines to impose civil penalties for Ex. 105. None of
the web site screen shots contain the statement the
Court found deceptive. The only advertising the Court
finds to have been deceptive in the limitations period is
the statement on the Decaf packaging, Ex. 101, that the

45a
Appendix C
energy derived from consuming Decaf 5-Hour ENERGY®
“lasts for hours.” This phrase appeared on every bottle of
decaf product Defendants sold in Washington.
Between August 2012 and July 2014, Defendants
sold $20,159,987 of 5-Hour ENERGY® products in
Washington. Ex. 259. Of these sales, $10,648 related to
sales of the decaf version of the product. The Court finds
that a reasonable estimated purchase price for each
bottle of 5-hour ENERGY® Decaf was $4.29. Using this
calculation ($10,648 divided by $4.29 = 2,482), Defendants
sold approximately 2,482 bottles of Decaf 5HE in
Washington after July 16, 2012 and July 14, 2014. These
sales represent 2,482 violations of the CPA.
As to the amount of penalty to be imposed, the CPA
does not specify the factors a court must consider in
determining the size of the civil penalty. Civil penalties
should be large enough to deter future violations and to
ensure that defendants do not profit from the deceptive
advertising. U.S. v. Readers’ Digest Ass’n Inc., 662 F. 2d
955, 967 (3d Cir. 1981).
The Court finds the following factors significant:
first, Defendants generated a substantial amount of sales
revenue in Washington in a very short period of time
(over $20 million in sales in just under a two-year period).
Second, the product itself is one people consume, as
opposed to a wearable consumer product, like a bracelet,
that one can take off if deemed by the purchaser to be
ineffective. Once a consumer drinks 5-Hour ENERGY®,
there is no way to reverse the impact such a product

46a
Appendix C
may have on the consumer’s body (except by letting the
body digest it). This Court finds that deceptive ads on
consumable products present more of a risk to the public
than deceptive ads for non-consumable products. This
factor weighs in favor of a higher, rather than lower, CPA
civil penalty.
Finally, the Court finds that Defendants spent more
time trying to justify the science behind their ads afterthe-fact than they did before marketing the products
in Washington. The Court was struck by the fact that
Defendants presented no testimony from a single scientist
actually involved in developing the contents of this
product. There was no evidence as to how the products’
formulas came about or why the manufacturer chose
these particular combinations of vitamins, nutrients, and
caffeine. There was scant evidence as to what science
anyone at Living Essentials had ever seen or relied
on before it began to sell this product. Marketers and
lawyers seemed to be driving the Defendants’ advertising
decisions, and most of the science presented at trial was
compiled by experts retained for this litigation, rather
than information gathered by the Defendants while
investigating the effectiveness of their own products.
For these reasons, the Court concludes that imposing
civil penalties of $100 per violation for each airing of the
Ask Your Doctor ads, the Construction Site Cowboy
ad, and the Choose Wisely ad is appropriate to deter
Defendants from engaging in future deceptive conduct and
to ensure that Defendants obtain competent and reliable
scientific evidence to support claims they choose to make

47a
Appendix C
in their ads before they air them.
As for the decaf packaging, the Court concludes that
a civil penalty of $4.29 for each bottle sold is appropriate.
Civil penalties will be assessed as follows:
Advertisement

Post-July 16,
2012 Conduct
Ask Your Doctor 19,716
(Exs. 649, 650)
airings
Construction
975 airings
Site Cowboy
(Ex. 383)
Choose Wisely
1,040 airings
(Ex. 384)
Decaf packaging 2,482 bottles
sold
Total:

Per Violation Total
Amount
$100
$1,971,600
$100

$97,500

$100

$104,000

$4.29

$10,647
$2,183,747

B. Injunctive Relief
RCW 19.86.080 authorizes the Court to enter
injunctive relief to prevent Defendants from engaging in
the deceptive practices that this Court found violated the
CPA. Under the CPA, courts may impose both injunctions
and civil penalties, but the two remedies are distinct and
may serve the different policy goals.
Defendants argue that the Court should not impose
any injunction because the likelihood of violating the

48a
Appendix C
CPA is minimal. This Court, however, disagrees. First,
Defendants argued in this case that their ads were merely
subjective, making no claims as to how the drink would
affect consumers physiologically, and were thus not
subject to any scrutiny under the CPA. Although some of
Defendants’ ads fit into this category, the majority of them
did not. The Court previously found that if Defendants
promote their product’s ingredients as changing the
way the body functions, such a claim is objective for
which scientific substantiation must exist. This Court
concludes that it is appropriate to enjoin Defendants
from making any representation about the biochemical
or physiological effect of their products on consumers
unless Defendants possess and relies upon competent
and reliable scientific evidence at the time the claims,
statements’ or representations are made. The Court also
concludes it is appropriate to enjoin Defendants from
representing that the ingredients in 5-Hour ENERGY®
products work synergistically with caffeine or other
ingredients to enhance the duration or efficacy of the
products unless Defendants have competent and reliable
scientific evidence to support such a claim. Finally, the
Court concludes it is appropriate to enjoin Defendants
from using or disseminating any advertising or marketing
materials for their products that rely upon the use of
survey data, unless the survey is created, conducted, and
evaluated in an objective manner by persons qualified to
do so, using procedures and methods generally accepted
in the profession to yield accurate and reliable results,
and to enjoin Defendants from expressly or impliedly
representing the survey data results in such a manner
that the net impression is deceptive.

49a
Appendix C
C. Restitution
Because the amount of revenue derived from the sales
of Decaf 5-Hour ENERGY® is so small, the Court declines
to require Defendants to pay restitution to consumers who
purchased 5-hour ENERGY® Decaf product in Washington.
The identity of such purchasers is unknown and the amount
of each restitution award would be so small that the cost of
setting up and administering a restitution fund would dwarf
any benefit consumers would receive from restitution.
D. Attorney Fees and Costs
The State is the prevailing party in this lawsuit. As
the prevailing party, the State is entitled to an award
of reasonable attorney’s fees and costs in pursuing this
matter against Defendants. RCW 19.86.080(1). Awarding
the State its fees and costs will “encourage an active role
in the enforcement of the consumer protection act[,] places
the substantial costs of these proceedings on the violators
of the act, and [will] not drain [the State’s] public funds.”
Ralph Williams II, 87 Wn.2d at 314-15.
The State reasonably incurred $1,886,866.71 in
attorney fees and $209,125.92 in costs prevailing on three
of five of its CPA claims. These figures are reasonable
and they discount duplicative time, clerical work, and
time spent on unnecessary and unsuccessful tasks and
motions such as the time spent on the State’s Motion for
Summary Judgment, which was denied by the Court. The
hourly rates charged by the attorneys and paralegals are
reasonable given their experience and the current market
rates.

50a
Appendix C
The State’s substantial legal fees are due to the
lengthy and complex nature of the litigation. The State
began investigating Defendants’ deceptive marketing in
January 2013. The State incurred significant expenses
in dealing with extensive discovery, numerous pretrial
motions, and a lengthy trial. The State initially requested
an award of $1,927,808.81 but agreed to reduce that
request by the sum of $40,942.10 to reflect time spent
on unsuccessful motions or other duplicative time. The
Court finds no basis to reduce the request beyond this
amount and overrules Defendants’ other objections to
the requested fees and costs. The State is entitled to an
award of attorney fees of $1,886,866.71 and an award of
costs of $209,125.92.
The Court will enter a final judgment consistent with
this order.
DATED THIS 7th day of February, 2017.
JUDGE BETH ANDRUS
King County Superior Court Judge

51a
Appendix D
APPENDIX D — MEMORANDUM
DECISION OF
THE STATE OF WASHINGTON, KING COUNTY
SUPERIOR COURT, DATED OCTOBER 7, 2016
STATE OF WASHINGTON
KING COUNTY SUPERIOR COURT
NO. 14-2-19684-9 SEA
STATE OF WASHINGTON,
Plaintiff,
v.
LIVING ESSENTIALS, LLC, a Michigan limited
liability company, and INNOVATION VENTURES,
LLC, a Michigan limited liability company,
Defendants.
The Honorable Beth M. Andrus
Trial Date: August 22, 2016
COURT’S MEMORANDUM DECISION
[Tables intentionally omitted]

52a
Appendix D
MEMORANDUM DECISION
A. INTRODUCTION
Plaintiff State of Washington (“the State”) filed this
lawsuit against Defendants Living Essentials, LLC and
Innovation Ventures, LLC (referred to jointly as “Living
Essentials”), seeking injunctive and declaratory relief
under the Consumer Protection Act (“CPA”), RCW ch.
19.86 for alleged deceptive or unfair promotional claims
about its 5-hour ENERGY® products.
The Court tried the case from August 22, 2016 to
September 8, 2016. The State appeared through counsel,
Kimberlee Gunning and Daniel Davies, Assistant
Attorneys General, and Elizabeth Erwin and Trisha
McArdle, Senior Counsel. Living Essentials appeared
through its attorneys, Joel Mullin, Reilley Keating,
Timothy Snider, Jill Bowman, Taryn Williams, and
Samantha Sondag, from the law firm of Stoel Rives.
The Court heard testimony from Anthony Pratkanis,
PhD, Troy Giezentanner, Edward R. Blonz, PhD, Daniel
To, Thomas McLellan, PhD, Chad W. Crummer, Carl
Sperber, David Kennedy, PhD, Jay Sickler, CPA, Sanford
W. Bigelow, PhD, and J. Howard Beales III, PhD. The
Court additionally reviewed portions of transcripts and
videos portions of the depositions of Carl Sperber, Joseph
P. Hennessy, James M. Blum, PhD, Jay Sanjay Udani,
MD, Michael Glade, PhD, Marilyn Barrett, PhD, Lynn
Petersmarck, Thomas Maronick, and Keith Wesnes, PhD.
The Court admitted approximately 500 exhibits.

53a
Appendix D
B. ISSUES
1.

Did Living Essentials violate the CPA by making
deceptive and/or unfair representations in
marketing and promotional materials that the
non-caffeine ingredients in its Original, Extra
Strength and Decaf 5-Hour ENERGY® provide
energy, alertness and focus (the Vitamins Claim)?

2.

Did Living Essentials violate the CPA by making
deceptive and/or unfair representations in
marketing and promotional materials that the
effects of Original and Extra Strength 5-Hour
ENERGY® are superior to consuming the
equivalent amount of coffee and other sources of
caffeine (the Superior to Coffee Claim)?

3.

Did Living Essentials violate the CPA by making
deceptive and/or unfair representations in
marketing and promotional materials that Decaf
5-Hour ENERGY® provides energy, alertness
and focus (the Decaf Claim)?

4.

Did Living Essentials violate the CPA by
making deceptive and/or unfair representations
in marketing and promotional materials that
consumers will not experience a “crash” after
drinking 5-Hour ENERGY® (the Crash Claim)?

5.

Did Living Essentials violate the CPA by making
deceptive and/or unfair representations in its
“Ask Your Doctor” advertising campaign by

54a
Appendix D
implying that doctors recommended the use of
5-Hour ENERGY® (the Ask Your Doctor Claim)?
C. SUMMARY OF DECISION
1.

The State failed to prove that Living Essentials
violated the Consumer Protection Act when it
aired or published ads that indicated that the
non-caffeine ingredients in 5-Hour ENERGY®
promote energy, alertness and focus.

2.

Living Essentials violated the Consumer
Protection Act when it aired or published ads that
represented that the energy, alertness and focus
from 5-Hour ENERGY® lasts longer than a cup
of coffee because of the synergistic or interactive
effects of caffeine, B vitamins and nutrients in
the product.

3.

Living Essentials violated the Consumer
Protection Act when claimed in a press release
and on its web site that Decaf 5-Hour ENERGY®
will provide energy, alertness and focus that lasts
for hours.

4.

The State failed to prove that Living Essentials
violated the Consumer Protection Act when it
aired or published its “no crash” ads.

5.

Living Essentials violated the Consumer
Protection Act when it aired the Ask Your Doctor
ads.

55a
Appendix D
D. FINDINGS OF FACT
1.

Procedural History

This case arose out of a 2012 multi-state consumer
protection investigation of Living Essentials’ advertising
and marketing practices. On July 17, 2014, the State filed
this CPA enforcement action pursuant to its enforcement
authority under RCW 19.86.020; RCW 19.86.110; and
RCW 19.86.080. (Dkt. #1).1 On July 23, 2015, the State
filed a Second Amended Complaint for Injunctive and
Other Relief removing the dismissed claim but pursuing
the five claims outlined above. (Ex. 662). Living Essentials
answered the Second Amended Complaint on July 31,
2015, denying any CPA violations. (Ex. 663).
2.

Living Essentials’ Dietar y Supplement
Products

Living Essentials is a privately-held limited liability
company organized under the laws of the State of Michigan,
with its principal place of business in Farmington Hills,
Michigan. Living Essentials manufactures, markets, and
sells a liquid dietary supplement, 5-Hour ENERGY®
nationwide, including in Washington. It introduced
Original 5-Hour ENERGY® in 2004, and added an Extra
Strength and Decaf variety in 2007.
The 5-Hour ENERGY® products, sold in 2 ounce
bottles, contain the following ingredients:
1. The State’s original complaint included a sixth claim for
relief, which the Court dismissed pretrial. (Dkt. #23).

56a
Appendix D
Ingredient

B-3 (Niacin)
B-6
Folic Acid
B-12
Sodium
Taurine
Glucuronolactone
Malic acid
N-AcetylL-tyrosine
L-Phenylalanine
Caffeine
Citicoline
Choline
Bitartrate

5-Hour
5-Hour
5-Hour
ENERGY® ENERGY® ENERGY®
Original
Extra
Decaf
Strength
30 mg

40 mg

--

40 mg
400 mcg
500 mcg
18 mg
467 mg
411 mg

40 mg
400 mcg
500 mcg
18 mg
529 mg
379 mg

40 mg
400 mcg
500 mcg
18 mg
483 mg
346 mg

273 mg
271 mg

320 mg
260 mg

292 mg
237 mg

229 mg

260 mg

237 mg

200 mg
19 mg
--

230 mg
22 mg
--

6 mg
-408 mg

5 -Hour ENERGY® is marketed as a “dietary
supplement.” Under the Dietary Supplement Health and
Education Act of 1994 (“DSHEA”), a dietary supplement
is a product intended to be ingested to supplement the diet
and contains one of several statutorily defined ingredients:
a vitamin, a mineral, an herb or botanical, or an amino

57a
Appendix D
acid. 21 U.S.C. §321(ff).
3.

The Nutritional Science

The Court heard extensive scientific evidence
regarding the ingredients in 5-Hour ENERGY® and
their effects on or function within the human body. The
following is a summary of the evidence.
a.

B Vitamins in General

Living Essential print ads state:
Vitamins B6, B12, and B3 (Niacin): Play
a key role in the production of amino acids,
the building blocks of protein and aid[] in the
processing of carbohydrates for energy. (Ex.
653).
The State does not dispute this description of the role B
vitamins play in human bodies.
The State’s nutritional expert, Dr. Edward Blonz,
and Living Essential’s expert, Dr. David Kennedy, agree
that B vitamins are essential to metabolism (cellular
generation of physiological energy) within the human
body. B vitamins prevent the creation of destructive
compounds (known as “free radicals”) in the body and
contribute to the synthesis of important molecules in the
body that drive cerebral blood flow to the brain. Humans
need B vitamins to turn amino acids such as L-tyrosine
into neurotransmitters used in cognitive functioning.

58a
Appendix D
Fatigue is a classic symptom of a B vitamin deficiency. Drs.
Blonz and Kennedy agree that there is consensus within
the scientific community that the intake of B vitamins from
one’s diet can reduce tiredness and fatigue.
(i) Niacin (B3)
Niacin, or vitamin B3, is an essential nutrient that plays
a role in producing co-enzymes involved in energy release.
It is quickly absorbed in the stomach and duodenum.
Dr. Blonz testified credibly that healthy, well-nourished
adults, in general, typically obtain the daily recommended
requirement of vitamin B3 from the foods they consume
each day. Dr. Kennedy testified credibly that a niacin
deficiency can cause weakness, mood disorders, cognitive
problems, personality irritability, and, in extreme cases,
psychosis.
5-Hour ENERGY® Original’s 30 milligrams of niacin
is 150 percent of the minimum amount humans need
to consume on a daily basis for healthy physiological
functioning. The 40 mg in the Extra Strength formula is
20 times the daily required amount. There is no niacin in
the 5-Hour ENERGY® Decaf.
(ii) Vitamin B6
Vitamin B6, like niacin, is involved in energy release
and protein synthesis. The vitamin contributes to the
reduction of tiredness and fatigue. Deficiency levels of
vitamin B6 are in the range of 10.5 percent of the U.S.
adult population. According to Dr. Kennedy, a deficiency

59a
Appendix D
of B 6 can cause mood disorders, cognitive problems,
personality irritability, and in extreme cases, seizures
and convulsions.
(iii) Folic Acid (Vitamin B9)
Folic acid, also known as folate, is a B vitamin essential
for the body to metabolize amino acids and to create
tissue within the body. Folate, which is found in leafy
green vegetables, fruits, dried beans, and peas (Ex. 653),
is important for healthy cardiovascular function (blood
flow) and can contribute to the reduction of fatigue and
tiredness. If ingested with food, it is absorbed by the body
in three to four hours. If ingested on an empty stomach,
it can be absorbed by the body within an hour. There is
some scientific support that a single dose of this vitamin
can improve blood flow. 5-Hour ENERGY®’s 400 mg of
folic acid constitutes 100 percent of the recommended daily
value of B9 needed to maintain one’s health.
(iv) Vitamin B12
Vitamin B12 is another essential nutrient that works
with folic acid in a number of biosynthetic processes. This
vitamin, which is found in meat or animal products, such as
eggs, contributes to normal energy metabolism and to the
reduction of tiredness and fatigue. 5-Hour ENERGY® has
83 times the daily amount of B12 needed in healthy adults.
At trial, Dr. Kennedy agreed with Dr. McLellan
that there is no experimental evidence showing that the
addition of B vitamins to a caffeinated energy drink will

60a
Appendix D
cause greater improvement in physical and cognitive
performance than can be attributed to the effects of
caffeine alone.
b.

Amino Acids
(i) Taurine

Taurine is a micronutrient involved in several cellular
and physiological functions. Although humans require
several hundred milligrams per day of the micronutrient,
it is created by the body and people get the rest of the
taurine they need from their diet. Taurine can effect
endothelial function (blood flow) and can have an effect
on one’s cognitive function and mood. The experts at
trial agreed that there is inconsistent or limited quality
experimental evidence indicating that the addition of
taurine to a caffeinated energy drink will cause greater
improvement in physical and cognitive performance than
can be attributed to the effects of caffeine alone.
(ii) Glucuronolactone
Glucuronolactone is a naturally occurring byproduct
of metabolism of glucose in the liver. The experts at trial
agreed that there is no experimental evidence showing
that the addition of glucuronolactone to an energy drink
will cause greater improvement in physical and cognitive
performance than can be attributed to the effects of
caffeine alone.

61a
Appendix D
(iii) Malic acid
Ex. 653, one of Living Essentials’ print ads, described
malic acid as follows: “the body synthesizes Malic Acid
during the process of converting carbohydrates to energy.
The main food source of Malic Acid is fruits.” There
was no other evidence presented by either party at trial
regarding this ingredient.
(iv) N-Acetyl-L-tyrosine and
L-Phenylalanine
L-Phenylalanine is an essential nutrient derived from
a person’s diet. It generates the non- essential nutrient
L-tyrosine that in turn is converted into neurotransmitters
in the brain. L- tryrosine supplementation can contribute
to the creation of neurotransmitters depleted by stress.
There have been some studies that indicate that low
doses of L-tryosine can improve cognitive functioning.
According to Living Essentials’ print ads, “tyrosine” is
an amino acid that transmits nerve impulses to the brain
and is found in meat, dairy, fish, and grains. Ex. 653.
c.

Caffeine

Caffeine is a chemical compound, found in coffee and
tea plants. It acts as a stimulant to the central nervous
system. When it is absorbed by the body, it binds to
adenosine receptors. These receptors are situated
throughout the body in both the tissue and central
nervous system in the brain. As a person requires energy,
that person’s body will produce adenosine. In the brain,
adenosine inhibits the release of neurotransmitters,

62a
Appendix D
such as dopamine, adrenaline, serotonin and glutamate.
Caffeine antagonizes the effect of adenosine, meaning it
causes an increase in the release of neurotransmitters.
Caffeine has been demonstrated to impact cognition
and physical performance in humans. The testifying
experts agreed, however, that there is little evidence that
caffeine improves episodic or long-term memory. Caffeine
has a half-life of 3 to 10 hours, meaning the effects of
caffeine last for several hours.
d.

Citicholine and Choline Bitartrate

Choline is an essential nutrient that works with
vitamin B12 and folate to contribute to the synthesis of the
neurotransmitter, acetylcholine. Citicholine, the nutrient
in Original and Extra Strength 5-Hour ENERGY®, is a
chemical compound of choline and cytidine. According
to Living Essential ads, citicholine is “a water-soluble
compound essential for the synthesis of phosphatidyl
choline, a constituent of brain tissue. Citicholine plays
a role in neurotransmission and can help support brain
tissue.” (Ex. 653). Citicholine has been shown to improve
memory in elderly participants with cognitive decline.
Choline bitartrate is a chemical compound of tartaric
acid and choline. Large doses of choline bitartrate (2
grams) have been shown to improve performance on
visuomotor tasks but slow reaction times. Because
a fraction of choline bitartrate is choline, Dr. Blonz
estimated that Decaf 5-Hour ENERGY® contains 167
mg of choline.

63a
Appendix D
The Food and Nutrition Board of the Institute of
Medicine recommends that male adults consume 550 mg
and female adults consume 425 mg of choline per day.
4.

Living Essentials’ Ad Claims

In 2004, Living Essentials first began to manufacture
and sell the 2 ounce non-carbonated 5-Hour ENERGY®
“shot.” The competition at the time included Red Bull,
Monster, AMP, Full Throttle, and Rock Star, and they
were all sweet, carbonated energy drinks that were
marketed towards teens. Living Essentials decided to
market its product to working adults, rather than teens,
and to focus on the health aspects of the product.
Living Essentials began running advertisements in
2005 and television ads in 2006. It has continued to air
ads on television and cable channels across the country,
including in the State of Washington to the present.
Initially, the company sought to educate consumers
about the benefits of its product over the competition:
the small 2 ounce bottle made 5-Hour ENERGY® much
more convenient than large soda-can sized drinks, and
the product contained no sugar and only 4 calories. The
company’s initial ads focused on these educational themes.
a.

The Vitamins Claims

Living Essentials has aired and published several
ads that make claims regarding the role the non-caffeine
ingredients play in 5-Hour ENERGY®. Living Essentials
has never denied that its product contains caffeine but
it has expressly stated that 5-Hour ENERGY®’s non-

64a
Appendix D
caffeine ingredients are the product’s “key” ingredients in
the creation of energy, alertness, and focus. The company
has chosen to promote 5-Hour ENERGY®’s B vitamins
and nutrients as the reason the product is so effective.
Carl Sperber, the company’s director of advertising,
developed the tag lines “B Vitamins for Energy; Amino
Acids Focus & Better Mood,” that appeared in early Living
Essentials’ television ads (Ex. 2005) for this purpose:

See also Ex. 2129 (Living Essentials’ print ad claimed
that 5-Hour ENERGY® “contains a powerful blend of
B-vitamins formulated for energy and alertness.”) In the
print ad (Ex. 653), entitled “The Ten Reasons to Trust
5Hour Energy,” Living Essentials provided a detailed
description of its “key ingredients” and described why
they were beneficial:

65a
Appendix D

In Ex. 382, the Lots of Reasons ad, the narrator
describes 5-Hour ENERGY®’s “key ingredients” or the
“beneficial ingredients” as those that “are found in every
day food like avocados, broccoli and bananas, or already in
you.” The animation depicts an avocado, a floret of broccoli
and a banana emerging from the 5-Hour ENERGY®
bottle. (Similar statements about the product’s key
ingredients are made in Ex. 648, the Diner ad, and in
the print ad, Ten Reasons to Trust 5 Hour Energy, Ex.

66a
Appendix D
653). Ex. 630 and 633, the Coffee and Vitamins ads from
March 2013, use the same animation and script as Ex.
382, but when the avocado emerges from the bottle, the
words “B9” and “B6 ” appear:

When the broccoli emerges, the word “niacin” appears;;
when the banana emerges, the word “tyrosine” appears:

67a
Appendix D

The end tag line is “It’s like coffee with vitamins and
nutrients. Put them together and it’s a great combination.”
Living Essentials’ ads expressly represent that the
vitamins and nutrients in 5-Hour ENERGY® play a role
in providing energy, alertness and focus.
b.

The Superior to Coffee Claims

Living Essentials’ ads also expressly claim that
the key vitamins and nutrients work synergistically
with caffeine to make the biochemical or physiological
effects last longer than caffeine alone. The claims are
well summarized in a 2012 press release from Living
Essentials (Ex. 113):

68a
Appendix D

Ex. 635, the “Is It Safe?” ad from April 2013, shows a
cup of coffee and a bottle of vitamins. The narrator says
“It’s simple. Caffeine with vitamins and nutrients. It’s the
combination that makes it so great.” The print ad, Ex.
640, carries on with this theme: “It delivers a powerful
blend of B-vitamins (B6, B12, Niacin and Folic Acid),
amino acids and caffeine comparable to a cup of the leading
premium coffee. These and other ingredients work in
concert to provide a feeling of alertness and energy that
lasts for hours.*” 2 In the Construction Cowboy ad from
May 2012 (Ex. 384), Living Essentials claimed that 5-Hour
ENERGY® is “packed with B vitamins and nutrients” to
make it last longer than 3 or 4 cups of coffee. The “How
Much Coffee” radio ad, Ex. 723, and the “Cup after Cup
radio” ad, Ex. 724, made the same claims.
The State argues that Living Essentials downplayed
or minimized the effects of caffeine in 5- Hour ENERGY®.
This Court does not so find. Living Essentials never misled
consumers into believing that the product contained no
caffeine. In fact, its web site (Ex. 2116) promoted the
benefits of caffeine:
2. This print ad contains a disclaimer at the bottom in small
print: “Does not provide caloric energy. Not proven to improve
physical performance, dexterity, or endurance. *Individual results
may vary.”

69a
Appendix D

But Living Essentials’ ads did make objective claims
that the duration of the recognized physiological benefits
of caffeine would be extended because of the non-caffeine
ingredients in 5-Hour ENERGY®. Living Essentials
conveyed that its formula of B-Vitamins and amino acids,
in combination with caffeine, was superior to coffee
because the increase in alertness, fatigue reduction, and
improved mental functioning lasts longer than caffeine
alone.

70a
Appendix D
c.

The Decaf Claims

Living Essentials began to sell a decaffeinated version
of 5-Hour ENERGY® in 2008 to appeal to tired, but
caffeine-sensitive people. The decaf formula has no niacin
and 6 mg of caffeine. The only other difference is the
addition of choline bitartrate in lieu of citicoline, although
it is not clear why this particular change was made.
Living Essentials has never advertised Decaf 5-hour
ENERGY® on television or on the radio. The extent of
the marketing materials presented at trial were a press
release when the product launched (Ex. 722), a press kit
developed by an ad agency for Living Essentials (Ex. 105),
screen shots of Living Essentials’ website (Ex. 661, 1283,
2118), and the packaging on the Decaf 5-Hour ENERGY®
bottle (Ex. 101). In the press release, Sperber stated that
the decaf product provides “a sustained energy boost” for
people sensitive to caffeine. Living Essentials claimed on
its web site that the Decaf 5-Hour ENERGY® “gently”
works to provide alertness, which it attributes to the
presence of choline in the product:

71a
Appendix D
The claims in the press release and on the web site
are not just claims of subjective “feelings.” By linking the
physiological benefits of choline with the Decaf product,
Living Essentials is implying an objective benefit from
drinking Decaf 5-Hour ENERGY®: alertness and
sustained energy.
Decaf 5-hour ENERGY® has not been a big seller for
Living Essentials, accounting for less than 1% of company
sales.
d.

The Crash Claims

Sperber testified that he first heard the word “crash”
linked to the consumption of sugared, caffeinated energy
drinks in a movie starring John Carrey, who in one scene
drank multiple cans of an energy drink and in the next
scene was seen crashed out on the floor, asleep. Sperber
understood that consumers complained that when the
sugar and caffeine in energy drinks wore off, they would
experience a sudden drop in energy and feel even more
tired than before they drank the product. To differentiate
5-Hour ENERGY® from competing energy drinks, he
developed an ad campaign revolving around the crash
theme:

72a
Appendix D

In the earliest ads, Living Essentials attributed the
“crash” effect to the combination of sugar and caffeine:

Because 5-Hour ENERGY® contains no sugar, Living
Essentials believed consumers would not experience a

73a
Appendix D
“crash” relating to a drop in glucose levels after consuming
the 5-hour ENERGY® products. Living Essentials began
to print the “No Crash Later” tag line on the bottle itself.
In 2007, the National Advertising Division (“NAD”) of
the Better Business Bureau reviewed Living Essentials’
promotional claims regarding 5 -hour ENERGY®,
including the “no crash later” claim. In response to the
NAD investigation, Living Essentials indicated that
by “crash,” it meant “no sugar crash” because 5-Hour
ENERGY® has no sugar. The NAD recommended that
Living Essentials modify the “no crash” representation to
make it clear that the ads meant that 5-Hour ENERGY®
would not produce a “sugar crash.” Living Essentials
modified its advertisements to qualify the “no crash”
language by including an asterisk directing consumers to
a small print disclaimer saying “No crash means no sugar
crash.” (Ex. 382, 383, 384, 638, 648, 651, 2129).
Several of Living Essentials’ ads continue to claim
that 5-Hour ENERGY® will not cause a “crash.” See Ex.
629 (Parachute Guy says “hours of energy now, no crash
later), Ex. 638 (Parachute Guy 2, same tag line), Ex. 651
(Parachute Guy, same tag line), and Ex. 2005 (Why Crash
ad).
e.

The Ask Your Doctor Claims

Living Essentials created its “Ask Your Doctor”
(“AYD”) ad campaign in July 2012. The AYD advertisements
(Ex. 649,650) aired for approximately 10 weeks from July
17, 2012 through October 1, 2012. Mr. Sperber’s inspiration

74a
Appendix D
for the AYD advertisement came from the Trident sugarfree gum campaign, which said that “[f]our out of five
dentists surveyed would choose a sugar-free gum for
their patients who [chew] gum” and then told consumers
to “[a]sk your dentist about Trident.” Sperber wanted to
replicate this ad and sought to find a way to do so.
To substantiate a claim that doctors would recommend
5 -Hour ENERGY for their patients, the company
undertook two surveys—an online survey and a paper
survey—of primary care physicians. Living Essentials,
through counsel, retained Thomas Maronick, Ph.D., a
professor of marketing at Towson University in Maryland
and the former Director of Impact Evaluation in the
Bureau of Consumer Protection at the FTC to create
the online survey. Dr. Maronick retained a marketing
research and analytical consulting firm (Decision Analyst)
to administer the survey to a panel of primary care
physicians on its Physician Advisory Council. Dr. Maronick
decided on a target of 500 completed questionnaires, which
would be sufficiently large to achieve the desired margin
of error. A total of 503 physicians completed the survey.
The survey did not ask doctors for their general
opinions about energy drinks or whether they would
recommend any energy supplement product for their
patients. Instead, the questions asked if the doctor would
recommend a low calorie, or a low sodium energy drink
for their patients who already consumed such products.
Not surprisingly, the majority of doctors said “Yes.” The
results of the online survey indicated that 73.6% of the
physicians said they would recommend a low-calorie

75a
Appendix D
energy product to their healthy patients who use energy
drinks.
The doctors were also shown a 5-Hour ENERGY®
label and a brief description of the product. They were
then asked if they would recommend 5-Hour ENERGY®
to their healthy patients who use energy drinks. The
survey results indicated that 47.7% of the physicians
would specifically recommend 5-hour ENERGY® to their
healthy patients who use energy supplements. About 25%
of the survey participants responded that they would not
recommend 5-hour ENERGY®.
Living Essentials subsequently hired Joe Hennessy,
Sales Director for MicroDose, to assist with a paper
survey3 based on questions used in the online survey that
Dr. Maronick had designed. Under Hennessy’s direction,
sales staff would make in-person visits to doctors’ offices
across the United States to promote 5-Hour ENERGY®.
His sales team left samples of the product and brochures
describing 5-Hour ENERGY®’s ingredients in these
doctors’ offices. Living Essential, again through their
attorneys at Oakland Law Group, asked Hennessy to
have his sales representatives deliver paper copies of
the Maronick survey (Ex. 627) to doctors they normally
would visit and to ask the doctors to complete the survey.
According to Hennessey, he distributed 100,000 copies
of the survey to his territorial managers who in turn
3. Living Essentials used the phrase “in-person survey” to
describe the second survey. The Court does not find this to be an
accurate description of how Living Essentials conducted the survey.
No doctors were questioned in a face-to-face meeting.

76a
Appendix D
transmitted copies to the sales representatives. Hennessy
was instructed to target 2,500 responses. Dr. Maronick
was not involved in the paper survey process and had
concerns about whether such a method would suffer from
biased responses.
Hennessy received 2,659 paper surveys before
the cutoff date. Approximately 90% of the physicians
responding to the paper survey indicated they would
recommend a low-calorie energy supplement to patients
who use energy supplements, and 74% would specifically
recommend 5- hour ENERGY®.
After receiving the results of the online survey and the
paper survey, Living Essentials created three versions of
the AYD television commercial, two 30-second spots and
one 10-second version. (Exs. 649, 640, and 2098). Sperber
was personally involved in the development of the script
for these ads. He testified that the intent was to convey
to consumers that doctors viewed 5-Hour ENERGY®
as a safe and effective nutritional supplement as a way
of allaying possible health and safety concerns. He
sought to convince consumers that, by and large, doctors
recommended a product like 5-Hour ENERGY®.
The script for the 30-second ad (Ex. 2122) said “We
asked over 3,000 doctors to review 5- Hour ENERGY®.
And what they said was amazing. Over 73 percent who
reviewed 5-hour ENERGY said they would recommend
a low calorie energy supplement to their healthy patients
who use energy supplements. Seventy-three percent.
5-hour ENERGY® has four calories and it’s used over

77a
Appendix D
nine million times a week. Is 5-hour ENERGY® right for
you? Ask your doctor. We already asked 3,000.” Placed
next to the ad spokeswoman was a large stack of papers,
which she flipped through or gestured to while speaking:

The fine print from this screen shot said “Of all primary
care physicians sur veyed, 47% would specifically
recommend 5-Hour ENERGY® for their healthy patients
who use energy supplements.”
The broadcasting networks ABC and NBC refused
to run the AYD ads without some changes to the script.
Consumers also complained to Living Essentials about
the Ask Your Doctor ads and these complaints were a
contributing factor for the company pulling the ads before
the end of the campaign.

78a
Appendix D
5.

Living Essentials’ Claim Substantiation

Before this litigation began, Living Essentials had
commissioned three literature reviews and two scientific
studies concerning the efficacy of 5-hour ENERGY®.
(i) Glade Reports
In 2007, Living Essentials, through Jonathan Emord,
an attorney with Emord & Associates, commissioned
Dr. Michael Glade, a Fellow in the American College of
Nutrition, to conduct a review of the scientific literature
to assess certain Living Essentials promotional claims,
including “B-Vitamins for Energy,” “Amino Acids for
Focus and Better Mood,” and “No Crash Later.” (Ex.
2071). Dr. Glade testified that he found competent and
reliable scientific support for these claims and prepared a
written report which he provided to Emord in July 2007.
Dr. Glade testified that when he reviewed the scientific
literature, he examined the studies to verify that they
were conducted in a scientifically sound manner before
including them in his literature review.
As to the claim that 5-Hour ENERGY® provides
energy that lasts for hours, he concluded that the literature
supported this claim because the concurrent consumption
of taurine, caffeine, and glucuronolactone increases the
conversion of stored triglycerides into energy. As to the
claim that B-vitamins in 5-Hour ENERGY® provide
energy, he concluded that the literature supported this
claim because the daily consumption of niacin, vitamin
B6 , vitamin B12 , and folate supports the use of fatty acids

79a
Appendix D
for metabolic energy production. As to the claim that
the amino acids in 5- Hour ENERGY® provide focus,
Dr. Glade concluded that the literature supported this
claim because the consumption of N-acetyl-L-tyrosine
and L-phenylalanine enhances cognitive functioning.
Regarding the “no crash” claim, Dr. Glade repeated his
summary of the literature on the effects of caffeine but
really does nothing more. . Dr. Glade’s report does not
discuss what is meant by “crash,” or the impact of glucose
or caffeine withdrawal on any sudden decrease in energy
levels. It is unclear how the studies he cites relate in any
way to the “no crash” claim.
At some point, Living Essentials received a copy of the
2007 report because it produced the report to the Attorney
General as substantiation in this lawsuit.
In 2010, Living Essentials commissioned Dr. Glade
to conduct a similar literature review to assess whether
there was competent and reliable scientific evidence to
support claims that Living Essentials’ Decaf 5-hour
ENERGY® provides energy and alertness that lasts for
hours without any crash effect. (Ex. 2079). He was also
asked to substantiate the claim that the drink contained
a “proven blend of B-vitamins, amino acids and essential
nutrients to keep you going strong.” Id. Dr. Glade reviewed
some 217 scientific studies and concluded that there was
science to back each of these claims. With regard to
the contention that the energy provided by the drink
would “last for hours,” Dr. Glade cited studies relating
to taurine, which he concluded demonstrated that daily
dietary supplementation of taurine in 3000 mg or more

80a
Appendix D
increased metabolizable energy that could last for at least
four hours (Decaf 5-Hour ENERGY® contains only 483
mg of taurine). He also cited studies for the proposition
that the daily intake of certain B vitamins supported the
production of energy within 2 hours of consumption and
for 12 to 24 hours after consumption. As to the “no crash
later” claim, Dr. Glade concluded that dietary supplements
that do not contain sugar or caffeine cannot produce a
“sugar crash” or caffeine withdrawal effect.
Again, there is no evidence that any employee of
Living Essentials reviewed Glade’s 2010 literature review,
but Living Essentials provided it to the Attorney General
as substantiation for its decaf claims.
The Court has serious questions about the scientific
reliability of Dr. Glade’s two reports. First, his analysis
was based on a non-quantitative list of ingredients in
5-Hour ENERGY®. He was not given the actual formula,
so Dr. Glade was unable to look at the actual amounts
of vitamins and amino acids contained in the product to
compare to the levels tested in the studies he reviewed.
Second, Dr. Glade’s 2007 literature review did not evaluate
how 5-Hour ENERGY®, or any of its ingredients in
the amounts found in 5-Hour ENERGY® would affect
healthy, well-nourished individuals. Dr. Glade admitted
in his deposition that it was possible that the caffeine, by
itself in 5-Hour ENERGY®, could be causing the energy,
alertness, and focus that consumers felt after drinking
the energy supplement.
Third, Dr. Glade relied on studies that evaluated
the consumption of certain vitamins and nutrients in

81a
Appendix D
sick populations. The scientists who testified at trial
disagreed as to whether these factors undercut Dr. Glade’s
conclusions. There was no analysis in either report as to
why reliance on the studies he cited was appropriate.
Finally, Dr. Glade did not communicate his conclusions
to anyone directly working for Living Essentials. Carl
Sperber, the director of advertising, had never seen either
of Dr. Glade’s reports. Sperber testified that starting in
2007, the company began relying on the Oakland Law
Group to review all of the ads he created to ensure that
they were backed by adequate substantiation. No one from
the Oakland Law Group testified regarding what role,
if any, the 2007 Glade Report played in substantiating
specific ad representations.
(ii) Blum Study
Living Essentials commissioned James Blum, Ph.D.,
an epidemiologist, to conduct a clinical trial to assess the
effects of the 2004 formulation of 5-hour ENERGY® as
compared to two other energy drinks then on the market,
but not to a placebo. Dr. Blum tested subjects’ peak energy,
the duration of energy, and any “crash.” He concluded that
consumers’ self-reported peak energy after drinking
5-Hour ENERGY® occurred at 4.92 hours. The peak
energy duration for the two competing products occurred
at 4.39 and 4.34 hours, which Dr. Blum felt were similar
results. Dr. Blum also asked test subjects whether they
experienced a “crash” after drinking the three energy
drinks. Dr. Blum testified that he considered a “crash”
to be the experience of hitting a “floor or wall” where the
test subjects self-reported feeling physiologically stressed.

82a
Appendix D
Based on this definition of “crash,” he concluded that 24
percent of the people consuming 5-Hour ENERGY®
reported experiencing a “moderately severe” crash.
Eighty percent of the Red Bull and 75 percent of the
Monster group reported experiencing a similar crash. Dr.
Blum did not test the non-caffeine ingredients of 5-Hour
ENERGY® and reached no conclusions as to the efficacy
of these ingredients in the absence of caffeine.
Dr. Blum provided his final report directly to Living
Essentials in May 2007. (Ex. 2153) Living Essentials
retained a copy of Dr. Blum’s report in its files, and that
report constituted part of Living Essentials’ substantiation
for its promotional claims about the 5-hour ENERGY®
products.
(iii) NERAC Report
Also in 2007, Living Essentials, through Jonathan
Emord of Emord & Associates, commissioned NERAC,
Inc., a global research and advisory firm, to conduct
a review of the scientific literature to assess certain
promotional claims including “No Crash Later,”
“B-Vitamins for Energy,” “Amino Acids for Focus and
Better Mood,” and “Reduction in Fatigue.” (Ex. 2070)
NERAC’s team of biochemists, food scientists, and
nutritionists sought to find at least one ingredient in
5-Hour ENERGY® that supported each of the company’s
claims. They looked at the research into B vitamins, the
amino acids, and caffeine.
NERAC’s conclusions differed from those of Dr.
Glade. For example, NERAC concluded that there

83a
Appendix D
was no support in the literature for claiming that
glucuronolactone improved memory, supplied energy,
or affected fatigue. Although NERAC identified one
study that indicated that a high dose of glucuronolactone
delayed the onset of fatigue, the dose was 34 times the
amount of glucuronolactone in 5-Hour ENERGY®.
Because NERAC found no study varying the dosage
level of this ingredient, it concluded that one could not
say that the glucuronolactone in 5-Hour ENERGY® had
a measurable effect on energy or fatigue. With regard to
the “B Vitamins for Energy” claim, NERAC concluded
that 5-Hour ENERGY® included B vitamins at doses
high enough to “promote mental health and support good
physical condition and provide energy.” With regard to the
“Amino Acids for Focus” claim, NERAC concluded that
5-Hour ENERGY® included certain amino acids, namely
phenylalanine and tyrosine, had been shown to improve
mood and attention, and thus supported the claim.
NERAC’s discussion of the “no crash later” claim was
quite abbreviated. It stated that the “crash” phenomenon
was related to sudden shifts in blood sugar levels and
because 5-Hour ENERGY® contains no sugar, it could
not contribute to a sudden change in blood sugar levels.
NERAC found no published human studies showing
a relationship between any of 5-Hour ENERGY®’s
ingredients and a “crash” as NERAC defined it.
Living Essentials provided a copy of the NERAC
report as part of its substantiation for its promotional
claims about the 5-hour ENERGY® products.

84a
Appendix D
(iv) Medicus Clinical Study
In early 2008, Emord & Associates contacted Dr. Jay
Udani, the CEO and Medical Director of Medicus Research
LLC, to conduct a clinical trial of 5-Hour ENERGY®.
The purpose of the study was to establish the scientific
validity of claims the company was either making at the
time or intended to make about its product in the future.
Medicus retained Dr. Keith Wesnes and his firm, Cognitive
Drug Research (“CDR”), to assist with the study. CDR
had developed a computerized cognitive assessment tool
to assist researchers in evaluating the effect of certain
commercial products on human test subjects. (Ex. 1452).
CDR’s core battery of automated tests included immediate
word recall, reaction time to questions, working memory,
delayed word recall, word recognition, picture recognition,
and self-reported alertness, calmness, and contentment.
Ultimately, Drs. Udani and Wesnes proposed to
undertake a 4-arm crossover, randomized, double-blind,
placebo-controlled study to assess the efficacy of a single
dose of 5-Hour ENERGY® compared to a placebo, and
the efficacy of one active comparator (Monster Energy
Drink) to a placebo, measured by alertness and cognitive
function over a 6-hour period. (Ex. 1455, 1448). The trial
involved five separate visits to the test site. The primary
objective was to measure the power of attention, continuity
of attention (focus), quality of short-term working memory,
qualify of episodic (long-term) memory, speed of memory,
and self-related alertness. The secondary objective was to
assess the effects of 5-Hour ENERGY® on blood glucose
levels. The tertiary objective was to assess changes in
self-related contentment, calmness, mood, and fatigue.

85a
Appendix D
Ninety test subjects underwent a screening visit
where they were trained on the CDR tests hourly for 4
hours. They were provided standardized frozen foods
with low glycemic content to consume the day before
each visit. They were instructed not to drink any alcohol
or energy drinks the day before each visit and to sleep
only 3 to 6 hours the night before. Participants were
instructed not to consume more than 4 cups of coffee the
day before each visit and not to consume any caffeine
or food on the morning of each visit. The subjects were
provided the same standardized meal of eggs, bacon and
sausage on each study day, two hours after consuming
the energy drink or placebo. They were not provided any
carbohydrates.
Dr. Udani concluded that 5-Hour ENERGY® had a
statistically significant effect on cognitive function and
mental energy over a 6-hour test period as compared
to the placebo. There was no evidence of a statistically
significant drop in blood sugar compared to placebo
(and thus no “crash”), and there were no statistically
significant diminishment in mood, contentment, calmness,
depression, or anxiety that would represent a negative
effect of using the product.
The study tested the effects of the 5-Hour ENERGY®
formula as a whole. It did not study or test the effects of
any of the non-caffeine ingredients. Nor did Dr. Udani
examine whether 5- Hour ENERGY® was “superior”
to drinking the same amount of caffeine in some other
form, such as in coffee. Because the clinical trial did not
evaluate separate ingredients in 5-Hour ENERGY®, Dr.

86a
Appendix D
Udani testified it was not possible to draw any conclusions
about the benefits of such individual ingredients from the
Medicus Report’s data.
The experts disagreed about the reliability of the
study’s data or the validity of any conclusions one could
draw from the data, given its design. Dr. McLellan, an
expert on caffeine, credibly testified that because Dr.
Udano allowed test subjects arrive in a caffeine withdrawn
state, and the placebo group’s overall performance was
so far below baseline, any statistically significance in
test scores between the 5-hour ENERGY® group and
placebo group was likely attributable to the former group’s
ingestion of caffeine.
6.

Post-Claim Scientific Evidence

Living Essentials presented additional scientific
evidence, developed after its ads aired, to substantiate
the claims now being challenged by the State.4
a.

Moat Article (2003)

In 2003, Stuart Moat published an article entitled
4. The State argues that any scientific evidence developed
after Living Essentials aired or published its ads is legally irrelevant
because the FTC guidelines required pre-claim substantiation.
While this Court acknowledges that both the FTC guidelines and
federal case law indicate that pre-claim substantiation is required,
the Court also concludes that subsequent scientific studies may shed
light on pre-claim studies and are thus relevant and material to the
Court’s CPA analysis.

87a
Appendix D
“Folate, homocysteine, endothelial function and
cardiovascular disease,” in the Journal of Nutritional
Biochemistry. (Ex. 2002). Moat’s article is a literature
review on the effect of folate or folic acid deficiencies
on the cardiovascular system. Moat concluded that that
folate can reverse endothelial dysfunction. 5 According
to Dr. Kennedy, Moat also found that the cardiovascular
benefit of taking a single dose of folate can be detected
physiologically within two hours of ingestion, at four hours
post- ingestion, and even after six weeks.
b.

Scholey & Kennedy Study (2004)

In 2004, Andrew Scholey and David Kennedy coauthored a paper entitled “Cognitive and physiological
effects of an “energy drink”: an evaluation of the whole
drink and of glucose, caffeine and an herbal flavoring
fractions.” (Ex. 2068). They conducted a double-blind,
placebo- controlled crossover study to evaluate the effects
of a non-caloric placebo drink with (a) an energy drink
containing glucose, caffeine, and guarana; (b) a drink
containing only the glucose fraction of the energy drink;
(c) a drink containing only the caffeine fraction of the
energy drink; and (d) a drink containing only the flavoring
fraction of the energy drink. Scholey and Kennedy used
CDR’s cognitive testing system on their test subjects.
They concluded that there were improvements to
cognitive functioning after the consumption of the energy
5. Endothelial function is the measure of how well the body
is delivering blood on demand to the periphery, including the brain.

88a
Appendix D
drink but that neither glucose nor caffeine in isolation
provided any significant improvements in cognitive
functioning. They concluded that their test results
strongly suggest that the cognitive enhancing properties
of energy drinks containing glucose, caffeine and guarana6
were attributed to the combination of active ingredients,
rather than solely to caffeine.
The study does not directly support the contention that
5-Hour ENERGY®’s ingredients work together to achieve
results not attributable to caffeine alone because 5-Hour
ENERGY® does not contain any glucose or guarana. But
Living Essentials contends and Dr. Kennedy testified that
the study is strongly supportive of the proposition that it
is not the caffeine alone in 5-Hour ENERGY® that makes
it effective.
c.

Haskell & Kennedy Study (2005)

Dr. Kennedy testified that in 2005, he and a colleague,
Crystal Haskell, co-authored a paper that looked at the
effects of both caffeine (given in two different dose levels,
75 mg and 150 mg) in habitual users and non-users by
examining cerebral blood flow. (Ex. 2004). They concluded
that caffeine improved cognitive performance and mood
in healthy, young adults regardless whether the adults
were habitual users or non-users of caffeinated products.
All of the scientific experts agreed that caffeine is welldocumented to improve cognitive performance.

6. Guarana is a plant containing caffeine.

89a
Appendix D
d.

Giles Study (2012)

In 2012, Grace Giles et al. published an article
entitled “Differential cognitive effects of energy drink
ingredients: Caffeine, taurine, and glucose,” in the
journal Pharmacology, Biochemistry and Behavior. (Ex.
665, 2034). Giles studied the effects of caffeine, taurine,
and glucose (both alone and in combination) on cognitive
performance and mood in 24-hour caffeine abstaining
habitual caffeine consumers. Subjects took cognitive tests
30 minutes and 60 minutes post-ingestion. Giles found
that caffeine enhanced executive control and working
memory, and reduced simple and choice reaction time,
that taurine increased choice reaction times but reduced
reaction time in working memory tasks, and that glucose
slowed choice reaction time. Glucose, combined with
caffeine, enhanced working memory. Taurine, combined
with glucose and caffeine, enhanced orienting attention.
Caffeine reduced feelings of fatigue and increased tension
and vigor. Taurine reversed the effects of caffeine on vigor
and caffeine-withdrawal symptoms. Giles’ final conclusion,
however, was that caffeine, not taurine or glucose, is likely
responsible for reported changes in cognitive performance
following the consumption of energy drinks, particularly
in caffeine-withdrawn habitual caffeine consumers.
e.

Wesnes’s Appetite Article (2013)

In 2013, Dr. Wesnes, along with Dr. Udani and Dr.
Barrett, published an article outlining the results of the
Medicus Study in the journal, Appetite. (Ex. 664, 2107). In
the article entitled “An evaluation of the cognitive and mood

90a
Appendix D
effects of an energy shot over a 6 h period in volunteers. A
randomized, double-blind, placebo controlled, cross-over
study,” Dr. Wesnes described the Medicus clinical trial
and the results from that trial. The article described the
study’s results this way: “an energy shot can significantly
improve important aspects of cognitive function for up to
6 h[ours] compared to placebo in partially sleep-deprived
healthy volunteers.” Dr. Wesnes testified that he thought
the results of the tests in the Medicus study were “most
uncaffeine-like” because the differences in the cognitive
performance of the 5-Hour ENERGY® group and the
placebo group were significant over the entire 6-hour
period.
Dr. Kennedy testified that the results of the Medicus
clinical trial demonstrated that 5-Hour ENERGY®
provided improvements in attention, working memory,
long-term memory, alertness, depression, and anxiety
and that these improvements endured for six hours. He
also opined that, based on other studies relating to the
benefits of caffeine, these effects could not be attributable
to caffeine alone. Dr. McLellan disagreed with this
interpretation of the data when he testified that 5-Hour
ENERGY® did not improve any test scores; it simply
showed less of a diminishment of cognitive functioning
in sleep-deprived and potentially caffeine withdrawn test
subjects, than placebo. He found the test results consistent
with prior studies showing the impacts on caffeine over
time.

91a
Appendix D
f.

Kurtz Article (2013)

In 2013, Abigail Kurtz et al. published an article
entitled “Effects of Caffeinated Versus Decaffeinated
Energy Shots on Blood Pressure and Heart Rate in Healthy
Young Volunteers,” in the journal Pharmocotherapy. (Ex.
2044). Kurtz’s article described a study evaluating the
effects of a single dose of caffeinated 5-Hour ENERGY®
shot compared with a decaffeinated 5-Hour ENERGY®
shot, assessed by changes in blood pressure and heart
rates in healthy volunteers. Kurtz sought to determine if
the non-caffeine ingredients in 5-Hour ENERGY® were
affecting blood pressure. Kurtz found that the caffeinated
shot significantly increased systolic and diastolic blood
pressure over a three-hour period compared with the decaf
version of the drink. She concluded that it was unlikely
that the non-caffeine ingredients were contributing to
blood pressure increases. Kurtz also reported that selfreported energy levels did not vary significantly between
the caffeinated and decaffeinated versions of 5-Hour
ENERGY® over time. She concluded that “[i]t appears
that the decaffeinated shot provides the same amount of
increase in perceived energy without the rise in peripheral
blood pressure noted with the caffeinated shot.”
g.

Nagrecha Study (2013)

Natasha Nagrecha et al. published an article entitled,
“The Effect of Caffeine and Choline Combinations on
Short-term and Auditory Memory,” in 2013 in the journal,
Clinical Pharmacol Biopharmaceutical (Ex. 2238), in
which she reported on a study to determine whether

92a
Appendix D
choline in combination with several doses of caffeine
could facilitate short-term visual and verbal memory
and attention in adult and middle aged human subjects
with normal cognitive function. Subjects underwent
computerized testing once 40 minutes after ingestion. The
test results showed that subjects ingesting 100 mg caffeine
and 2 grams of choline bitartrate and those ingesting
choline alone showed no change in performance on shortterm memory or attention tests compared to placebo. The
group ingesting 50 mg of caffeine and 2 grams of choline
bitartrate scored significantly lower on tests for shortterm verbal memory and attention than a placebo group.
The subjects ingesting 25 mg of caffeine and 2 grams of
choline bitartrate scored significantly higher on tests for
short-term visual memory than a placebo group.
h.

Marczinski Study (2014)

Cecile Marczinski authored an article entitled
“Subjective State, Blood Pressure, and Behavioral
Control Changes Produced by an ‘Energy Shot’” in the
Journal of Caffeine Research in 2014. (Ex. 2056) The
purpose of the Marczinski Study was to investigate the
acute effects of 5-Hour ENERGY® on subjective and
objective measures assessed hourly for 6 hours following
consumption. Marczinski concluded that while 5-Hour
ENERGY® improved subjective feelings of vigor and
reduced fatigue, the subjects’ objective performance on
a computerized cognitive test did not improve, and in fact
worsened over time.

93a
Appendix D
i.

Shah Study (2015)

Dr. Blonz and Dr. Kennedy both referenced a study
published by Sachin Shah entitled “Energy Implications
of Consuming Caffeinated Versus Decaffeinated Energy
Drinks.” According to Dr. Kennedy, Shah’s article was
published in the Journal of Pharmacy Practice, although
the article itself is not in evidence (Ex. 2254, p. 65). Dr.
Kennedy summarized Shah’s study: Shah conducted
two studies to measure subjective energy levels in
participants who consumed a caffeinated version of 5–
Hour ENERGY® and a decaffeinated version of 5-Hour
ENERGY®. Dr. Kennedy testified that Shah’s test
results indicated that both caffeinated and decaffeinated
5-Hour ENERGY® “significantly boosted energy levels
1 hour after consumption, but caffeinated EDs have a
significantly greater boost and it is sustained at least 3
hours after consumption.”
j.

Buckenmeyer Study (2015)

In 2015, Phillip Buckenmeyer published an article
entitled “Cognitive Influence of a 5-h ENERGY® shot:
Are effects perceived or real?” (Ex. 1398). Buckenmeyer
studied the effects of consumption of a 5-Hour ENERGY®
shot on various cognitive functions across five hours on
24 college-aged students using a double-blind, cross-over,
placebo-based design. Buckenmeyer concluded that while
90% of the participants subjectively thought that 5-Hour
ENERGY® effective one-hour post-ingestion, he found
no evidence that it enhanced recognition, reaction time,
short-term and working memory, or attention capacity.

94a
Appendix D
Buckenmeyer did not use CDR’s test battery but instead
used a web-delivered cognitive assessment from Lumosity.
com.
k.

Molnar Study (2015)

Janos Molnar authored an article entitled “Evaluation
of the Effects of Different Energy Drinks and Coffee on
Endothelial Function.” Molnar looked at four different
treatments: 5-Hour ENERGY® (230 mg of caffeine),
Red Bull (80 mg caffeine), a drink called NOS (120 mg
caffeine), and coffee (240 mg caffeine), and compared
test subjects’ endothelial function over a 4 hour period.
(Ex. 2137). The endothelium is the lining of the blood
vessels. The endothelium responds to signals from the
brain to dilate or contract blood vessels. The body needs
to ensure that blood is delivered to working muscles. A
properly functioning vasculature, reflected in endothelial
function, provides this service to the body. Molnar found
a significant improvement in endothelial function (or
blood flow) 1 ½ and 4 hours after the subjects consumed
5-Hour ENERGY® and Red Bull. Neither NOS nor the
coffee, containing the same amount of caffeine as 5-Hour
ENERGY®, changed endothelial function significantly.
The Molnar Study did not test energy, alertness or
focus. It looked at endothelial function as a proxy for
coronary function, or how the heart works. Dr. Blonz did
not find the Molnar Study to be relevant for this reason.
Dr. Kennedy opined that the Molnar Study supported
the proposition that the physiological effects of 5-Hour
ENERGY® cannot be attributed to caffeine alone.

95a
Appendix D
Because endothelial functioning relates to how well the
body delivers blood on demand to the brain, Dr. Kennedy
testified that it is reasonable to conclude from Molnar’s
results that 5-Hour ENERGY® would have a greater
impact on cognitive functioning than would caffeine alone.
l.

Jacobson Study (2015)

In 2015, B.H. Jacobson published a study in the
journal Perceptual & Motor Skills, entitled “Effect of
Energy Drinks on Selected Fine Motor Tasks.” (Ex. 2060).
Jacobson assessed the effect of energy shots on certain
fine motor skills of college-aged males. Jacobson noted
that the stimulant energy blends present in most of the
commercially available energy shots and energy drinks
include caffeine, taurine, guarana, ginseng, glucose, and
B vitamins. He notes that “very little research on the
combined or synergistic effects of these ingredients” has
been done. After summarizing the conflicting results of
studies examining the effect of caffeine combined with
taurine or glucose, he stated that the purpose of his study
was to “compare hand steadiness, choice reaction time,
pursuit rotor tracing, and simple reaction time following
ingestion of a commercially available energy shot or a
placebo.” The energy shot involved in the test was 5-Hour
ENERGY® Extra Strength.
Jacobson’s study showed that the ingredients in
5-Hour ENERGY® did affect the subjects’ physical
performance. The energy shot did not improve hand
steadiness over the placebo but did improve reaction
times, which the author surmised may be the result of the
caffeine in 5-Hour ENERGY®.

96a
Appendix D
m. Bloomer Study (2015)
Richard Bloomer published the article, “Comparison of
5-Hour ENERGY and Caffeine on Cognitive Performance
and Subjective Feelings in Young Men and Women,” in the
Journal of Caffeine Research in 2015. (Ex. 1397). Bloomer
sought to compare the effects of 5-Hour ENERGY®
to caffeine only and to a placebo on subjective feelings
of energy and mood, objective measures of cognitive
performance, heart rate, and blood pressure in men and
women. Bloomer’s study concluded that neither caffeine
nor 5-Hour ENERGY® resulted in an improvement in
subjective feelings of energy or mood or in objective
cognitive performance. The results clearly diverge
from those of the Medicus Study. Dr. Blonz attributed
the difference to the design of the study: the Bloomer
participants were allowed to eat breakfast on the day
of testing, suggesting that the lack of food impacted the
Medicus test results. Dr. Kennedy felt that the Bloomer
study must have been flawed because the lack of improved
functioning after ingesting the caffeine-only drink was
inconsistent with most of the recognized science relating
to caffeine but he was unable to identify what any such
flaws were.
n.

Pomportes Study (2015)

Laura Pomportes et al. wrote the article, “Heart
Rate Variability and Cognitive Function Following a
Multi-Vitamin and Mineral Supplementation with Added
Guarana (Paullinia cupana), in the journal, Nutrients
(Ex. 2062). The Pomportes Study assessed cognitive

97a
Appendix D
performance and heart rate variability following the
ingestion of either a multivitamin and mineral combination
supplemented with 300 mg of guarana, compared to
a caffeine supplement or a placebo. Test participants
were asked to perform cognitive tasks 15 minutes after
ingestion and then every 15 minutes over a 3-hour
period. The results indicated that those ingesting the
multivitamin/mineral/guarana product performed better
on cognitive tests than the caffeine only or placebo. Dr.
Kennedy testified that the study is significant in that it
demonstrated that a mixture of multivitamins, minerals
and guarana worked better in improving cognitive
functioning than caffeine.
o.

Paulus Study (2015)

In May 2015, an undergraduate student in Ohio named
Ryan Paulus published an article documenting a study he
and colleagues performed to test cognitive functioning
and self-related mood of college students after consuming
5-Hour ENERGY®, or a Starbucks DoubleShot®, or a
drink containing caffeine powder. Paulus concluded that the
5-Hour ENERGY® appeared to perform better than the other
two products. Experts for both parties agree that this study has
some fairly basic methodological problems. The study was
not blind, for example, and there were limited controls on
the test subjects’ food consumption and activities during
the tested time periods.
p.

Cheskin Study (2016)

In July 2016, Lawrence J. Cheskin, a researcher at
Johns Hopkins Bloomberg School of Public Health, issued

98a
Appendix D
a report to the Oregon Department of Justice entitled
“Randomized, Placebo-Controlled Crossover Trial of an
Energy Drink.” (Ex. 2247). Cheskin stated that the most
common active ingredient in energy drinks is caffeine
“but whether energy drinks boost energy due to caffeine,
other non-herbal (vitamins, minerals, amino-acids) and
herbal ingredients that may be present, or a combination
remains unclear.” He stated that all previous studies of
the efficacy of energy drinks “lacked sufficient power
and were generally not placebo-controlled.” Because he
did not find sufficient evidence to determine the effect of
any ingredients other than caffeine, in boosting energy,
Cheskin sought to test the efficacy of 5-Hour ENERGY®
Decaf, compared to a placebo drink.
Cheskin’s study involved 147 participants who were
given Decaf 5-Hour ENERGY® or a placebo drink
and then underwent computerized cognitive tests at
30 minutes, 1 ½ hours and 5 hours post-ingestion. The
Cheskin data indicate that there was no significant
improvement in cognitive, behavioral, or energy-level
performance after consuming 5 -Hour ENERGY®
Decaf compared to the placebo drink. After comparing
the relative reliability of his study results as compared
to those of Paulus, Kurtz and Giles, he concluded “We
found strong evidence that 5- Hour ENERGY Decaf is
not efficacious in enhancing energy levels or any related
cognitive behavioral parameters measured.”
Dr. Blonz believed that the Cheskin Study was
competent and reliable; Dr. Kennedy did not. Dr. Kennedy
criticized the design of Cheskin’s study because 38 percent

99a
Appendix D
of the participants were morbidly obese, and thus might
suffer from obesity-related illness; the age range of the
participants was overly large, from age 18 to 70, which
could confound the cognitive test results; and the cognitive
tests were run over the weekend when it would have been
difficult to control for sleep, food intake, caffeine intake,
or alcohol use.
7.

The Blonz/McLellan/Kennedy Scientific
Disputes

The scientists presented by the State and Living
Essentials disagreed on several key issues. The Court
summarizes its understanding of these disputes below.
a.

Whether caffeine is the sole active
ingredient in 5-Hour ENERGY®.

The complaint alleges that caffeine is the sole active
ingredient in 5-Hour ENERGY®. By “active ingredient,”
the Court adopts Dr. Blonz’s definition: an ingredient that
has a physiological effect on the human body. Dr. Kennedy
presented convincing testimony, and the studies each side
cited also support the conclusion, that the B-vitamins, and
the amino acids can have a physiological effect on the body.
The Court finds from this evidence that caffeine is not the
sole active ingredient in 5-Hour ENERGY®. As previously
described above, B vitamins, taurine, tyrosine and choline
are bioactive. B vitamins, in general, promote metabolism
which plays a role in the generation of physiological energy
and can affect cognitive function and mood. Taurine
can improve endothelial function and reduce subjective

100a
Appendix D
feelings of fatigue. Tyrosine can promote the formation
of neurotransmitters.
It does not necessarily follow, however, that these
bioactive ingredients in 5-Hour ENERGY®, in the
amounts found in that product, are efficacious in providing
consumers with the advertised benefits of “energy,
alertness, and focus.” Dr. Kennedy agreed with Dr.
McLellan that there is no experimental evidence showing
that the addition of multivitamins to a caffeinated energy
drink will cause greater improvement in physical and
cognitive performance than can be attributed to the
effects of caffeine alone.
b.

Whether healthy, well-nourished adults
can benefit physiologically from vitamins
and amino acids in 5-Hour ENERGY®.

Dr. Blonz testified that healthy, well-nourished
adults will receive no benefit from the B-vitamins and
amino acids found in 5-Hour ENERGY® and that these
ingredients provide no physiological benefit and would
simply be excreted. Dr. Kennedy strongly disagrees
with this opinion and testified that the recommended
daily allowance of a particular vitamin is a minimum
that humans should receive each day to prevent disease.
He provided the results of a study he conducted and
published in the article “Multivitamins and minerals
modulate whole-body energy metabolism and cerebral
blood-flow during cognitive task performance: a doubleblind, randomized, placebo-controlled trial,” in the journal
Nutrition & Metabolism in 2016. This study investigated

101a
Appendix D
whether supplementing the diet of healthy females with
a multivitamin could affect metabolic and cerebral blood
flow consequences, assessed through cognitive tasks. He
found that just a single dose of Vitamins C and B led to
an increase in fat oxidation and total energy expended.
The Court finds this evidence to be compelling proof that
healthy, well-nourished adults can benefit from some of the
vitamins in 5-Hour ENERGY®. The State has not shown
that the vitamins and nutrients in 5-Hour ENERGY®
provide no benefit whatsoever.
c.

Whether the Medicus Study supports
Living Essentials’ claims that noncaffeine ingredients contribute to the
overall effectiveness of 5-Hour ENERGY®.

The Medicus Study concluded that subjects who
drank 5-Hour ENERGY® performed better on tests
of power of attention, continuity of attention, quality
of working memory, and quality of episodic memory at
several measurement points throughout the 6 hours. Dr.
McLellan, an expert on caffeine, testified that there is no
basis for concluding that these results were attributable
to any ingredient other than caffeine. Dr. Kennedy
disagrees. He testified that because caffeine has not
been demonstrated to improve episodic memory and the
5-Hour ENERGY® improved episodic memory, there
must be some interaction between the caffeine and the
other bioactive ingredients causing this result.
After reviewing the scientific evidence and the
testimony of Drs. McLellan and Kennedy, the Court finds

102a
Appendix D
Dr. McLellan’s opinion to be the more credible. First,
Medicus did not design its study to determine whether
the non-caffeine ingredients in 5-Hour ENERGY® led
to improved performance on these cognitive tests. One of
the study’s co-authors, Marilyn Barrett, testified on that
“the study was not designed to show what kind of effect
there was with caffeine and the other ingredients. It could
have been additive. It could have been synergistic. It could
be no effect. The study was not designed to show that.”
(Barrett Dep. 70:19-23).
Second, the Court agrees with Dr. McLellan that the
test results from the Medicus clinical trial do not show that
consuming 5-Hour ENERGY® improved any of the test
subjects’ cognitive functioning, including episodic memory,
above baseline. The results merely indicate that the
cognitive performance of the 5-Hour ENERGY® group
did not diminish as much as that of the placebo group.
Third, the Court also finds compelling Dr. McLellan’s
testimony that the Medicus study had design flaws that,
whether intentional or not, inflated the positive results
of the study in favor of 5-Hour ENERGY®. Test subjects
were asked to perform the computerized tests in a state
of sleep deprivation, which Dr. Udani acknowledged
would have a negative impact on cognition and affective
processing. (Ex. 1458). Limiting test subjects’ sleep
ensured a greater impact from the caffeine in 5- Hour
ENERGY®, resulting in higher test scores by participants
who received 5-Hour ENERGY® as opposed to those
receiving the placebo. The test subjects were additionally
not permitted to consume caffeine on the day of testing,

103a
Appendix D
which meant that for those who regularly drink caffeine,
they were arriving in a caffeine withdrawn state. Because
scientific literature demonstrates that caffeine withdrawal
has a negative effect on performance, those test subjects
who were habituated to caffeine and received the placebo
would have inevitably performed more poorly than the test
subjects who received the caffeinated 5-Hour ENERGY®.
Finally, episodic memory has little to do with the
claimed benefit of “energy, alertness and focus.” The
evidence presented at trial makes it clear that caffeine
provides these benefits. While it is certainly plausible that
the non-caffeine ingredients have a synergistic effect with
the caffeine to enhance or extend the effect of the caffeine,
that question has not been studied. The Court finds that
the Medicus Study does not support a claim that the noncaffeine ingredients in 5-Hour ENERGY® contribute to
the effectiveness of 5-Hour ENERGY®.
d.

Whether the Monster Arm data undermines
Living Essentials’ contention that the
cognitive benefits from 5-Hour ENERGY®
seen in the Medicus Study are attributable
to its non-caffeine ingredients.

The Appetite article made two controversial statements
about the Medicus Study results. First, Drs. Wesnes,
Udani, and Barrett wrote that the caffeine in 5-Hour
ENERGY® was unlikely to account for the effects seen
in study participants because caffeine’s effects dissipate
after 90 minutes. Second, they wrote that “no other
study with an energy shot has yet demonstrated such a

104a
Appendix D
widespread improvement to various aspects of cognitive
function which have sustained to 6 h.” (Ex. 2107).
On the eve of trial, the Court ordered Living
Essentials to produce documents relating to data Medicus
collected from a part of its study known as the “Monster
Arm.” These documents revealed that in addition to
testing subjects after consuming 5-Hour ENERGY®,
the Medicus team had also tested the same subjects after
they consumed a competitor energy drink, Monster, and
a placebo. Thus, there were in fact four “arms” to the
Medicus Study: 5-Hour ENERGY®, a comparison placebo,
Monster, and a comparison placebo. The Court rejects
Living Essentials’ argument that the Monster Arm was
a “completely different study.” The IRB protocol and IRB
approval was the same; the test subjects were the same.
Test participants took the same battery of computerized
tests and answered the same questionnaire about
calmness, alertness, and contentment after consuming
all four drinks.
The Court also rejects Living Essentials’ contention
that the Monster Arm data was never analyzed. In fact, the
Medicus Study team prepared a fairly extensive analysis
of the two arms of the study. The team labeled the 5-Hour
ENERGY® drink as “Drink A,” and its comparison
placebo as “Drink B.” The Monster drink was labeled as
“Drink E,” and its comparison placebo labeled “Drink D.”
In a summary of the data comparing Drinks A and B and
Drinks D and E, the Medicus team reported that the all of
the composite scores between 5-Hour ENERGY® and the
placebo were different, with the 5-Hour ENERGY® group

105a
Appendix D
outperforming the placebo group on all performance
measures except self-rated calmness. With regard to the
Monster group, the team concluded that four of the five
major composite scores and self-ratings were significantly
different between the Monster and placebo. Monster
outperformed the placebo on four performance measures
(power of attention, continuity of attention, quality of
working memory, and quality of episodic memory), as well
as on self-rated alertness and contentment.
While the Medicus team concluded that the cognitive
benefits of 5-Hour ENERGY® over the placebo were
generally greater and “more statistically reliable” than
those of Monster over the placebo, the data nevertheless
showed statistically significant cognitive benefits from
Monster lasting the entire 6 hours. According to Ex.
666, Dr. McLellan’s article relating to energy drinks,
Monster contains 80 mg of caffeine (compared to 5-Hour
ENERGY®’s 200 mg), 1,000 mg of taurine (compared to
5-Hour ENERGY®’s 467 mg), 5 mg of glucuronolactone
(compared to 411 mg in 5-Hour ENERGY®), 27 grams
of sugar, an unknown amount of vitamins B2 , B3 , B5 , and
B12 , 5 mg of guarana and 200 mg of ginseng. Guarana is
a plant that contains caffeine. Monster appears to contain
no Vitamin B6 or B9, no choline or citicoline, no malic acid,
no N-Acetyl-L-tyrosine, and no L-Phenylalanine.
The Court agrees with Dr. McLellan’s opinion that the
Monster Arm data directly contradict statements made in
Appetite. The data demonstrates that subjects consuming
5-Hour ENERGY® or Monster performed better on
the cognitive tests than did the subjects consuming the

106a
Appendix D
comparable placebo drink. Some of the early cognitive
performance results from Monster could be attributable
to the glucose. But, according to Dr. McLellan, the glucose
would have raised the blood glucose levels over the first 30
minutes but those levels would have returned to baseline
within 60 minutes. This conclusion appears credible given
Dr. McLellan’s analysis in Ex. 666 of the limited scientific
evidence suggesting that the addition of glucose to a
caffeinated energy drink will cause greater improvements
in cognitive performance than can be attributed to the
effects of caffeine alone. The Medicus Study showed
differences in cognitive performance from Monster over
placebo over the entire 6-hour period—long after the
blood glucose levels would have returned to baseline.
The Court agrees with Dr. McLellan that the cognitive
benefits Medicus found from Monster are unlikely to be
attributable to glucose alone.
According to Dr. McLellan, the caffeine in both
energy drinks, however, would have remained elevated
throughout the duration of the 6 hours. Any contention
by Drs. Wesnes, Udani and Barrett that the effects of
the caffeine would have disappeared after 90 minutes is
also not supported by the science on caffeine. The Court
agrees with Dr. McLellan that the Monster Arm data
makes it impossible to conclude that the cognitive benefits
achieved from 5-Hour ENERGY® are attributable to its
non-caffeine ingredients. The Court also finds that Living
Essentials’ failure to disclose, discuss, and account for
the Monster arm data undercuts the credibility of Living
Essentials’ claim that the non-caffeine ingredients of
5-Hour ENERGY® are working synergistically with

107a
Appendix D
caffeine to enhance or extend the duration of any energy,
alertness, and focus than the caffeine would otherwise
provide.
e.

Whether the Cheskin Study undermines
Living Essentials’ claims about the Decaf
5-Hour ENERGY® product.

Dr. Cheskin’s study concluded that 5-Hour ENERGY
Decaf does not enhance energy levels or cognitive
functioning. The experts who testified at trial disagree
on the reliability of Dr. Cheskin’s study results. Dr.
Blonz testified that the Cheskin study was competent
and reliable scientific evidence. Dr. Kennedy, on the
other hand, deemed the study “an appalling piece of
work.” Dr. Kennedy criticized the methodology: (1)
the principal investigator was an obesity doctor with
inadequate experience in the area of brain science; (2) he
believed the study was designed to reach the results the
Oregon Department of Justice wanted; (3) Dr. Cheskin
included participants between 18 and 70 years of age,
which undercuts the reliability of the test results because
cognitive function varies with age; (4) Dr. Cheskin included
a significant number of morbidly obese individuals which
would confound the test results; (5) the tests were done
over the weekend when participants probably had been out
“clubbing” and came in with either too little or too much
sleep; (6) Dr. Cheskin did not train the participants on the
computerized tasks to make sure they could do the tasks
in the first place; (7) there were no usable baseline results
because of the lack of this training; (8) Dr. Cheskin did not
use one of the valid tests (POMS scale) more than once

108a
Appendix D
after 30 minutes which would pick up any effect from the
small amount of caffeine in the product but would not pick
up any effect of the other bioactive ingredients.
The Court did not hear from Dr. Cheskin himself and
Dr. Blonz did not or could not rebut these criticisms. Based
on Dr. Kennedy’s credible review, the Court finds that
the Cheskin Study is not sufficiently reliable to consider
when assessing Living Essentials’ claims regarding its
decaffeinated product.
8.

Living Essentials’ exper t testimony on
substantiation standard of care and advertising
subjectivity analysis.

Living Essentials presented evidence through Dr.
Sanford Bigelow that it complied with industry standards
in substantiating its ad claims, first, by having Carl
Sperber conduct internet research on the formula’s
ingredients, then by instituting a process for legal and
regulatory review by an outside law firm, followed by
retaining Dr. Glade and NERAC to perform literature
reviews, and finally, by asking Dr. Blum and then Medicus
to undertake clinical studies. Dr. Bigelow concluded that
Living Essentials “exceeded industry standards” in
substantiating its product claims.
The Court finds some of Dr. Bigelow’s opinions
credible and some not. First, the Court cannot find that
asking an advertising director who lacks any scientific or
medical training to conduct Internet research is adequate
substantiation. Mr. Sperber had no ability or training to
assess the scientific reliability of anything he read online.

109a
Appendix D
Second, the Court also cannot find that Living
Essentials’ regulatory or legal review was reasonable
to substantiate the ad claims. There was no testimony
from anyone who performed this review as to what they
looked at or how they analyzed its accuracy and reliability.
Dr. Bigelow had no idea how this regulatory review was
conducted, or what criteria were applied when evaluating
substantiation. There is simply no evidence in the record
that anyone with any science training ever assessed the
ad claims and the science backing up those claims against
the FTC substantiation guidelines, as Dr. Bigelow testified
he performed for his various employers and clients.
Third, there is no evidence that anyone within the
company ever saw Dr. Glade’s reports or the NERAC
report. Although Living Essentials produced them to the
Attorney General in this litigation as claim substantiation,
the Court cannot find that Living Essentials knew about
the reports when they were prepared. Mr. Sperber did
not know about them and no one else from the company
testified. Dr. Bigelow admitted that he has no idea
whether Living Essentials even knew of or relied on the
FTC substantiation guidelines when it took action to
substantiate its ad claims. Thus, Dr. Bigelow’s opinion
that Living Essentials met the standard of care in
substantiating its ad claims by procuring these reports
is not supported by evidence in the record.
The Court does find that some of Dr. Bigelow’s
opinions are credible. For example, as set out below, the
Court finds credible his testimony that the European
Food Safety Authority (“EFSA”) reports substantiate the

110a
Appendix D
general contention that certain B vitamins can help reduce
fatigue and contribute to energy metabolism. The Court
also agrees with Dr. Bigelow that Living Essentials acted
reasonably in undertaking clinical studies. The question,
however, is not whether choosing to pay for clinical studies
was reasonable or met the standard of care. The question
is whether the studies are adequate to support the ads’
claims.
Living Essentials also presented the expert testimony
of J. Howard Beales, III, a professor of strategic
management and public policy at George Washington
University. Dr. Beales, the former Director of the
Consumer Protection Division of the Federal Trade
Commission, testified that none of the claims in Living
Essentials’ ads are all subjective, rather than objective,
and thus are not deceptive. He opined that subjective
claims cannot be supported by scientific evidence.
The Court finds that Living Essentials’ claims are
not subjective. The company intentionally promoted
the product’s ingredients as changing the way the body
functioned. It promoted the product as a healthy way to
achieve these physiological results. The company spent a
significant amount of money on clinical studies to establish
that 5-Hour ENERGY® was having a biochemical or
physiological effect on the bodies of its consumers. As Dr.
Beale admitted, if an advertiser claims that a product will
change or affect the physiological functioning of the body,
that is an objective claim for which scientific substantiation
exist. This Court so finds.

111a
Appendix D
E. APPLICABLE PRINCIPLES OF LAW
The Consumer Protection act prohibits companies like
Living Essentials from engaging in “unfair or deceptive
acts or practices in the conduct of any trade or commerce.”
RCW 19.86.020. The purpose of this act is to protect
the public and foster fair and honest competition. RCW
19.86.920. The act is meant to be liberally construed to
serve this purpose. Short v. Demopolis, 103 Wn.2d 52,
60-1, 691 P.2d 163 (1984); Michael v. Mosquera-Lacy, 165
Wn.2d 595, 602, 200 P.3d 695, 699 (2009).
The Washington Attorney General may bring an
enforcement action under the CPA. RCW 19.86.080. In
this CPA enforcement action, the State must prove three
elements: (1) an unfair or deceptive act or practice (2)
committed by Living Essentials in trade or commerce
(3) that has a public interest impact. State v. Kaiser,
161 Wn. App. 705, 719, 254 P.3d 850 (2011). The State
is not required to prove that Living Essentials’ unfair
or deceptive advertisements injured consumers or that
consumers relied on particular 5-Hour ENERGY® ads
when deciding whether to purchase or consume the
dietary supplement. Id. A CPA claim also “does not require
a finding of an intent to deceive or defraud. Good faith on
the part of the seller is immaterial to liability. Wine v.
Theodoratus, 19 Wn. App. 700, 706, 577 P.2d 612 (1978).
1.

Unfair or Deceptive Act or Practice

Whether a party committed a particular act is an issue
of fact. See Leingang v. Pierce County Med. Bur., Inc. 131

112a
Appendix D
Wn.2d 133, 150, 930 P.2d 288 (1997). Whether a particular
act is unfair or deceptive for purposes of the CPA – in other
words, the determination of whether the CPA applies to a
factual situation – is a question of law for the Court. See
Panag v. Farmers Ins. Co. of Wash., 166 Wn.2d 27, 47, 204
P.3d 885 (2009) (citing Leingang, 131 Wn.2d at 150). The
CPA does not define “unfair or deceptive act or practice.”
The Court has allowed the definition of unfair or deceptive
to evolve through the “gradual process of judicial inclusion
and exclusion.” Klem v. Washington Mut. Bank, 176
Wn.2d 771, 785, 295 P.3d 1179 (2013) (citing Saunders v.
Lloyd’s of London, 113 Wn.2d 330, 344, 779 P.2d 249, 256
(1989)). There is no limit to human inventiveness, so the
courts and the legislature are left to define an unfair or
deceptive act in order to fulfill the protective purposes of
the CPA. Id. at 786.
Washington state courts have concluded that there
are several routes a court can take when determining if
a company’s conduct is unfair or deceptive. See Klem, 176
Wn.2d at 787. Blatant, false misrepresentations that result
in actual deception are obviously deceptive, although
actual deception is not required, only the capacity to
deceive. Hangman Ridge Training Stables, Inc. v. Safeco
Title Ins. Co., 105 Wn.2d 778, 785, 719 P.2d 531 (1986). In
addition, a truthful statement “may be deceptive by virtue
of the ‘net impression’ it conveys[.]” Panag, 166 Wn.2d at
50 (citing FTC cases).
2.

FTC Advertising Substantiation Requirement

The CPA also provides that courts can be guided
in their determination of whether conduct is unfair or

113a
Appendix D
deceptive by federal court decisions and “final orders of
the federal trade commission interpreting the various
federal statutes dealing with the same or similar matters”
as the CPA. RCW 19.86.920; CertainTeed Corp. v. Seattle
Roof Brokers, C 09-563 RAJ, 2010 WL 2640083, at *6
(W.D. Wash. June 28, 2010); State v. Black, 100 Wn.2d
793, 799, 676 P.2d 963, 967 (1984) (“When the Legislature
enacted the Consumer Protection Act, it anticipated that
our courts would be guided by the interpretation given by
federal courts to their corresponding federal statutes”).
The CPA was modeled after Section 5 of the FTC Act, 15
U.S.C. § 45(a)(1), which, like the CPA, includes a broad
prohibition on “unfair or deceptive acts or practices.”
Hangman Ridge, 105 Wn.2d at 783. Washington courts
have relied on cases interpreting Section 5 of the FTC Act
when determining if certain conduct is unfair or deceptive.
See, e.g., Panag, 166 Wn.2d at 49-50.
Under Section 5 of the FTC Act, to prove that an
ad is deceptive, the FTC must establish (1) that an
advertisement conveys a representation through either
express or implied claims; (2) that the representation is
likely to mislead consumers; and (3) that the misleading
representation is material. F.T.C. v. Direct Mktg Concepts,
Inc., 569 F.Supp.2d 285, 297 (D. Mass. 2008), aff’d, 624
F.3d 1 (1st Cir. 2010). Neither proof of consumer reliance
nor consumer injury is necessary to establish a Section
5 violations. F.T.C. v. Freecom Commc’ns, Inc., 401 F.3d
1192, 1203 (10th Cir.2005); F.T.C. v. Direct Mktg., 569 F.
Supp.2d at 297-98. The Court will apply this test to the
Living Essential ads in this case.

114a
Appendix D
An advertisement’s meaning is a question of fact. FTC
v. Nat’l Urological Grp., Inc., 645 F.Supp.2d 1167, 1189
(N.D. Ga. 2008), aff’d, 356 Fed. Appx. 358 (11th Cir. 2009).
The Court must look at the advertisement’s overall, net
impression, rather than the literal truth or falsity of the
words of the ad. Id. Where implied claims are conspicuous
and reasonably clear from the face of the advertisement,
extrinsic evidence is not required to prove the existence
of implied claims. U.S. v. Bayer Corp., 2015 WL 5822595,
at *11 (D. N.J. Sept. 24, 2015). The Court can ascertain
an advertisement’s meaning by examining the ad itself.
F.T.C. v. U.S. Sales Corp., 785 F. Supp. 737, 745 (N.D. Ill.
1992). Even an accurate communication can be deceptive
if the “net impression” it conveys is deceptive. Panag,
166 Wn.2d at 50. Courts “will often be able to determine
meaning through an examination of the representation
itself, including an evaluation of such factors as the
entire document, the juxtaposition of various phrases in
the document, the nature of the claim, and the nature of
the transaction.” FEDERAL TRADE COMMISSION, Policy
Statement on Deception (1983), at http://www.ftc.gov/bcp/
policystmt/ad-decept.htm (last accessed October 7, 2016).
With respect to extrinsic evidence of the “takeaway” from
an ad, consumer survey evidence or consumer testimony
is not required. F.T.C. v. Medlab, Inc., 615 F. Supp. 2d
1068, 1077-78 (N.D. Cal. 2009) (citing cases and rejecting
defendant’s argument that consumer survey evidence
or consumer testimony must be presented to support a
finding as to the meaning of an ad). Extrinsic evidence
can include expert testimony. FTC Policy Statement on
Deception, n.8.

115a
Appendix D
In analyzing a representation, the FTC can prove
that a representation is likely to mislead consumers by
establishing either (1) actual falsity of express or implied
claims (“falsity” theory);; or (2) that the advertiser lacked
a reasonable basis for asserting that the message was true
(“reasonable basis” theory). F.T.C. v. Pantron I Corp., 33
F.3d 1088, 1096 (9th Cir.1994) (citing
In the Matter of Thompson Med. Co., Inc., 104 F.T.C.
648 (1984)); F.T.C. v. John Beck Amazing Profits, LLC, 865
F.Supp.2d 1052, 1067 (C.D.Cal.2012). The FTC may prove
the claims are literally false if all reasonable scientists
would agree that the claims do not provide the benefits as
asserted. Mullins v. Premier Nutrition Corp., 2016 WL
1534784, at *16 (N.D. Cal. Apr. 15, 2016) (citing In re GNC
Corp., 789 F.3d 505, 515 (4th Cir.2015)). The FTC may
do this by showing the advertiser’s expert opinions are
unreasonable or that no expert believes in the assertion.
Id. at *17. The State has indicated that it is not proceeding
on the actual falsity theory but is instead proceeding solely
on the reasonable basis theory. Thus, the Court will not
apply the “all reasonable scientists” standard to Living
Essentials’ substantiation evidence in this case.
If an ad expressly states or impliedly suggests that
a product successfully performs an advertised function
or yields an advertised benefit, the advertiser must have
a “reasonable basis” for the claim. F.T.C. v. COORGA
Nutraceuticals Corp., 2016 WL 4472994, at *4 (D. Wyo.
2016) (citing In re Pfizer, Inc., 81 F.T.C. 23 (1972)). Under
the reasonable basis theory, the advertiser must have had
some recognizable substantiation for the representation

116a
Appendix D
prior to making it an advertisement. John Beck Amazing
Profits, LLC, 865 F.Supp.2d at 1067. The advertiser has
the burden of establishing what substantiation it relied
on for a claim, and the State has burden of establishing
that that substantiation is inadequate. F.T.C. v. Johnson,
96 F. Supp. 3d 1110, 1120 (D. Nev. 2015). Where an
advertiser lacks adequate substantiation evidence, they
necessarily lack any reasonable basis for their claims
and the ad is deceptive as a matter of law. Direct Mktg.
Concepts, Inc., 624 F.3d at 8. In determining whether an
advertiser has satisfied the reasonable basis requirement,
the Commission or court must first determine what
level of substantiation the advertiser is required to have
for his advertising claims. Then, the adjudicator must
determine whether the advertiser possessed that level of
substantiation.” Pantron I Corp., 33 F.3d at 1096; John
Beck Amazing Profits, LLC, 865 F. Supp.2d at 1067.
Under FTC guidance to advertisers of dietary
supplements, claims about the efficacy of dietary
supplements must be supported by “competent and
reliable scientific evidence,” which the FTC defines as
“tests, analyses, research, studies or other evidence, based
on the expertise of professionals in the relevant area,
that have been conducted and evaluated in an objective
manner by persons qualified to do so, using procedures
generally accepted in the profession to yield accurate
and reliable results. See FEDERAL TRADE COMMISSION,
Dietary Supplements: An Advertising Guide for Industry
(2001), at https://www.ftc.gov/system/files/documents/
plain- language/bus09-dietary-supplements-advertisingguide-industry.pdf (last accessed October 7, 2016), at 9.

117a
Appendix D
The FTC lists a number of factors (known as the Pfizer
factors) to considering the appropriate amount and type
of substantiation:
• The Type of Product. Generally, products
related to consumer health or safety require
a relatively high level of substantiation.
• The Type of Claim. Claims that are difficult
for consumers to assess on their own are
held to a more exacting standard. Examples
include health claims that may be subject
to a placebo effect or technical claims
that consumers cannot readily verify for
themselves.
• The Benefits of Truthful Claims and
The Cost/Feasibility of Developing
Substantiation for the Claim. These
factors are often weighed together to ensure
the valuable product information is not
withheld from consumers because the cost
of developing substantiation is prohibitive.
This does not mean, however, that an
advertiser can make any claim it wishes
without substantiation, simply because the
cost of research is too high.
• The Consequences of a False Claim. This
includes physical injury, for example, if a
consumer relies on an unsubstantiated claim
about the therapeutic benefit of a product

118a
Appendix D
and foregoes a proven treatment. Economic
injury is also considered.
• The Amount of Substantiation that
Experts in the Field Believe is Reasonable.
In making this determination, the FTC
gives great weight to accepted norms in the
relevant fields of research …. Where there
is an existing standard for substantiation
developed by a government agency or other
authoritative body, the FTC accords great
deference to that standard.
Id. at 8-9. A guiding principle for determining the amount
and type of evidence needed is what experts in the relevant
area of study would consider to be adequate. Id. at 10. The
FTC will look at the amount and type of substantiation.
For example, the most reliable evidence comes from wellcontrolled human clinical trials. Id. It will look at the
quality of the evidence by examining the validity of the
methodology used in any clinical trials. Id. at 12. The FTC
cautions advertisers not to rely on the fact that a study was
published as proof of scientific reliability without assessing
the quality of the research. Id. The FTC also requires that
advertisers of dietary supplements consider the totality of
the scientific evidence and not cherry pick the studies that
support their claims and ignore conflicting study results.
Finally, the studies on which an advertiser is relying must
be relevant to the claims being made in ads:
Therefore, advertisers should ask questions
such as: How does the dosage and formulation

119a
Appendix D
of the advertised product compare to what was
used in the study? Does the advertised product
contain additional ingredients that might alter
the effect of the ingredients in the study? Is
the advertised product administered in the
same manner as the ingredient used in the
study? Does the study population reflect the
characteristics and lifestyle of the population
targeted by the ad? If there are significant
discrepancies between the research conditions
and the real life use being promoted, advertisers
need to evaluate whether it is appropriate to
extrapolate from the research to the claimed
effect.”
Id. at 16. “Claims that do not match the science, no matter
how sound that science is, are likely to be unsubstantiated.”
Id.
3.

Materiality

Implicit in the term “deceptive” in the CPA is “the
understanding that the actor misrepresented something
of material importance.” Hiner v. Bridgestone/Firestone,
Inc., 91 Wn. App. 722, 730, 959 P.2d 1158 (1998), rev’d
on other grounds, 138 Wn.2d 248, 978 P.2d 505 (1999);
Stephens v. Omni Ins. Co., 138 Wn. App. 151, 166, 159
P.3d 10, 18–19 (2007), aff’d sub nom. Panag v. Farmers
Ins. Co. of Washington, 166 Wn. 2d 27, 204 P.3d 885
(2009). Express claims, deliberately implied claims, and
claims that “significantly involve health,” are presumed
material. Kraft, Inc. v. F.T.C., 970 F.2d 311, 322-3 (7th Cir.

120a
Appendix D
1992); F.T.C. v. COORGA Nutraceuticals Corp., 2016 WL
4472994, at *3 (D. Wyo. 2016). A presumption of actual
reliance by consumers arises once the State proves that
the defendant made material misrepresentations, that
they were widely disseminated, and that consumers
purchased the defendant’s product. F.T.C. v. Figgie Int’l,
Inc., 994 F.2d 595, 605 (9 th Cir. 1993).
F. ANALYSIS
1.

Living Essentials’ Vitamin Claims are not
deceptive.

Living Essentials’ claims that that B vitamins
promote energy and amino acids promote alertness and
focus are not deceptive. Nutritional science supports
the general proposition that the vitamins and nutrients
in 5-Hour ENERGY® are physiologically beneficial,
even to healthy, well-nourished adults. They support
metabolism which affects energy. They can help reduce
fatigue. They can help increase blood flow to the brain
and support the generation of neurotransmitters, which
can affect alertness and focus. Dr. Kennedy’s testimony
regarding the general health benefits of B vitamins,
choline, taurine, and L-tyrosine, was compelling and
credible. Dr. Sanford Bigelow testified credibly that the
dosages found in 5-Hour ENERGY® are sufficient in
quantity to provide the claimed benefits. There is adequate
scientific substantiation predating July 2012 to support
Living Essentials’ claim that the vitamins and nutrients
in 5-Hour ENERGY® help promote energy, alertness and
focus. For this reason, the Court finds that the State has

121a
Appendix D
not established that Living Essentials’ Vitamins Claims
violated the CPA.
2.

Living Essentials’ Superior to Coffee Claims
are deceptive.

Living Essentials, however, claims that the B vitamins
and amino acids do not just promote energy, alertness and
focus. Living Essentials also claims that these vitamins
and amino acids work synergistically with caffeine (or
interacts with caffeine) to enhance the duration of the
energy, alertness and focus derived from caffeine.7 This
is the takeaway of the Superior to Coffee Claims. Living
Essentials advertised that the combination of caffeine, B
vitamins and amino acids would provide energy that would
last longer than consumers would experience from a cup
of premium coffee (and in some of the ads, longer than 3
or 4 cups of coffee).
While the Court finds competent and reliable scientific
evidence that caffeine in 5-Hour ENERGY® is probably
interacting with its B vitamins, taurine, glucuronolactone,
and other non- caffeine ingredients, the Court cannot find
that this evidence supports the specific benefit Living
Essentials is claiming. Dr. Kennedy’s summary of the
7. Although some of the studies suggest that caffeine does
not improve episodic memory, and that 5-Hour ENERGY® provides
some improvement in this area, none of Living Essentials’ ads claim
such a benefit from the product. Carl Sperber testified that he was
not even aware of what “episodic memory” was. He certainly did not
use these words in any Living Essential ads. These studies are thus
irrelevant to the Court’s analysis.

122a
Appendix D
scientific literature does show some different physiological
results from caffeine plus vitamins or caffeine plus amino
acids, but the results are not the benefits touted by Living
Essentials. The Giles study, for example, actually supports
the proposition that taurine counteracts the caffeine,
rather than enhancing its effects. The studies do not
clearly establish that 5-Hour ENERGY®’s vitamins and
nutrients work synergistically with caffeine to make these
benefits last longer than they would last with caffeine
alone.
As set out in the FTC dietary supplement guidelines,
the substantiation must be relevant to the claimed
benefits. None of the studies Living Essentials submitted
to the Court support the claim that combining specific B
vitamins, taurine, choline, glucuronolactone and tyrosine
with caffeine will cause the energy, alertness and focus
effects of caffeine to last longer than if the caffeine were
consumed alone. Neither Glade nor NERAC examined
this issue. The only corporate representative to testify
regarding the substantiation Living Essentials relied on
when airing its ads was Carl Sperber. Sperber cited the
Medicus Study as the only substantiation he was aware
of, other than his own Internet research. But the Medicus
study had no separate caffeine arm against which to
compare 5-Hour ENERGY®.
At trial, Living Essentials presented several studies
on which it now relies to substantiate its Superior to Coffee
Claims. Living Essentials points to the 2013 Nagrecha
Study, the 2015 Molnar Study and the 2015 Paulus Study.
The Court has reviewed each study presented and the

123a
Appendix D
testimony of the experts regarding these studies and
finds none that are sufficiently relevant to substantiate
the Superior to Coffee Claims. The Nagrecha study has
limited relevance because its test subjects underwent
only one round of testing 40 minutes after ingesting the
caffeine/choline drink. There is no data in the Nagrecha
study to indicate that adding choline to a caffeinated drink
extends the benefits of caffeine past that 40 minute mark.
The 2015 Paulus study compared 5-Hour ENERGY®
to a Starbucks DoubleShot and to caffeine by itself. In
his tests, Paulus found that the 5-Hour ENERGY group
outperformed the other two groups. But the Court finds
the methodological problems, specifically the lack of
blinding of the participants and lack of other controls, to
be significant enough to render the Paulus Study results
unreliable.
The 2015 Molnar Study comes the closest. Molnar found
a significant improvement in endothelial function (blood
flow) 1 ½ and 4 hours after the subjects consumed 5-Hour
ENERGY® and Red Bull, and no similar improvement in
endothelial function was seen for those ingesting NOS or
coffee. Dr. Blonz testified that the Molnar study was not
relevant to the claims Living Essentials was making in the
ads because Molnar did not test cognitive functioning to
evaluate energy, alertness and focus. Molnar was merely
looking at endothelial function as a proxy for coronary
function. Dr. Kennedy disagreed and testified that
endothelial function is a measure of how well the body is
delivering blood on demand to the brain. In Dr. Kennedy’s
opinion, the more blood delivered to the brain, the better

124a
Appendix D
the cognitive functioning. But the Bloomer study concluded
that neither caffeine nor 5-Hour ENERGY® resulted in an
improvement in subjective feelings of energy or mood or
in objective cognitive performance, seeming to undercut
the reasonability of relying on Molnar as substantiation
for Living Essentials’ claims.
Ultimately, the question the Court confronts is
whether the Molnar study, by itself, suffices to substantiate
the efficacy claims Living Essentials made in ads years
before the study was published and whether it now suffices
to justify these claims. Dr. Beales opined that very little
substantiation should be required because “there is not
very much at stake for consumers” under the factors
set out in Pfizer, Inc., 81 F.T.C. 23, 62 (1972). The Court
rejects this opinion. Because the Court finds that Living
Essentials’ ads relate to consumer health, the Court
concludes that the better approach is that set out in the
FTC dietary supplement guidelines: “Generally, products
related to consumer health or safety require a relatively
high level of substantiation.”
After careful consideration, the Court finds that
Living Essentials lacked adequate competent and reliable
scientific evidence to make the Superior to Coffee Claim.
First, Dr. Kennedy admitted that there is no study that
has looked at the effects of the combination of ingredients
in 5-Hour ENERGY® on energy, alertness and focus
as compared to caffeine. He also conceded that there is
no evidence that the addition of multivitamins, taurine,
or glucuronolactone to a caffeinated energy drink will
cause greater improvement in physical and cognitive

125a
Appendix D
performance that can be attributed to the effects of
caffeine alone. As he testified, “At this stage, we don’t
know which of the other micronutrients [or] the other
bioactives [] interact with caffeine.” He opined that a
number of different non-caffeine ingredients in 5-Hour
ENERGY® could be interacting to extend one’s energy,
alertness and focus, but there are studies that support
this hypothesis and there are studies that undermine it.
Second, caffeine may not improve endothelial
function for as long as 5-Hour ENERGY® does. It does
not necessarily follow, however, that caffeine’s impact on
cognitive performance ends when its impact on endothelial
function ends. Dr. McLellan testified that caffeine can
cross the blood/brain barrier and, because of its halflife, remains in and affects cognitive performance for a
significant period of time. Living Essentials is claiming
that 5-Hour ENERGY® works better than caffeine alone
in sustaining energy, alertness and focus over several
hours. This claim is certainly plausible, given the science
presented to the Court, but it remains a hypothesis, not
an established scientific fact.
The Court finds that the Superior to Coffee claims
were express claims and are thus material under the CPA.
The ads expressly state that people who drink 5-Hour
ENERGY® will experience hours of energy, alertness
and focus because the vitamins and nutrients extend the
effects of caffeine. There is insufficient scientific evidence
to support this express health-related claim. The Superior
to Coffee Claims are thus materially misleading.

126a
Appendix D
For these reasons, Living Essentials violated the
CPA when it aired or disseminated ads that expressly
or impliedly stated that the energy, alertness and focus
derived from 5-Hour ENERGY® will be greater than or
last longer than any similar physiological benefits derived
from coffee.
3.

The Decaf ads are deceptive.

The Court finds that Living Essentials lacks competent
and reliable scientific evidence to claim that Decaf 5-Hour
ENERGY® will generate energy and alertness that “lasts
for hours.”8 Dr. Bigelow testified that Living Essentials
acted reasonably in relying on the 2010 Glade Report
and the 2007 NERAC Report to substantiate this decaf
claim. The Court does not find this testimony credible. Dr.
Glade relied on taurine studies that demonstrated that
daily dietary supplementation of taurine in 3000 mg or
more increased metabolizable energy that could last for
at least four hours. Decaf 5-Hour ENERGY® contains
only 483 mg of taurine. The FTC guidelines on dietary
supplements specifically cautions advertisers from relying
on studies the conclusions of which are based on very
different dosages. Such is the case here with the taurine
studies on which Dr. Glade relied. Dr. Glade also cited
studies for the proposition that the daily intake of between
6 mcg and 5000 mcg of B12 supports the production of
energy within 2 hours of consumption and for 12 to 24
hours after consumption.
8. The Court dismissed the State’s challenge to representations
in Exhibit 641 as non-actionable on Living Essentials’ CR 41(b)(3)
motion.

127a
Appendix D
Dr. Kennedy testified that the 2015 Shah Study
demonstrated that both caffeinated and decaffeinated
energy drinks “significantly” boosted energy level one
hour after consumption. But the chart on which Dr.
Kennedy relies (Ex. 2254, slide 65) actually shows that
the decaf energy level test results at the 3 hour mark were
not statistically significant. And the 2013 Kurtz study also
found that consumers drinking Decaf 5-Hour ENERGY®
experienced no energy benefits from the ingredients in
the drink.
While there is competent and reliable scientific
evidence to support a claim that the Decaf 5-Hour
ENERGY® shot may provide a short-term benefit in
terms of energy, the science is insufficient to substantiate
the claim that this benefit will endure over a five hour
period.
For this reason, the Court finds the Decaf Claims to
be materially misleading and a violation of the CPA.
4.

The “No Crash” ads are not deceptive.

The State contends that Living Essentials claims that
consumers will experience no sugar or caffeine crash after
drinking 5-Hour ENERGY. The main problem with the
State’s allegation is that there appears to be no accepted
meaning of the word “crash” when applied to energy
drinks. Dr. Pratkanis testified that the phrase “crash
feeling” is left open to the consumer to interpret any way
they feel in their experience. Dr. Blonz interpreted the
term “crash” as a non-scientific term dealing with caffeine
withdrawal effects.

128a
Appendix D
By 2007, Living Essentials began to use the phrase
“no crash” to mean “no sugar crash,” or the absence of
the sudden feeling a consumer may experience following
ingestion of sugar (which 5-hour ENERGY® does not
contain). Because there is no sugar in 5-hour ENERGY®,
a person will not experience a “crash” relating to a drop
in glucose levels after consuming the 5- hour ENERGY®
products. Each of Living Essentials’ ads referencing
“crash” after July 17, 2012 contained an asterisk directing
consumers to a statement that “no crash means no sugar
crash,” or contained only the language “no sugar crash.”
The Court rejects Dr. Blonz’s theory that the term
“crash” in the 5-hour ENERGY® advertisements refers
to feelings of fatigue or tiredness that a person who is
habituated to caffeine may experience after not having
had caffeine for a certain period. There is no empirical
evidence for the existence of a caffeine-related crash.
Habituation does not develop after a single ingestion of
caffeine, and a caffeine-related “crash” is physiologically
implausible because of caffeine’s half-life. Dr. Blonz cited
no studies showing evidence of a “caffeine crash.”
The State has failed to establish that Living
Essentials’ “no crash” claims are misleading or deceptive
under the CPA.
5.

The Ask Your Doctor Ads were deceptive under
the CPA.

The Court finds that the net impression from the AYD
ads was that a substantial majority of doctors believe

129a
Appendix D
5-Hour ENERGY® is a safe and effective nutritional
supplement that they would recommend to their patients.
While the statistics displayed in the ads and the words
used in the ad were literally true, the impression left by
the ads was not. Dr. Anthony Pratkanis, an expert in
the science of consumer behavior and persuasion tactics,
testified credibly that the clear takeaway from these ads
was that “doctors would recommend” 5-Hour ENERGY®.
The Court agrees.
First, Sperber testified that when he developed the
script, he wanted to allay consumers’ concerns about
the safety or nutritional value of 5-Hour ENERGY® by
indicating that doctors would recommend the product.
Neither of the surveys (Ex. 436; Ex. 627) asked physicians
if they thought 5-Hour ENERGY® was healthy or
safe. Instead, the doctors were informed that 5-Hour
ENERGY® low fat, low calorie, low sodium, sugar-free
drink. The survey then asked if the physicians would
recommend 5-Hour ENERGY® for healthy patients who
already use energy supplements:

Dr. Pratkanis testified that the survey questions were
biased, leading, and designed to elicit a limited response.
Due to the phrasing of the questions that preceded this
question, a “no” response to this question suggested that

130a
Appendix D
the responding doctor would instead recommend a high
fat, high calorie, or high sodium energy supplement,
rather than allowing doctors the option of saying they
do not recommend energy supplements at all. It is thus
not surprising that 47 percent of the doctors responding
to the online survey responded in the affirmative, and 74
percent of the doctors responding to the paper survey
responded in the affirmative.
Second, the statistics Living Essentials presented in
the ads (“over 73%”) were the results of the online survey
of 503 doctors, but the reference to “3,000 doctors” was
a combination of both surveys. Although the statistics
in the AYD ads were technically an accurate depiction
of the online survey, the statistics presented in the ad
were only accurate for responses from 503 doctors, not
for responses from 3,000 doctors, as the ads state. The
Court finds credible Dr. Pratkanis’s testimony that the
survey methods used for the online survey and the paper
survey differed so dramatically that the surveys could
not reasonably be combined and represented as the same
survey. The 2,600 doctors who participated in the paper
survey were not randomly selected. They were specifically
chosen by sales representatives making sales calls on
doctors’ offices. Yet, the company presented the statistics
in a way that would lead a reasonable viewer to believe
that 73% of 3,000 doctors surveyed would recommend this
product to their patients.
Living Essentials argues that even if the ads were
not accurate, they were not materially misleading. They
presented Dr. Christopher Stomberg, an expert on

131a
Appendix D
econometrics (the application of statistics to economic
questions) who testified that the online survey statistic
results contained in the AYD ads were accurate and
representative of the opinions of primary care doctors
across the United States. Living Essentials argues that
because the survey results were representative of what
3,000 randomly selected primary care doctors would
have said had they been surveyed in a scientifically valid
manner, the ads cannot be found to be misleading in any
material way.
G. CONCLUSIONS OF LAW
Based on the analysis set out above, the Court
concludes the following:
1. The State failed to prove that Living Essentials
violated the Consumer Protection Act when it aired
or published ads that indicated that the non-caffeine
ingredients in 5-Hour ENERGY® promote energy,
alertness and focus.
2. Living Essentials violated the Consumer Protection
Act when it aired or published ads that represented that
the energy, alertness and focus from 5-Hour ENERGY®
lasts longer than a cup of coffee because of the synergistic
or interactive effects of caffeine, B vitamins and nutrients
in the product.
3. Living Essentials violated the Consumer Protection
Act when claimed in a press release and on its web site that
Decaf 5-Hour ENERGY® will provide energy, alertness
and focus that lasts for hours.

132a
Appendix D
4. The State failed to prove that Living Essentials
violated the Consumer Protection Act when it aired or
published its “no crash” ads.
5. Living Essentials violated the Consumer Protection
Act when it aired the Ask Your Doctor ads.
At trial, the parties agreed to postpone a remedy
phase of the proceeding until the Court issued this
decision. The parties shall contact the Court’s bailiff to
schedule a status conference in this matter.
		

DATED this 7th day of October, 2016.
				
Honorable Beth M. Andrus
King County Superior Court

133a
AppendixOF
E THE SUPERIOR
APPENDIX E — ORDER
COURT OF THE STATE OF WASHINGTON,
COUNTY OF KING, FILED AUGUST 1, 2016
IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
No. 14-2-19684-9 SEA
STATE OF WASHINGTON,
Plaintiff,
v.
LIVING ESSENTIALS, LLC, et ano.,
Defendant.
ORDER DENYING MOTION FOR
RECONSIDERATION
THIS MATTER is before the Court on the State’s
Motion for Reconsideration of the Court’s Order Denying
Summary Judgment. The Court has reviewed the State’s
Motion, the Defendant’s Response and the State’s Reply as
well as the electronic court record. The State has raised
the following issues in their motion:
1.

Can the Defendant’s failure to substantiate their
advertising claims before those claims are made
be an unfair or deceptive act or practice under

134a
Appendix E
the CPA? Yes. But whether or not the Defendants
had adequate substantiation prior to running
their ads is a question of fact.
2.

What evidence is required to show that an act or
practice has the capacity to deceive a substantial
portion of the public? This is a factual question
that should be addressed at trial.

3.

Can a statement capable of being substantiated
also be non-actionable puffery? Defendant’s
subjective claims that 5HE increases users’
feelings of energy and alertness are not capable
of being substantiated by competent and reliable
scientific evidence and are therefore puffery.

I T IS OR DERED t h at t he St at e’s Mot ion for
Reconsideration is DENIED.
IT IS FURTHER ORDERED that the State’s alternative
request that this court certify these issues for immediate
review under CR 54(b) is DENIED. The Court of Appeals
can review all of these issues at the conclusion of the trial.
Dated this 1st day of August, 2016.
/s/				
The Honorable Mariane C. Spearman

135a
AppendixOF
F TRANSCRIPT OF
APPENDIX F — EXCERPT
PROCEEDINGS OF THE SUPERIOR COURT OF
THE STATE OF WASHINGTON IN AND FOR THE
COUNTY OF KING, DATED SEPTEMBER 8, 2016
[1822]IN THE SUPERIOR COURT OF THE
STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
No. 14-2-19684-9 SEA
COA NO. 76463-2-I
STATE OF WASHINGTON,
Plaintiff,
vs.
LIVING ESSENTIALS, LLC, A MICHIGAN
LIMITED LIABILITY COMPANY, AND
INNOVATION VENTURES, LLC., A MICHIGAN
LIMITED LIABILITY COMPANY,
Defendants.
THE HONORABLE BETH ANDRUS, JUDGE
REPORTER’S TRANSCRIPT OF
PROCEEDINGS HELD ON
September 8, 2016
***

136a
Appendix F
[1989] court to Hangman Ridge, which actually was
the first case to really confirm what the public interest
standard was, because before that there was some dispute.
The Anhold case was a case that was often cited, that
did have an injury element in it, and in Hangman Ridge
the court definitively says, “Here’s the factors we’re going
to use, in terms of public interest.”
They kind of divided it in two. There are factors
they use when it’s a consumer transaction, and those
are the ones I presented today; there are factors to use
when, I would say, in more of a business, one-on-one type
of situation, but Hangman Ridge is what we look to to
determine public interest impact.
The other quirky thing about it is that in the last 10
years the legislature sought fit to amend the CPA, it’s
Section 4.3, to provide a test whereby private plaintiffs
can use that statute to demonstrate public interest impact,
but, on its face, it doesn’t apply to the State, so we’re still
stuck with Hangman Ridge. But, in any case, that is the
appropriate standard for determining whether there’s a
public interest impact.
Consumer complaints. This continues to be a red
herring, and I can represent to the court that in pretty
much every investigation that our office opens and pretty
much every enforcement action that we file, we hear
about [1990]this from the defendant or the party, we don’t
have any consumer complaints. And it really is -- we do
sometimes, sometimes we don’t, but they’re not required.

137a
Appendix F
They’re not required for us to initiate investigation, to
send a civil investigative demand, and they’re not required
-- we’re not required to have consumer complaints to file
an action.
The reason for that is pretty clear. Hangman Ridge
points out that the whole purpose of the capacity to deceive
test is to detour deceptive conduct before the injury
occurs. There’s absolutely nothing in Washington Supreme
Court decisions or in the statute that requires the State
to have consumer complaints, one, two, or any number,
before filing an action. It’s not material to the elements
the court -- the State must prove, because we don’t have
to prove injury, we don’t have to prove causation. It’s not
like a class action, where you would have to show some
type of reliance and that consumers had standing and
seen the ad and so on.
I think -- let’s see. I think the only other issue that I
wanted to address was counsel’s point -- and I think he
used the word “shocking” -- that there was nothing in Dr.
Blonz’s testimony or nothing in Dr. Blonz’s report about
caffeine, which is absolutely incorrect, and I won’t -- unless
the court would like, I
****

138a
AppendixOF
G TRANSCRIPT OF
APPENDIX G — EXCERPT
PROCEEDINGS OF THE SUPERIOR COURT OF
THE STATE OF WASHINGTON IN AND FOR THE
COUNTY OF KING, DATED SEPTEMBER 7, 2016
[1725]IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
No. 14-2-19684-9 SEA
COA No. 76463-2-I
STATE OF WASHINGTON,
Plaintiff,
vs.
LIVING ESSENTIALS, LLC,
Defendants.
VERBATIM REPORT OF PROCEEDINGS
Heard before:
Date:
Time:

The Honorable Beth Andrus
September 7th, 2016
1:30 p.m.
***

[1727]caffeine interacts with many other bioactive
compounds in a way where it’s the combination effects
may be different from the individual parts.

139a
Appendix G
Q. Thank you. To your knowledge, from your
perspective, do the federal regulatory requirements
require that an advertiser be able to explain the specific
mechanisms of action of one of its products?
A. No, they don’t. The focus is on the product
performance and not on what specific aspect of the product
it is that produces that performance.
Q. So just bring that example home. Must an
advertiser be able to tease out, for example, if B vitamins
are a contributing factor to energy in order to make a
claim, “B vitamins for energy” on a product that provides
energy?
A. If the product provides energy, I mean, that is
the key. And that’s the performance feature that is what
consumers are interested in. Teasing out the role of the
individual ingredients in producing that effect is not
necessary, it has to have vitamin B. But other than that,
I don’t believe there is any requirement.
Q. So let’s take just a hypothetical example here. If
you have a product with a randomized clinical trial that
concludes that the product provides energy and you have
studies saying that ingredients in that product, [1728]say,
B vitamins, contribute generally to energy, from a federal
regulatory perspective, do you have a reasonable basis to
say, for example, “B vitamins for energy”?
A. I think you do. The product delivers the core benefit.
There is literature that indicates B vitamins contribute

140a
Appendix G
to that and -- in part, because I think the standard is
low for what you need to substantiate, the mechanism of
action part of the claim. I think that’s a reasonable basis
for saying the B vitamins are for energy.
Q. Now, let’s advance to the next slide. Did you also
evaluate the claims in the -- to the extent implied, claims
were made relating to, “Superior to coffee or to caffeine
alone”?
A. I did.
Q. And what was your -- what’s your opinion, from
a federal regulatory perspective, as to whether the
defendants had a reasonable basis to substantiate any
such implied claims?
A. I thought claims that it was -- that 5-Hour ENERGY
was superiority to caffeine alone were supported by
competent, reliable scientific evidence.
Q. Okay. And you list, again, a number of studies. Let’s
just take each one. And you list Paulus. [1729]Explain to
the Court how Paulus -- the Paulus study here informs
your opinion.
A. The Paulus study is the most direct comparison
because it is -- it is 5-Hour ENERGY versus, among other
things, Starbucks Double Shot and versus caffeine alone.
And what it shows is superiority for 5-Hour ENERGY
in the parameters that Paulus measured. Also, I think
significant is the Molnar study, which looked at endothelial
function. It finds endothelial function effects from

141a
Appendix G
5-Hour ENERGY that are not attributable to caffeine
alone. Again, it has a direct caffeine comparison. I think
the Kennedy report, again, is particularly important
here because of the evidence that he cites that caffeine
interacts with other bioactive compounds. It’s clear from
the literature about some of the other ingredients, that
they are bioactive compounds. And in the presence of an
interaction with caffeine that produces the superiority
results, it is something that is superior to caffeine alone.
I think the Wesnes study also supports that conclusion.
Wesnes finds effects on aspects of cognitive function that
Kennedy says are not usually attributable to caffeine.
And if there is effects not attributable to caffeine that
are established in the Wesnes study, I think that, too, is
competent and [1730]reliable evidence, that’s scientific
evidence of superiority to caffeine alone.
Q. Thank you. Now, you make a reference to the -- and
court has heard a lot about the NAD decision, 2007. How
does that -- is that an element to this?
A. I don’t think it is, by any means, definitive. The FTC
would make its own evaluation of the evidence in figuring
out whether it thought the claims were substantiated or
not, were it to look at the same claims that the NAD did.
But it is -- I think the NAD process is one that is wellrespected, that numerous commissioners and high staff
officials at the FTC over many, many years have said is a
good and useful process. And any advertiser who had been
through a NAD review of its claims, where the NAD said
those claims were substantiated, would think reasonably
that it had adequate substantiation for the claims that
NAD had reviewed.

142a
Appendix G
Q. Now, let’s move to the next slide. Did you also
evaluate, from a federal regulatory perspective, whether
the defendants had a reasonable basis for any decafrelated advertising claims?
A. I did. I think they do have a reasonable basis for
the decaf version of the product. I note, in looking at
the evidence that the product is marketed, in the [1731]
advertising that I saw, to people who are sensitive to
caffeine, who are sort of self-identified as sensitive to
caffeine, and there is some caffeine in it, albeit not very
much. Second, I think the studies we have already talked
about show that the non-caffeine ingredients contribute to
the effects of 5-Hour ENERGY, and that that is, I mean,
all of that evidence bears on the reasonable basis for
claims for the decaffeinated version, because those other
ingredients are contributing based on the other studies.
I would point, in particular to -- I mean, for the claims
for the increases in energy, alertness and focus, I would
point to the Kennedy report, who reached that conclusion
based on his review of the evidence and the nature of the
interaction between even small amounts of caffeine and
other bioactive substances. And I would also cite the Kurtz
study, which looked at -- which looked at the decaffeinated
version of 5-Hour ENERGY and found -- it found the
blood pressure effects that were attributable to caffeine
in the caffeine group, but it didn’t find any difference in
the level of energy between the caffeinated product and
the decaffeinated product.
Q. Now, moving forward, the last category of claims,
did you evaluate -- you can advance the slide -- the no
****

143a
Appendix OF
H TRANSCRIPT OF
APPENDIX H — EXCERPT
PROCEEDINGS OF THE SUPERIOR COURT OF
THE STATE OF WASHINGTON IN AND FOR THE
COUNTY OF KING, DATED SEPTEMBER 6, 2016

[1575]IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
THE HONORABLE BETH ANDRUS, JUDGE
STATE OF WASHINGTON,
Plaintiff,
vs.
LIVING ESSENTIALS, LLC, A MICHIGAN
LIMITED LIABILITY COMPANY, AND
INNOVATION VENTURES, LLC., A MICHIGAN
LIMITED LIABILITY COMPANY,
Defendants.
No. 14-2-19684-9 SEA
COA NO. 76463-2-I
REPORTER’S TRANSCRIPT
OF PROCEEDINGS HELD ON
September 6, 2016
AFTERNOON SESSION, 2:55 P.M.
***

144a
Appendix H
[1602]Q. Let’s go to the next slide.
Did you also evaluate whether defendants had, from
an industrial standards point of view, from an industry
standard perspective, whether defendants complied with
industry standards in substantiating any implied claims
that 5-hour ENERGY may be superior to caffeine or
coffee?
A. Yes. After looking at the complaint, I also reread
the literature reviews and expert opinions that NERAC
played in Kennedy, all of which consistently showed that
non-caffeine ingredients contributed to feelings of energy,
alertness, and focus.
Q. Did you also evaluate -- I don’t want to go through
those reports again, I think we’ve been through them,
but the clinical studies in connection with evaluating
whether defendants met or exceeded the standard of care
for substantiating advertising claims about superiority
to coffee?
A. Yes. I note here that Blum and Medicus has
published as Wesnes, and I note here in the Wesnes 2013
in the conclusions that Wesnes provides his expert opinion
as the effects of caffeine are unlikely to account for these
effects, as benefits are generally seen in 90 minutes
following ingestion, and even in caffeine-deprived subjects.
And my sense is that if there is an implied claim of
[1603]superiority, there is evidence for -- insofar that
duration of effect is different, that the duration of effect

145a
Appendix H
of 5-hour ENERGY is superior to the one-hour, two-hour
effect that is commonly attributed to coffee consumption.
Q. Now, again, from an industry standards perspective,
do you have an opinion as to whether defendants would
act reasonably and within the industry standard of care
in making implied claims about superiority to coffee based
upon the literature reviews and clinical studies that you’ve
reviewed?
A. Yes, they acted within the industry standard of
care for these implied claims.
Q. Go to the next slide.
Did you also review the materials relating to any decaf
claims, claims about the decaf product?
A. Yes, I did.
Q. And what did you review in connection with
evaluating whether defendants met the industry standard
of care to the extent they made any claims about the decaf
product?
A. They have commissioned Glade to look at a whole
host of claims in 2010, and he came up with confident and
reliable scientific evidence for all of them.
Published findings demonstrated that the decaf
ingredients were beneficial for focus, alertness, and [1604]
energy metabolism.

146a
Appendix H
Q. Now, can you take a look at Exhibit 2079, please.
Exhibit 2079, what is Exhibit 2079?
A. It’s Glade 2010, as I’ve listed here on my slide.
Q. Okay. Did you review Exhibit 2079 in evaluating
whether defendant met the industry standard of care with
respect to any decaf claims that have been made?
A. Yes, I did.
Q. What was Dr. Glade asked to evaluate in the 2010
report?
A. He was asked to evaluate the scientific validity
of several specific statements concerning the 5-hour
ENERGY decaf dietary supplement product.
Q. And my review of the first three pages of Exhibit
2079, there’s many advertising statements; is that fair?
A. Certainly more than 20.
Q. Did you note any that specifically related to decaf?
A. Yes. I noted, hours of energy, no crash later, Decaf
5-hour ENERGY can provide hours of alertness and focus
without making you feel jittery, and the next claim, are
you sensitive to caffeine but still need a little extra energy
to get through your day, then try Decaf 5-hour ENERGY
shots. It can provide alertness and focus you want, without
the caffeine feeling you don’t.

147a
Appendix H
Q. In reviewing advertisements in this case, did you
see any ads that actually say the things you just read from
[1605]Exhibit 2010?
A. There’s like a vitamin shot, and at the bottom of it
it said bright, alert, I think, for the decaf product.
Q. Okay, and in your experience, do businesses and
advertisers sometimes commission advertising clinics for
evaluation and never use them?
A. Very often.
Q. Did you evaluate, in Exhibit 2079, Dr. Glade’s
conclusions with respect to claims about decaf, specifically?
A. I did look through the document, and I did look at
those two particular claims, the last two ones.
Q. What were Dr. Glade’s conclusions with respect to
the advertising claims and evaluation you did in Exhibit
2079?
A. The two claims I’m referring to, alertness and focus,
are described on pages 29, 30, and 31, and with respect
to the claimed Decaf 5-hour ENERGY can provide hours
of alertness and focus without making you feel jittery, he
states, in sum, the quoted statement is well supported by
competent and reliable and scientific evidence. The studies
documenting the claimed effects are not controversial and
are well designed, in accordance with generally accepted
scientific principles and procedures.

148a
Appendix H
Q. Now, was it -- in your opinion, was it reasonable
within [1606]the industry standard of care to commission
Dr. Glade to do a second literature review in connection
with now decaf claims?
A. Yes, it was.
Q. In your opinion, would it be reasonable within the
industry standard of care for the company to rely upon the
Glade 2010 report in connection with advertising claims it
might have made with respect to the decaf product?
A. Yes, it is reasonable.
Q. You, again, list the expert opinion of Dr. Kennedy
as informing your view of defendants’s standard of care
conduct.
How did Dr. Kennedy’s opinion inform your opinions
here with respect to decaf claims?
A. I have it here for clarity. Again, with the value of
an expert opinion who works in this field, looks at the
cognitive effects -- the nutrient action on cognitive effects
in humans, decaf ingredients can result in acute change
to physiology, relevant to energy metabolism and brain
function, especially in relation to cognitive function.
Q. Now, given the opinions expressed by Dr. Kennedy
in this case, in your opinion would -- did the defendants
act reasonably and within the industry standard of care in
[1607]making claims about the decaf product with respect
to energy, metabolism, or cognitive function?

149a
Appendix H
A. Yes.
Q. Now let’s flip to the next slide, please.
Did you also evaluate defendant claimed substantiation
efforts in connection with the no crash claim?
A. Yes.
Q. And what did you review as part of the claimed
substantiation work for that no crash advertising claim?
A. I reviewed the two literature reviews, NERAC and
Glade, and who both found independently that there’s no
scientific literature attributing any crash to any of the
ingredients in 5-hour ENERGY.
Q. Now, in reviewing the NERAC, did they have a
section in the NERAC report about no crash later that
addressed that claim?
A. Yes, they did.
Q. There’s been some testimony -- do you recall a
citation to Wikipedia?
A. Yes, I do.
Q. Did that cause you any pause or concern, from an
industry standard of care point of view, as you evaluate
the NERAC report as substantiation for the claim, no
crash later?

150a
Appendix H
A. It’s not a problem for me. When I conduct my
literature reviews, I’ll often look at a Wikipedia cite as
a first
****

151a
AppendixOF
I TRANSCRIPT OF
APPENDIX I — EXCERPT
PROCEEDINGS OF THE SUPERIOR COURT OF
THE STATE OF WASHINGTON IN AND FOR THE
COUNTY OF KING, DATED SEPTEMBER 1, 2016
[1206]IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
NO. 14-2-19684-9 SEA
COA NO. 76463-2-I
A.M. SESSION
STATE OF WASHINGTON,
Plaintiff,
vs.
LIVING ESSENTIALS, LLC, A MICHIGAN
LIMITED LIABILITY COMPANY, AND
INNOVATION VENTURES, LLC., A MICHIGAN
LIMITED LIABILITY COMPANY,
Defendants.
THE HONORABLE BETH ANDRUS, JUDGE
REPORTER’S TRANSCRIPT OF
PROCEEDINGS HELD ON September 1, 2016
***

152a
Appendix I
[1259]well-nourished individuals, just taken from the
population.
In terms of Taurine, we know that it’s bioactive, it has
physiological energy consequences, so it’s the endothelia
function, and also has independent effects on cognitive
function and mood. Tyrosine, we know that’s bioactive.
Again, we can sort of see physiological effects of taking
it, and well-established cognitive and mood effects, both,
at high doses with stress, but more recently at low doses,
without stress. Again, that can be detected in the brain
using EEG.
And then, finally, choline, again, we know that it’s
bioactive, we know that -- we can sort of see that it can
have cognitive function and mood effects, and, as I said,
physiological effects, for instance, the eye construction
and what have you, and it can be detected -- this activity
can be detected in the brain. So we can see that it’s having
a direct effect on brain function, using EEG to make
electrical activity.
My conclusion would be that all of these ingredients
can have an independent effect on the relevance of
promises.
MR. MULLIN: Your Honor, we’re going to go tie all
of this back to the Medicus study, just to give everybody
an idea where we’re headed on this.
[1260]So let’s move to -- let’s talk very briefly about – I
guess we’ll start with that question.

153a
Appendix I
Do the vitamins and amino acids in 5-hour ENERGY
have any impact on the effects of the caffeine content with
regards to increase in energy, alertness, mood, and/or
focus? What is your opinion on that.
A. My opinion is that I think they inevitably will have an
impact on the effects of caffeine in the product.
Q. Can you explain, what does that mean, before we go into
the detail? I mean, what’s -- what do you think is going on
with the caffeine and these bioactive ingredients?
A. Well, I think -- I reviewed -- this is the question I
also reviewed, and I looked for evidence of studies that
had been conducted in such a way that you could really
disentangle the effect of caffeine when it was administered
with other potentially bioactive components, and what I
found is that where it’s looked at, if you administer other
bioactive compounds with caffeine you, more often than
not, will see some kind of interactive effect. It might be an
additive effect, it can be a synergistic effect, but the effects
of the combination is different from caffeine by itself.
Q. And were you aware of an allegation from the first
amended complaint asserted by the State with respect
to this issue?
[1261]A. Yes. This was a key, many times repeated, sort
of scientific statements in the complaint, and as stated
above, any of the claimed effectiveness of original or
extra strength 5-hour is solely related to the concentrated
caffeine in defendant’s products.

154a
Appendix I
Q. Do you have an opinion as to whether or not that
statement is accurate?
A. Well, I know that statement is not based on any scientific
evidence, and the evidence that I have reviewed, which I’ll
present to you, would suggest that that is inaccurate.
Q. Why don’t we go ahead and look at your evidence with
respect to that.
A. Okay. So what I actually did was -- obviously there are
certain types of nutrients, so amino acids and vitamins
in the product, and there’s a certain amount of research
that’s looked at bioactive, that are not found in 5-hour
ENERGY, but I think it’s interesting to very briefly go
through those, because it shows that where you have other
bioactive compounds alongside caffeine, they modulate the
effects of caffeine, or vice versa.
Caffeine is not some kind of -- it’s been portrayed sort
of by Dr. McLellan as the only thing that has any kind
of psychoactive effects, and that is patently not the case.
Other things have psychological effect.
***
[1270]separate experiment, I have to say, so in this
one we looked at placebo, caffeine, L-Theonine, by itself,
and L-Theonine and caffeine, these two combined, and
what we found is that L-Theonine attenuated the effects
of caffeine. So we saw effects with the combination, which
wasn’t present for either of the individual components.

155a
Appendix I
Plus there was a greater effect to caffeine on
several cognitive tasks directly relevant, including word
recognition tasks, which is a measure of episodic memory.
Q. Is there -- we’ll do one more of the nine ingredients to
make the point.
What’s L, or -A. Do you want to do that, or do you want to go to the
next -Q. Let’s skip L -A. Okay.
Q. Why don’t we go to this study.
A. What’s interesting is what happened to this study, it was
just looking at energy metabolism, again, using indirect
calorimetry, a technique that we used in our study, and
the interesting thing is that when -- it’s Red Bull in this
case, but it’s sugar free Red Bull versus the caffeine in
sugar free Red Bull.
So in this case the -- so the green line is the sugar free
Red Bull, the pink line, I think, is the caffeine. [1271]And
what’s interesting is the two different statistical analyses
here, and what you actually see is this is all of the data
from the first 50 minutes sort of averaged in one analysis.
What you see is there’s no difference between the
Red Bull, which is the green, and the purple, which is

156a
Appendix I
the caffeine, on overall energy expenditure, but there
is a significant interaction between the two, in terms of
carbohydrate oxidation.
So Red Bull is having a different effect on carbohydrate
oxidation. There’s no carbohydrate in this product, it’s
sugar free, than caffeine, the same amount of caffeine by
itself, and similarly for -- this is fat oxidation, similarly,
there’s an interaction, as well.
So the effects of Red Bull minus any carbohydrates,
so just Red Bull versus the caffeine in Red Bull, there’s
a synergistic or interactive effect, whereby they have a
different effect on a key physiological measure.
Q. All right. Now, so -- I don’t know if, Your Honor, you
require a summary of all this. Why don’t we quickly
summarize the caffeine interactions, and then it will be
10:30, Your Honor; is that okay?
THE COURT: Yes.
A. Okay. So my review suggests -- and it’s an area I’ve
been interested in for some years, I’ve written a review
[1272]previously on this, showing -- talking about
interactions between caffeine and the other chemicals
that you get in caffeine synthesizing plants, but I find
there’s a consistent pattern whereby you consistently see
that caffeine interacts with other bioactive compounds
when they’re co-consumed, so that you could only -- you
can only come to the conclusion that the resultant -- the
effects of the resultant combination cannot be attributed
to caffeine alone.

157a
Appendix I
And just summarizing what I just did on that, these
are compounds not found in 5-hour ENERGY, and what
you see with all of these, so with tea, coffee, guarana, and
glucose, is clear effects of the combination that differ from
the effects of just the caffeine, or they differ between each
other because they have different bioactive similar effects,
and also compounds classes found in 5-hour ENERGY, all
of them differ, so the combinations always differ to the
effects of caffeine by themselves.
So it’s a very -- you know, across the literature,
across all sorts of different nutrients, different classes
of nutrients, including the type of compounds found in
5-hour ENERGY, caffeine always, when it’s measured, has
a different effect to the full product with other bioactive
ingredients in it.
Q. It’s the combination that makes it so great?
[1273]A. Yes.
MR. MULLIN: Okay. Your Honor, we can continue
with the summary, or do you want to take a break?
THE COURT: Let’s take our recess. We’ll take a
15-minute break.
(Recess)
MR. MULLIN: Thank you, your Honor.
BY MR. MULLIN:

158a
Appendix I
Q. Let’s goal to the next slide, and just summarize what
the scientific evidence shows with respect to each of these
ingredients in 5-hour ENERGY.
A. I think that the key thing, that all of them are bioactive.
That’s from the previous. And my sort of review of the
entire literature, looking at caffeinated products and the
studies which have parceled out the effects of caffeine,
shows that clearly there are interactions, when you
compare with bioactive performance.
Q.So the answer’s no?
THE COURT: I do not need it to be repeated. Thank
you.
THE WITNESS: Okay.
BY MR. MULLIN:
Q. So let’s go on and return to the results of the Wesnes
study, comparative caffeine, and this was a slide we saw
***
[1283]questions, move to the decaf product.
THE COURT: No, but let me catch up with my notes,
would you mind? That was just 2137 we just looked at,
right?
MR. MULLIN: It was, yes, Your Honor.

159a
Appendix I
THE COURT: Buckenmeyer was 1398?
MR. MULLIN: Correct, Your Honor.
THE COURT: Got that one. All right. I’m good.
Thank you.
MR. MULLIN: Thank you, your Honor.
BY MR. MULLIN:
Q. Let’s talk briefly about the decaf product.
Did you look into the question of whether or not the
vitamins and amino acids in the decaf product could have
impact on feelings of energy, alertness, mood and/or focus?
A. Yes. I think at the start of today I went through the
various -- the evidence with regard to the various different
vitamins and amino acids, which are the same ones that
are contained in the product, and I think those individual
vitamins and amino acids could well have effects on
increasing energy, alertness, mood and/or focus.
Q. What about -- do you recall the Nagrecha study?
A. Yes, sir.
[1284]Q. Is that relevant to an assessment of the efficacy
of the decaf product?
A. It is, inasmuch as the effective dose of choline had
20 milligrams of caffeine in it. So normally -- well, a

160a
Appendix I
decaffeinated product usually has somewhere between five
and, typically, nine milligrams of caffeine. A psychoactive
dose used in studies would usually be from 75 milligrams
sort of upwards, and the fact that there was an interaction
between caffeine and choline in a low dose may well be
relevant. It may well show that a low dose of caffeine in
the decaffeinated product, might also interact with the
other components.
Q. Are there any studies that purport to show the cognitive
impact of the decaf product?
A. No.
Q. What about Kurtz and Shock (phonetic)?
A. The last slide. Well, cognitive, it’s actually a mood effect,
so no cognitive effects. But there was a study -- I’ll find it if
you like. This is just looking at very low doses of caffeine.
Q. Why don’t we go back and talk about that for a second.
Are there studies that demonstrate low doses of
caffeine can have an impact on mood?
A. Yes. Certainly there’s evidence that decaffeinated
coffee has its own effects, its own independent effects,
[1285]independent of well -- it might have to do with the
low doses of caffeine in it, obviously, and decaffeinated
coffee has certainly been shown to improve cognitive
function and alertness. It might be to do with a small
dose of caffeine.

161a
Appendix I
In our own dose, looking at guarana, which we skipped
past before, this was a dose ranging study, so we’re trying
to find what is the effective dose of guarana. In terms
of memory performance, what we actually looked at the
lower doses administered, we administered four doses,
were the most effective, and they actually contain 4.5 and
9 milligrams of caffeine.
So the memory effect you’re seeing with very low
doses of caffeine, rather than high doses of caffeine.
Q. Do you recall how many milligrams of caffeine there
is in a decaf product?
A. Five milligrams of caffeine.
Q. Six milligrams?
A. Six milligrams.
THE COURT: Do we have this -- the guarana, do you
have a date on that? I can’t read the small print on the
slide. 2007, maybe?
THE WITNESS: It’s certainly around about then.
THE COURT: Thank you.
MR. MULLIN: We may have marked it as an exhibit,
Your [1286]Honor. Your Honor, I don’t know that we can
find the exhibit, but we’ve expanded it. It looks like it’s
2007.

162a
Appendix I
THE COURT: All right. Thank you.
MR. MULLIN: Yes. There we have it. We actually
have it up there.
BY MR. MULLIN:
Q. Now let’s talk about Shah, unless you want to talk about
something else with respect to this?
A. No. I think I was just going to really make the point,
going back to this. I looked at -- what we’re lacking,
in terms of the 5-hour ENERGY product, is a direct
measure, a direct control trial, which looks at the effects
of the combined sort of ingredients. But I think there
is plenty of evidence, looking at B vitamins, Taurine,
Tyrosine, and choline, which suggests, yes, that they have
relevance, absolute effects to this.
Q. And now can we look at the -- why don’t you go ahead
and do what you want.
A. So, and, obviously, having just gone to great pains to
sort of point out that I think that this pattern of results is
not due just to caffeine, it means that something in here is
also having bioactive effects, which could well be relevant
to the questions sort of at issue.
Q. Now, is there reported studies that purport to show an
impact of 5-hour ENERGY, decaf, on mood?
[1287]A. There is, for mood. So this is a study by Shah,
there’s actually two studies, where they used a measure

163a
Appendix I
of energy level, so subjective measure of energy level, in
both of the studies, which were blood pressure studies, and
what they found across the two, so when they combined
the data from the two, was that, both, the caffeinated and
decaffeinated five-hour product both led to a significant
increase in energy, subjective energy, at one hour and
three hours, and I believe these were not significantly
different than the combined -- I would need to check
on that, actually. They both led to the same pattern of
increased subjective energy.
Q. Now, one -- and I don’t know that we need to spend a
great deal of time on this, but Dr. Blonz relied on a study
prepared for the Oregon Department of Justice, that’s
sometimes referred to as the Cheskin report, and we’ll
need to mark this as the next exhibit.
THE CLERK: Defendant’s Exhibit 2255 is marked
for identification.
BY MR. MULLIN:
Q.So, Dr. Kennedy -- and I don’t want to spend a great
deal of time on the Oregon Department of Justice study,
but could you tell the court why it is you do not believe it
is a valid measure of the impact of or the efficacy of the
decaf, 5-hour product?
****

164a
AppendixOF
J TRANSCRIPT OF
APPENDIX J — EXCERPT
PROCEEDINGS OF THE SUPERIOR COURT OF
THE STATE OF WASHINGTON IN AND FOR THE
COUNTY OF KING, DATED AUGUST 31, 2016,
MORNING SESSION, 9:00 A.M.
[993]IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
No. 14-2-19684-9 SEA
COA No. 76463-2
STATE OF WASHINGTON,
Plaintiff,
vs.
LIVING ESSENTIALS, LLC,
Defendants.
VERBATIM REPORT OF PROCEEDINGS
Heard before:
Date:
Time:

The Honorable Beth Andrus
August 31st, 2016
9:00 a.m.
***

165a
Appendix J
[1018]motion.
THE COURT: Thank you very much. Mr. Mullin?
MR. MULLIN: Yes, your Honor, briefly. You know,
I think the starting point for a response is the actual
claims that are alleged in the complaint. And each
of those claims allege both falsity and deception and
capacity to deceive. They didn’t break them out. And so
the first question is, with respect to the falsity claims,
what is -- and Counsel did not address that issue. What
is the State’s burden with respect to the falsity claims,
with respect to the falsity claims, which is encompassed
in each of the -THE COURT: Let me stop you there.
MR. MULLIN: Okay.
THE COURT: So Ms. Gunning, are you claiming,
in claims 1 through 5, a separate cause of action based
on falsity, or are you just proceeding on the lack of
substantiation as a separate legal theory?
MS. GUNNING: Yes, it is a separate -- it is a
separate legal theory.
THE COURT: I understand that. My question is,
are you pursuing claims 1 through 5 on both theories, or
just on lack of substantiation at the time the statements
were made?

166a
Appendix J
[1019]MS. GUNNING: On lack of substantiation,
both, as it is broken out in the complaint, because it is
unfair and then deceptive, which is a -THE COURT: So falsity, if you did plead falsity,
you are not pursuing falsity at trial? I mean, you may
prove, as a matter of fact, that something is false to prove
your substantiation claim, but as a legal proposition,
are you abandoning any claim that these were false
advertisements?
MS. GUNNING: We think the evidence of Dr. Blonz
will show that the ads are, indeed, false, but we don’t
need that to get to a judgment.
THE COURT: Okay. I understand that. What I’m
hearing you say, just so we are clear, because this is
important, -MS. GUNNING: Yes.
THE COURT: -- is you are not pursuing, as a
separate legal theory, that the ads are false, and
therefore the -- you’re saying the Lanham doesn’t apply,
or I don’t need to look to Lanham, but you are contending
the ads are deceptive or unfair. And to the extent you
prove that there are false statements made, that would
just be evidence to prove the substantiation claim?
MS. GUNNING: If I have this right, because now
[1020]I’m getting confused, not because of anything your
Honor has said. Yes, the State’s claim is based on the

167a
Appendix J
section 5, FTC standard, where we are proceeding on the
argument that the ads aren’t substantiated by competent,
reliable evidence at the time that they were made.
THE COURT: So again, to the extent the legal
theory is falsity, you are not pursuing that at trial?
MS. GUNNING: No.
MR. MULLIN: Okay. That takes care of most of what
I was going to talk about, your Honor, because I think
that that -- they did plead it, and I think that knocks out
most of the claims. So the issue, then, is with respect to
substantiation, whether there is a capacity to deceive.
And how is the Court going to make that determination?
I think that’s really the rub here. And what does the law
require and what happens if they present on this capacity
to deceive issue? And what we have got on capacity to
deceive is Dr. Pratkanis, in the first instance. And Dr.
Pratkanis’s testimony was that there was a unique
selling proposition that somehow permeated all of the
claims. But what he did not present was any evidence
that consumers proceeded in that same way. And so
***
[1056]an advertiser, upon reading this?
A. That 5-Hour ENERGY helped you feel alert and
energized longer than coffee.
Q. Did you have any reason to believe that these
statements in the Appetite article were unfounded?

168a
Appendix J
A. No.
Q. Or were not true?
A. It is a peer-reviewed published article to me,
seemed pretty factual.
Q. Okay. Now, you can take that dow n. Now,
you understand that we are here in this court today
because the State of Washington contends that certain
advertisements that you wrote or produced are unfair
or deceptive? You understand that?
A. Yes.
Q. I want to go through some of those advertisements
in a moment, but first, sitting here today, do you personally
believe the statements and advertising claims that you
have written in 5-Hour ENERGY advertisements from
its inception?
A. Yes.
Q. Do you believe those statements to be true?
A. Yes.
Q. Do you believe those statements to be scientifically
supported to the extent they are required to have [1057]
scientific support?
A. I do.

169a
Appendix J
Q. Now, the State, in its trial brief and in some of the
evidence before you came in to this courtroom, referred
to something called the Mentel reports. Are you familiar
with the Mentel reports?
A. Yes.
Q. An the State has contended that you wrote
advertisements based on ideas or concepts in the Mentel
reports; is that true?
A. One time.
Q. One time?
A. One time I did.
Q. Tell the Court, tell us about the one time you wrote
an ad based upon information in a Mentel report, please.
A. It was this year’s report, which was dated, I
gathered, from last year. And in it, they always make
suggestions on what marketers should do in the industry.
And one of them, I thought they had a good idea for
once, was that millennials, older millennials who are
entering career and child-bearing years, who are now
experiencing a level of exhaustion they never realized
before, would be a good target audience for a product
like ours.
****

170a
AppendixOF
K TRANSCRIPT OF
APPENDIX K — EXCERPT
PROCEEDINGS OF THE SUPERIOR COURT OF
THE STATE OF WASHINGTON IN AND FOR THE
COUNTY OF KING, DATED AUGUST 30, 2016
[801]IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
No. 14-2-19684-9 SEA
COA No. 76463-2
STATE OF WASHINGTON,
Plaintiff,
vs.
LIVING ESSENTIALS, LLC,
Defendants.
VERBATIM REPORT OF PROCEEDINGS
Heard before:
Date:
Time:

The Honorable Beth Andrus
August 30th, 2016
9:00 a.m.
***

[978]seat.
MR. SNIDER: Afternoon, your Honor, I’m back. And
I will wait a moment for Ms. Erwin.

171a
Appendix K
Whereupon,
CARL SPERBER,
Having been first duly sworn, was called as a witness
herein, and was examined and testified as follows:
DIRECT EXAMINATION
BY MR. SNIDER:
Q. Mr. Sperber, could you please spell your name for
the record?
A. Carl, C A R L; Sperber, S P E R B E R.
Q. And maybe for the relief of everyone in the
courtroom, are you a scientist?
A. No.
Q. Excellent. Where are you employed?
A. At Agency 5 Media.
Q. What is Agency 5?
A. It is a whole subsidiary of Innovation Ventures.
Q. Innovation Ventures is one of the defendants, in
case you didn’t understand that.

172a
Appendix K
A. Yes.
Q. Now, prior to being employed by Agency 5, were
you employed by Innovation Ventures?
A. Yes.
[979]Q. How long have you been employed by either
Agency 5 or Innovation Ventures?
A. Since March of 2001, so 15 years.
Q. What’s your job with the companies?
A. Vice -- currently, vice-president of creative.
Q. How long have you held this creative position with
the companies?
A. Since the beginning.
Q. So 2001?
A. Yes.
Q. Now, can you describe for the Court, what does it
mean to be the director of creative? What are your job
responsibilities?
A. Well, anything involving outward facing advertising,
really. So I write copy for ads and, you know, whether they
are print, or radio, or television. I have formally did a lot

173a
Appendix K
-- all of the graphic design in the company for packaging
and, you know, print ads, things like that. I have two
designers that work for me, so I don’t know do too much of
that work anymore. So then, anything like that, anything
that gets printed or shown, I’m in charge of.
Q. Okay. Since you have been with the company since
2001, have you either written the copy or produced every
advertisement for the 5-Hour ENERGY product?
[980]A. Yes.
Q. And that includes both print advertising and
television?
A. Yes, and radio.
Q. All right. Now, when did Living Essentials develop
the 5-Hour ENERGY product?
A. In 2004.
Q. And so in 2004, you were employed with the
company at that time?
A. Yes.
Q. How many employees worked at -- worked with the
company back in 2004 when this product was developed?
A. Not very many. It was, I would say, between five
and eight.

174a
Appendix K
Q. And have you heard of the phrase, a start-up
company?
A. Yes.
Q. Would you describe the company at this time as a
start-up company environment?
A. Very much so.
Q. And what did that mean in terms of your job
responsibilities as one of a few employees in a start-up
company?
A. Well, it usually means that everybody wears a lot of
hats. So my job description was not limited to developing
advertising materials, or sales materials,
****

175a
Appendix L OF COMPLAINT
APPENDIX L — EXCERPT
FOR INJUNCTIVE AND OTHER RELIEF OF
THE KING COUNTY SUPERIOR COURT OF THE
STATE OF WASHINGTON, FILED JULY 14, 2017
KING COUNTY SUPERIOR COURT
STATE OF WASHINGTON
NO.
STATE OF WASHINGTON,
Plaintiff,
v.
LIVING ESSENTIALS, LLC, A MICHIGAN
LIMITED LIABILITY COMPANY, AND
INNOVATION VENTURES, LLC, A MICHIGAN
LIMITED LIABILITY COMPANY,
Defendants.
COMPLAINT FOR INJUNCTIVE
AND OTHER RELIEF
I. INTRODUCTION
1.1 Plaintiff the State of Washington (“the State”), by
and through its attorneys Robert W. Ferguson, Attorney
General, and Elizabeth J. Erwin and Kimberlee Gunning,
Assistant Attorneys General, brings this action against
Defendants Living Essentials, LLC and Innovation
Ventures, LLC for violations of the Consumer Protection
Act, RCW 19.86 (“CPA”), which the Attorney General is

176a
Appendix L
authorized to enforce. The CPA declares unlawful and
prohibits unfair or deceptive acts or practices in the
conduct of any trade or commerce. RCW 19.86.020.
***
http://www.5hourenergy.com/QandA.asp (last visited
July 14, 2014)
4.53 By stating that 5-hour ENERGY® is inappropriate
for children under 12, Defendants are implying that the
product is appropriate for adolescents age 12 and older.
4.54 In Jul y, 2013, The American Academy of Pediatrics
(“AAP”) has stated that “the claimed association of energy
drinks and ergogenic and performance enhancing effects
of the stimulants in energy drinks has not been adequately
studied in adolescents, who are more susceptible to the
negative health effects and who do not need stimulants to
support physical activity.” (Emphasis added). 5
4.55 According to the Yale Rudd Center for Food
Policy & Obesity, of the top 28 beverages ranked by teen
(defined as ages 12-17) TV advertisement exposure in
2010, 5-hour ENERGY® ranked number one, outranking
drinks like Kool-Aid, Capri Sun, Pepsi or Coke. Teens
5. Senat e Testi mony of the A mer ican Academy of
Pediatrics, July 31, 2013 (available at http://w ww.aap.org/
en-us /advocacy-a nd-pol icy/federa ladvocacy/ Doc u ment s /
SchneiderSenateCommerceCommitteeEnergyDrinksTestimony
7_31_13.pdf (last visited July 11, 2014).

177a
Appendix L
saw three times as many TV ads for 5-hour ENERGY®
in 2010 than for any other beverage analyzed.6
4.56 Despite the lack of competent and reliable
scientific evidence that their products are appropriate
for adolescents ages 12 and over, and the health risks
that caffeine presents to adolescents, Defendants
impliedly claim that 5-hour ENERGY® is appropriate
for adolescents 12 and older to consume.
V. FIRST CLAIM FOR RELIEF
(Violations of RCW 19.86.020 – Deceptive and/or
Unfair Representations Regarding the Effects of
Non-Caffeine Ingredients)
5.1 Plaintiff realleges and incorporates by reference
the allegations set forth in each of the preceding
paragraphs of this Complaint.
5.2 Defendants are “persons” within the meaning of
the Consumer Protection Act, RCW 19.86.010(1).
5.3 Defendants conduct “trade” or “commerce” within
the meaning of the Consumer Protection Act, RCW
19.86.010(2).
6. See Yale Rudd Center for Food Policy & Obesity, October
2011, “Sugary Drink Facts: Evaluating Sugary Drink Nutrition
and Marketing to Youth” http://www.sugarydrinkfacts.org/
resources/SugaryDrinkFACTS_Report.pdf (last visited July 11,
2014).

178a
Appendix L
5.4 Defendants engaged in unfair and/or deceptive
acts or practices within the meaning of RCW 19.86.020
by representing that the non-caffeine ingredients in
the Original and Extra Strength 5-hour ENERGY®
formulations – “vitamins, enzymes, amino acids” and
other ingredients – work to provide users with benefits
like energy, alertness and/or focus.
5.5 As alleged herein, these representations are false
and/or misleading because the non-caffeine ingredients
in the Original and Extra Strength 5-hour ENERGY®
formulations in fact do not provide any of the claimed
benefits and because Defendants lacked competent and
reliable scientific evidence to substantiate these claims.
5.6 Defendants’ representations are deceptive because
they had the capacity to mislead a substantial number of
consumers.
5.7 Defendants’ representations are unfair because
they are unethical, oppressive or unscrupulous.
5.8 Defendants’ conduct affected the public interest
and therefore constitutes unfair or deceptive acts or
practices in trade or commerce in violation of RCW
19.86.020.

179a
Appendix L
VI. SECOND CLAIM FOR RELIEF
(Violations of RCW 19.86.020. – Deceptive and/or
Unfair Representations Regarding Superiority to
Coffee or Other Sources of Caffeine)
6.1 Plaintiff realleges and incorporates by reference
the allegations set forth in each of the preceding
paragraphs of this Complaint.
6.2 Defendants are “persons” within the meaning of
the Consumer Protection Act, RCW 19.86.010(1).
6.3 Defendants conduct “trade” or “commerce” within
the meaning of the Consumer Protection Act, RCW
19.86.010(2).
6.4 Defendants engaged in unfair and/or deceptive
acts or practices within the meaning of RCW 19.86.020 by
representing that the Original and Extra Strength 5-hour
ENERGY® formulations are superior to consuming an
equivalent amount of caffeine from coffee or another
source.
6.5 As alleged herein, these representations are
false and/or misleading because the Original and Extra
Strength 5-hour ENERGY® formulations in fact are not
superior to consuming an equivalent amount of caffeine
from coffee or another source and because Defendants
lacked competent and reliable scientific evidence to
substantiate these claims.

180a
Appendix L
6.6 Defendants’ representations are deceptive because
they had the capacity to mislead a substantial number of
consumers.
6.7 Defendants’ representations are unfair because
they are unethical, oppressive or unscrupulous.
6.8 Defendants’ conduct affected the public interest
and therefore constitutes unfair or deceptive acts or
practices in trade or commerce in violation of RCW
19.86.020.
VII. THIRD CLAIM FOR RELIEF
(Violations of RCW 19.86.020 – Deceptive and/or
Unfair Representations Regarding Benefits
of Decaf 5-hour ENERGY®)
7.1 Plaintiff realleges and incorporates by reference
the allegations set forth in each of the preceding
paragraphs of this Complaint.
7.2 Defendants are “persons” within the meaning of
the Consumer Protection Act, RCW 19.86.010(1).
7 .3 Defendants conduct “trade” or “commerce” within
the meaning of the Consumer Protection Act, RCW
19.86.010(2).
7.4 Defendants engaged in unfair and/or deceptive
acts or practices within the meaning of RCW 19.86.020
by representing that the Decaf formulation of 5-hour

181a
Appendix L
ENERGY® provides any of the promoted benefits of
energy, alertness or focus.
7.5 As alleged herein, these representations are
false and/or misleading because the Decaf formulation of
5-hour ENERGY® does not in fact provide the claimed
benefits, as the only ingredient in the 5-hour ENERGY®
products that provides any meaningful effect when taken
as directed is caffeine and the amount of caffeine in Decaf
5-hour ENERGY® is insufficient to have a physiological
effect in most users. These representations are also false
and/or misleading because Defendants lacked competent
and reliable scientific evidence to substantiate these
claims.
7.6 Defendants’ representations are deceptive because
they had the capacity to mislead a substantial number of
consumers.
7.7 Defendants’ representations are unfair because
they are unethical, oppressive or unscrupulous.
7.8 Defendants’ conduct affected the public interest
and therefore constitutes unfair or deceptive acts or
practices in trade or commerce in violation of RCW
19.86.020.

182a
Appendix L
VIII. FOURTH CLAIM FOR RELIEF
(Violations of RCW 19.86.020 – Deceptive and/or
Unfair Representations Regarding a “Crash”)
8.1 Plaintiff realleges and incorporates by reference
the allegations set forth in each of the preceding
paragraphs of this Complaint.
8.2 Defendants are “persons” within the meaning of
the Consumer Protection Act, RCW 19.86.010(1).
8.3 Defendants conduct “trade” or “commerce” within
the meaning of the Consumer Protection Act, RCW
19.86.010(2).
****

